<html>
<title> - AN EXAMINATION OF DISCRIMINATION AGAINST TRANSGENDER AMERICANS IN THE WORKPLACE</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
 AN EXAMINATION OF DISCRIMINATION AGAINST TRANSGENDER AMERICANS IN THE 
                               WORKPLACE

=======================================================================

                                HEARING

                               before the

                        SUBCOMMITTEE ON HEALTH,
                     EMPLOYMENT, LABOR AND PENSIONS

                              COMMITTEE ON
                          EDUCATION AND LABOR

                     U.S. House of Representatives

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

             HEARING HELD IN WASHINGTON, DC, JUNE 26, 2008

                               __________

                           Serial No. 110-99

                               __________

      Printed for the use of the Committee on Education and Labor


                       Available on the Internet:
      http://www.gpoaccess.gov/congress/house/education/index.html




                   U.S. GOVERNMENT PRINTING OFFICE
43-027 PDF                  WASHINGTON : 2008
----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free(866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, 
Washington, DC 20402-0001











                    COMMITTEE ON EDUCATION AND LABOR

                  GEORGE MILLER, California, Chairman

Dale E. Kildee, Michigan, Vice       Howard P. ``Buck'' McKeon, 
    Chairman                             California,
Donald M. Payne, New Jersey            Senior Republican Member
Robert E. Andrews, New Jersey        Thomas E. Petri, Wisconsin
Robert C. ``Bobby'' Scott, Virginia  Peter Hoekstra, Michigan
Lynn C. Woolsey, California          Michael N. Castle, Delaware
Ruben Hinojosa, Texas                Mark E. Souder, Indiana
Carolyn McCarthy, New York           Vernon J. Ehlers, Michigan
John F. Tierney, Massachusetts       Judy Biggert, Illinois
Dennis J. Kucinich, Ohio             Todd Russell Platts, Pennsylvania
David Wu, Oregon                     Ric Keller, Florida
Rush D. Holt, New Jersey             Joe Wilson, South Carolina
Susan A. Davis, California           John Kline, Minnesota
Danny K. Davis, Illinois             Cathy McMorris Rodgers, Washington
Raul M. Grijalva, Arizona            Kenny Marchant, Texas
Timothy H. Bishop, New York          Tom Price, Georgia
Linda T. Sanchez, California         Luis G. Fortuno, Puerto Rico
John P. Sarbanes, Maryland           Charles W. Boustany, Jr., 
Joe Sestak, Pennsylvania                 Louisiana
David Loebsack, Iowa                 Virginia Foxx, North Carolina
Mazie Hirono, Hawaii                 John R. ``Randy'' Kuhl, Jr., New 
Jason Altmire, Pennsylvania              York
John A. Yarmuth, Kentucky            Rob Bishop, Utah
Phil Hare, Illinois                  David Davis, Tennessee
Yvette D. Clarke, New York           Timothy Walberg, Michigan
Joe Courtney, Connecticut            [Vacancy]
Carol Shea-Porter, New Hampshire

                     Mark Zuckerman, Staff Director
                Sally Stroup, Republican Staff Director

         SUBCOMMITTEE ON HEALTH, EMPLOYMENT, LABOR AND PENSIONS

                ROBERT E. ANDREWS, New Jersey, Chairman

George Miller, California            John Kline, Minnesota,
Dale E. Kildee, Michigan               Ranking Minority Member
Carolyn McCarthy, New York           Howard P. ``Buck'' McKeon, 
John F. Tierney, Massachusetts           California
David Wu, Oregon                     Kenny Marchant, Texas
Rush D. Holt, New Jersey             Charles W. Boustany, Jr., 
Linda T. Sanchez, California             Louisiana
Joe Sestak, Pennsylvania             David Davis, Tennessee
David Loebsack, Iowa                 Peter Hoekstra, Michigan
Phil Hare, Illinois                  Cathy McMorris Rodgers, Washington
Yvette D. Clarke, New York           Tom Price, Georgia
Joe Courtney, Connecticut            Virginia Foxx, North Carolina
                                     Timothy Walberg, Michigan
















                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on June 26, 2008....................................     1

Statement of Members:
    Andrews, Hon. Robert E., Chairman, Subcommittee on Health, 
      Employment, Labor and Pensions.............................     1
        Prepared statement of....................................     3
        Additional submissions for the record:
            Statement of Kathleen Marvel, senior vice president 
              and chief diversity officer, the Chubb Corp........    48
            Statement of Levi Strauss & Co.......................    50
            Statement of Alynna E. Lunaris.......................    51
            ``Through the Gender Labyrinth,'' article dated 
              November 19, 2000, from the Los Angeles Times......    53
    Baldwin, Hon. Tammy, a Representative in Congress from the 
      State of Wisconsin.........................................     5
        Prepared statement of....................................     7
    Frank, Hon. Barney, a Representative in Congress from the 
      State of Massachusetts.....................................     8
    Holt, Hon. Rush D., a Representative in Congress from the 
      State of New Jersey, submissions for the record:
        Statement of Pride at Work, AFL-CIO......................    75
        Statement of the National Gay and Lesbian Task Force 
          Action Fund............................................    76
        Statement of Rebecca E. Fox, national director, National 
          Coalition for LGBT Health..............................    80
        Statement of the Transgender Law Center..................    81
    Kline, Hon. John, Senior Republican Member, Subcommittee on 
      Health, Employment, Labor and Pensions.....................     3
        Prepared statement of....................................     4
    Sanchez, Hon. Linda T., a Representative in Congress from the 
      State of California, submission for the record:
        Statement of the Gay, Lesbian and Straight Education 
          Network................................................    82

Statement of Witnesses:
    Hendrix, William H. III, Ph.D., global leader, Gays, Lesbians 
      and Allies at Dow..........................................    27
        Prepared statement of....................................    29
    Lavy, Glen, senior counsel, the Alliance Defense Fund........    33
        Prepared statement of....................................    34
    Miller, JC, partner, Thompson Hine LLP.......................    23
        Prepared statement of....................................    25
    Minter, Shannon Price, Esq., legal director, National Center 
      for Lesbian Rights.........................................    43
        Prepared statement of....................................    45
    Sanchez, Diego Miguel, director of public relations and 
      external affairs, AIDS Action Committee....................    21
        Prepared statement of....................................    22
    Schroer, COL Diane J., U.S. Army, retired....................    12
        Prepared statement of....................................    15
    Taraboletti, Sabrina Marcus, aeronautics engineer............    37
        Prepared statement of....................................    40

 
     AN EXAMINATION OF DISCRIMINATION AGAINST TRANSGENDER AMERICANS
                            IN THE WORKPLACE

                              ----------                              


                        Thursday, June 26, 2008

                     U.S. House of Representatives

         Subcommittee on Health, Employment, Labor and Pensions

                    Committee on Education and Labor

                             Washington, DC

                              ----------                              

    The subcommittee met, pursuant to call, at 11:08 a.m., in 
room 2175, Rayburn House Office Building, Hon. Robert Andrews 
[chairman of the subcommittee] presiding.
    Present: Representatives Andrews, Miller, Kildee, McCarthy, 
Wu, Holt, Sanchez, Hare, Clarke, Kline, McKeon, Boustany, 
Price, Foxx, and Walberg.
    Also Present: Representative Payne.
    Staff Present: Aaron Albright, Press Secretary; Tylease 
Alli, Hearing Clerk; Tico Almeida, Labor Policy Advisor; Jody 
Calemine, Labor Policy Deputy Director; Carlos Fenwick, Policy 
Advisor, Subcommittee on Health, Employment, Labor and 
Pensions; David Hartzler, Systems Administrator; Brian Kennedy, 
General Counsel; Thomas Kiley, Communications Director; Ann-
Frances Lambert, Administrative Assistant to Director of 
Education Policy; Danielle Lee, Press/Outreach Assistant; Sara 
Lonardo, Junior Legislative Associate, Labor; Alex Nock, Deputy 
Staff Director; Joe Novotny, Chief Clerk; Megan O'Reilly, Labor 
Policy Advisor; Rachel Racusen, Deputy Communications Director; 
Meredith Regine, Staff Assistant; Margaret Young, Staff 
Assistant, Education; Mark Zuckerman, Staff Director; Robert 
Borden, Minority General Counsel; Cameron Coursen, Minority 
Assistant Communications Director; Ed Gilroy, Minority Director 
of Workforce Policy; Rob Gregg, Minority Senior Legislative 
Assistant; Alexa Marrero, Minority Communications Director; 
Molly McLaughlin Salmi, Minority Deputy Director of Workforce 
Policy; Ken Serafin, Minority Professional Staff Member; and 
Hannah Snoke, Minority Legislative Assistant.
    Chairman Andrews. Ladies and gentlemen, we are going to 
proceed. We do appreciate the patience of our guests. The full 
committee had to complete action on education legislation that 
we began yesterday and concluded this morning, so we thank you 
for your patience.
    Good morning, ladies and gentlemen, and welcome to the 
subcommittee. In all likelihood, someone is going to go apply 
for a job today and the employer is not going to tell him or 
her this, but the employer is going to say, you know, I am not 
comfortable with the way that person looks, with the way he or 
she presents him or herself, so I am not going to hire the 
person.
    In all likelihood, someone today is being considered for a 
promotion or an opportunity in his or her job. And behind 
closed doors an employer may well say, you know, this person 
makes us uncomfortable because of the way he or she looks or he 
or she presents him or herself. Under the present state of the 
law, if that is the reason given to deny someone a job, to fire 
them from a job they already have, or to deny them a promotion 
or move up, under Federal law it is legal, it is permissible to 
do that.
    I will confess to you a bias from the outset that to me 
this makes no sense whatsoever. I think if someone is the best 
code writer of the software company they should get the job. I 
think if someone is the best auto mechanic they should get the 
job. I think if they are the best bank teller they should get 
the job. The question of someone's orientation, someone's 
presentation should be absolutely irrelevant to the 
consideration of whether they get the job or the promotion. The 
purpose of this hearing is to explore the law in this area, 
which I would start from the premise as saying it does permit 
these kind of denials to take place and whether that should 
change or not. I think it should, I think it should.
    We are going to hear this morning from a number of 
witnesses who will provide a varying number of perspectives on 
this question. One of the elemental principles in American law 
we hope is merit. That whether or not someone is hired, whether 
or not someone is promoted, whether or not someone has economic 
opportunities is a function of how well they do their job or 
how well they would do their job and not a function of what I 
would call irrelevant prejudicial criteria. I feel strongly 
that someone's presentation is an irrelevant criteria. I think 
it has nothing to do with how well someone writes code or 
conducts bank transactions or fixes someone's car.
    And I aspire to the day when the law will protect every 
person in that position, and that he or she is able to go to 
work, do as well as he or she can and be judged on performance 
at work and not on prejudice of any other decision made.
    We are going to hear from a variety of witnesses this 
morning who will address those concerns. And we look forward to 
vigorous questioning from the members of the subcommittee as we 
move forward. I would also note for the record that there is 
context for this hearing. And that was this committee and the 
House's consideration of the Employment Non-Discrimination Act 
in the fall of 2007. It needs to be said, it needs to be 
reminded, that the bill that passed the House of 
Representatives did not include protection for transgender 
people. I believe it should have.
    And the purpose of this hearing is for those of us who 
believe that to make our case and for those who disagree to 
make theirs, and for people to draw an intelligent and rational 
conclusion from that debate. I am pleased in our work on this 
subcommittee to have the cooperation and colleague status with 
my friend from Minnesota, Mr. Kline, who is the ranking member 
of the subcommittee for the minority side. It is a pleasure 
working with him because he and I try to address all these 
issues on the basis of substance and merit to be fair in the 
way we approach these issues, and I am pleased that that 
tradition continues for today's hearing, and I welcome him into 
the hearing.
    [The statement of Mr. Andrews follows:]

Prepared Statement of Hon. Robert E. Andrews, Chairman, Subcommittee on 
                 Health, Employment, Labor and Pensions

    Good morning and welcome to the Health, Employment, Labor, and 
Pensions Subcommittee Hearing entitled ``An Examination of 
Discrimination Against Transgender Americans in the Workplace.''
    The purpose of today's hearing is to educate Congress and the 
public about the discrimination transgender American face particularly 
in the workplace absent a comprehensive federal law to protect them.
    Workplace discrimination against a particular group of people is 
morally unacceptable and conflicts with the principles we hold sacred 
in our society. Furthermore, workplace discrimination, unchecked, harms 
our economy both domestically and globally.
    When an employer is permitted to deny someone a job based on their 
identity without consequence, makes increases on our unemployment rate 
and diminishes our competitive edge in the global economy, making us 
less competitive in the global economy.
    Testifying before us today are some of the most distinguished and 
brightest members of our society, who were denied employment or fired 
because they are transgender. These individuals along with the roughly 
700,000 to 3 million transgender individuals living in America today 
run the risk of being fired, demoted or not even hired because of their 
gender identity.
    There are 12 states, including the District of Columbia with laws 
in place to protect transgender individuals from workplace 
discrimination, as well as, many reputable companies with 
antidiscrimination policies. Despite these protections, studies and 
surveys reveal high rates of unemployment and low-income status among 
transgender Americans.
    Today's hearing is simply a first step in identifying the problem 
workplace discrimination against transgender Americans.
    I thank the witnesses for coming forward to the subcommittee today 
and look forward to hearing your testimony.
                                 ______
                                 
    Mr. Kline. Thank you, Mr. Chairman, for those kind remarks. 
And I want to thank you, Mr. Chairman, for your flexibility in 
scheduling this hearing. There was some issue about what day we 
can do it, and I appreciate your flexibility to allow it on a 
day we could have more member participation. I wanted to thank 
our witnesses, certainly our colleagues in the first panel, and 
the witnesses in the second panel. I am looking forward to the 
testimony. I think it is a fair statement to say that all of us 
are committed to the principle that no employee should be 
subject to discrimination.
    But before we consider and enact any new Federal mandate, 
we must first determine a few things. Is a new law necessary? 
Is there evidence that this type of discrimination is 
occurring? Are current laws and employer policies unable to 
protect employees? We have numerous Federal and State laws and 
employer policies already on the books that help prevent 
discriminatory practices. Do we need yet another Federal law? 
That is part of what this hearing is about today. I look 
forward to the testimony of a really distinguished panel of 
witnesses, both panels of witnesses. And I yield back the 
balance of my time with asking unanimous consent that my entire 
statement be included in the record.
    Chairman Andrews. Without objection.
    [The statement of Mr. Kline follows:]

   Prepared Statement of Hon. John Kline, Senior Republican Member, 
         Subcommittee on Health, Employment, Labor and Pensions

    Good morning. I'd like to begin by thanking the witnesses for 
taking time out of their schedules to be here. I would also like to 
express my appreciation to Chairman Andrews for his flexibility in 
scheduling this hearing.
    The issue we are here to examine--gender identity and workplace 
discrimination--follows on the Majority's efforts last fall to include 
protections for transgender individuals in the employment non-
discrimination legislation. The purpose of this general hearing is to 
allow for thorough and thoughtful consideration of this issue, and any 
future proposals that might affect the American people.
    That said, I am somewhat puzzled as to why the Committee did not 
hold this hearing last year, before the Majority rushed to consider 
legislation on this issue.
    Last September, this Subcommittee held the only hearing on this 
topic. It was a hearing on a prior bill, the Employment Non-
Discrimination Act, which broadly aimed to prohibit organizations from 
discriminating in their employment practices against individuals on the 
basis of their actual or perceived sexual orientation and gender 
identity. During that hearing, we heard testimony from experts who 
cautioned that some of the provisions in that bill could be confusing, 
difficult to comply with, and potentially fraught with litigation. 
Complex questions were raised about how that bill would impact 
employers; whether it would preserve religious freedom and encroach on 
employee privacy; and how it would comply with existing anti-
discrimination statutes.
    The bill's sponsors scrambled to address these questions and 
concerns. Ultimately, they decided to split the original ENDA bill, 
separating the protections based on sexual orientation and gender 
identity and attempting to address some of the technical concerns. But 
only the new bill involving sexual orientation discrimination was 
rushed to the House Floor for a vote. The flawed bill still raised many 
of the same serious concerns that were previously identified. After the 
bill passed the House in November 2007, it stalled in the Senate, where 
it still awaits action.
    I can only speculate as to why no legislative action was taken on 
the other bill that sought protections based on gender identity. 
Despite the good intentions of those who supported these proposals, 
there still appeared to be too much uncertainty and too many unanswered 
questions. This explains why we are here today, examining an issue that 
perhaps should have been reviewed in greater detail before rushing to 
legislate.
    We are all committed to the principle that no employee should be 
subject to discrimination. Before we consider and enact any new federal 
mandates, however, we must first determine whether a new law is 
necessary. Is there evidence that this type of discrimination is 
occurring? Are current laws and employer policies unable to protect 
employees? We have numerous federal and state laws and employer 
policies already on the books that help prevent discriminatory 
practices. Do we need yet another federal law? It is my view that the 
role of this Committee, and Congress, is to build upon this framework 
only when needed, and to avoid legislating for its own sake.
    I look forward to hearing the testimony to be offered by our 
witnesses about the practical impact, benefits, and problems associated 
with this issue. I'm pleased that we will hear multiple perspectives on 
this topic, and hope this testimony will help ensure that any future 
well-intentioned efforts do not result in harmful, unintended 
consequences.
    I yield back the balance of my time.
                                 ______
                                 
    Chairman Andrews. Without objection, the opening statement 
of any member of the committee who wishes to include may as 
well. The chairman of the full committee, Mr. Miller, is here. 
I would ask if he would care to make an opening statement.
    Mr. Miller. No.
    Chairman Andrews. Is Mr. McKeon here also? I would extend 
the same courtesy to Mr. McKeon should he be interested?
    Mr. McKeon. No.
    Chairman Andrews. Okay. We are going to proceed with the 
first panel being two of our esteemed colleagues in the House; 
Representative Barney Frank, who is the chairman of the 
Financial Services Committee, an active member on so many 
issues. He has devoted countless hours to the housing crisis 
facing this country today. I know he is involved in very 
important negotiations with the Senate as we speak on how to 
address that crisis. I want to thank him for two things this 
morning; one is his leadership in so many areas of American 
law, and his good spirited approach to these issues.
    In the middle of our days we sometimes need to laugh with 
each other and not at each other. And Barney Frank has the 
unique ability to help us see the humorous insights at some 
very stressful times. And then the second is obviously for his 
leadership on civil rights issues in general and these issues 
in particular. Many of us believe that Mr. Frank is an 
inspiration for his work, and we are honored that he is with us 
here today.
    Representative Tammy Baldwin has a rare skill in the 
Congress that she is a great listener in a place where people 
love to talk. And she is a good talker too, a very good talker. 
But I very much enjoy the fact that I have seen her interact in 
situations that are sometimes stressful and divisive and she 
always listens with respect and dignity to the other side of 
any question. She has developed an outstanding legislative 
record in areas of consumer protection, environmental affairs, 
civil rights, education, national defense policy. And it is our 
honor to have her with us today as well.
    So I would ask if our two colleagues would begin with 
opening statements. I will tell you one thing this subcommittee 
has done in sort of an unofficial practice, is that because we 
want to get to our lay witnesses as quickly as we can, we open 
the panel to any questions from our colleagues, but we 
frankly--I won't say we discourage questions. I will say it. We 
discourage questions to our colleagues unless someone has 
something they really want to ask so we can get to the lay 
witnesses as quickly as we can. So Representative Frank and 
Representative Baldwin, thank you very much for your 
attendance, and you may begin.

 STATEMENT OF HON. TAMMY BALDWIN, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF WISCONSIN

    Ms. Baldwin. Thank you, Chairman Andrews and Ranking Member 
Kline, for inviting the two of us, and inviting me to testify 
at this very historic hearing. Many of my colleagues have asked 
me about the phrase ``gender identity'' and why employment 
protection is based on gender identity and expression ought to 
be included in any employment discrimination legislation this 
Congress takes up. And I will do my best to answer any 
lingering questions and clarify what drives many in the LGBT 
community to demand an inclusive approach to eliminating 
discrimination in the workplace, one that does not leave behind 
the smallest and most vulnerable part of our community. As you 
may know, gender identity is a person's internal sense of his 
or her gender. In the vast majority of the population, an 
individual's gender identity and his or her birth sex match. 
But for a small minority of people, gender identity and 
anatomical sex conflict.
    A common way that many transgender people describe this 
feeling is to say something to the effect of being trapped in 
the wrong body. Gender identity and sexual orientation are not 
the same, and transgender people may be heterosexual, lesbian, 
gay, or bisexual. There are thousands of transgender Americans 
who lead incredibly successful stable lives. They are dedicated 
parents; they contribute immeasurably to their communities and 
to their country. I personally know transgender people who work 
in fields as diverse as defense contracting, broadcasting, 
community organizing and the legal profession and I could go 
on. They have transitioned successfully, many with the full 
support of their employers.
    Despite these successes, because an individual was born one 
sex and presents oneself to the world as another, or in a way 
that other people may think is inconsistent with how a man or a 
woman should present themselves, he or she may face many forms 
of discrimination.
    Hate crimes against transgender Americans are tragically 
common. Transgender people also face discrimination in the 
mundane tasks of the every day; trying to find housing, 
applying for credit or even seeing a doctor. And of course, the 
focus of today's hearing, in trying to provide for themselves 
and their families.
    As some of you know, I practiced law in a small general 
practice firm before I was elected to the Wisconsin assembly. 
On occasion, I represented clients who were fired from jobs in 
violation of Wisconsin's landmark 1982 nondiscrimination law 
that added sexual orientation to our State's anti-
discrimination statutes. During that time, I met a transgender 
woman who has left a lasting impression upon me. This woman had 
been fired from a management position at a large local employer 
when she announced to her boss that she intended to transition. 
And because Wisconsin's law gave her no legal recourse, she 
faced an impossible situation and ended up moving to a 
different State. I remember a time in my own life when I 
thought I had to choose between living my own life with truth 
and integrity about who I am as a lesbian or pursuing the 
career of my dreams in public service. Among the things that 
made me change my mind was Wisconsin's nondiscrimination law 
that had passed only four years before I first ran for local 
office as an out lesbian. The importance of nondiscrimination 
laws cannot be overstated. Substantively they provide real 
remedies and a chance to seek justice.
    Symbolically they say to America, judge your fellow citizen 
by their integrity, character and talents, not their sexual 
orientation or gender identity or race or religion for that 
matter. Symbolically, these laws also say that an irrational 
fear, an irrational hate have no place in our work places. 
Today, 39 percent of Americans live in areas explicitly banning 
discrimination based on gender identity and expression. And at 
least 300 major U.S. businesses now ban discrimination based on 
gender identity and expression. Corporate America and the 
American people are way ahead of the Congress in acknowledging 
the basic truth we hold to be self-evident that all of us are 
created equal, and the laws of the land should reflect that 
equality. It is high time that America declared discrimination 
based on gender identity and expression to be unlawful.
    Mr. Chairman, I wholeheartedly support your committee's 
efforts to do just that. For the record, I support, like you, 
an inclusive bill which ensures that hard working Americans 
cannot be denied job opportunities, fired or otherwise 
discriminated against just because of their sexual orientation, 
gender identity or gender expression. All of us who have had 
the honor of working in this institution know that one of the 
greatest things about America is that it is not only a Nation, 
it is also an idea. And our American dream promises that no 
matter where we start, no matter who we are, that if we work 
hard, we will have the opportunity to advance. This committee 
can help fulfill that promise. Thank you, Mr. Chairman.
    Chairman Andrews. Thank you very much Congresswoman Baldwin 
for the incisive legislative record you built and the dignity 
with which you conduct yourself. Thank you.
    [The statement of Ms. Baldwin follows:]

Prepared Statement of Hon. Tammy Baldwin, a Representative in Congress 
                      From the State of Wisconsin

    Thank you Chairman Andrews, Ranking Member Kline, and members of 
the Committee for allowing me the opportunity to testify today at this 
historic hearing.
    Many of my colleagues have asked about the phrase ``gender 
identity'' and why employment protections based on gender identity and 
expression ought to be included in any employment discrimination 
legislation Congress takes up. I'll do my best to answer any lingering 
questions and clarify what drives many in the LGBT community to demand 
an inclusive approach to eliminating discrimination in the workplace--
one that does not leave the smallest and most vulnerable part of our 
community behind.
    As you may know, gender identity is a person's internal sense of 
his or her gender. In the vast majority of the population, an 
individual's gender identity and his or her birth sex ``match.'' But 
for a small minority of people, gender identity and anatomical sex 
conflict. A common way for many transgender people to describe this 
feeling is to say something to the effect of being ``trapped in the 
wrong body.'' Gender identity and sexual orientation are not the same 
and transgender people may be heterosexual, lesbian, gay or bisexual.
    There are thousands of transgender Americans who lead incredibly 
successful, stable lives, are dedicated parents, contribute 
immeasurably to their communities, their country. I personally know 
transgender people who work in fields as diverse as defense 
contracting, broadcasting, community organizing, the legal profession--
I could go on. They have transitioned successfully, many with the full 
support of their employers.
    Despite these successes, because an individual was born one sex and 
presents themselves to the world as another--or in a way that other 
people may think is inconsistent with how a man or a woman should 
present themselves--he or she can face many forms of discrimination.
    Hate crimes against transgender Americans are tragically common. 
Transgender people also face discrimination in the mundane tasks of the 
everyday--trying to find housing, apply for credit, or even see a 
doctor * * * and, of course, in the focus of today's hearing: trying to 
provide for themselves and their families.
    Some of you know that I practiced law for a few years in a small 
general practice firm before I was elected to the Wisconsin Assembly. 
On occasion, I represented clients who were fired in violation of 
Wisconsin's 1982 non-discrimination law that added sexual orientation 
to our state's anti-discrimination statutes. During that time, I met a 
transgender woman who left a lasting impression, though she was never a 
client. This woman had been fired from a management position at a large 
local employer when she announced to her boss that she intended to 
transition. And because Wisconsin law gave her no legal recourse, she 
faced an impossible situation--and ended up moving to a different 
state.
    I remember a time in my own life, when I thought I had to choose 
between living my life with truth and integrity about who I am, as a 
lesbian, or pursuing the career of my dreams in public service. Among 
the things that made me change my mind was Wisconsin's Non-
Discrimination law that passed four years before I first ran for local 
office * * * as an out lesbian.
    The importance of nondiscrimination laws cannot be overstated. 
Substantively, they provide real remedies and a chance to seek justice. 
Symbolically, they say to America, judge your fellow citizens by their 
integrity, character, and talents, not their sexual orientation, or 
gender identity, or their race or religion, for that matter. 
Symbolically, these laws also say that irrational hate or fear have no 
place in our work place.
    Today, 39% of Americans live in areas explicitly banning 
discrimination based on gender identity and expression and at least 300 
major U.S. businesses now ban discrimination based on gender identity 
and expression. Corporate America and the American people are way ahead 
of the Congress in acknowledging the basic truth we hold to be self-
evident * * * that all of us are created equal * * * and the laws of 
the land should reflect that equality. It is high time that America 
declare discrimination based on gender identity and expression 
unlawful.
    Mr. Chairman, I wholeheartedly support your Committee's efforts to 
do just this. For the record, I support an inclusive bill which ensures 
that hard-working Americans cannot be denied job opportunities, fired 
or otherwise be discriminated against just because of their sexual 
orientation, gender identity, and gender expression.
    All of us who have had the honor of working in this institution 
know that one of the greatest things about America is that it is both a 
nation and an idea. Our American Dream promises that no matter where we 
start, no matter who we are, if we work hard, we will have the 
opportunity to advance. This Committee can help fulfill that promise.
    Thank you.
                                 ______
                                 
    Chairman Andrews. Mr. Chairman.

 STATEMENT OF HON. BARNEY FRANK, A REPRESENTATIVE IN CONGRESS 
                FROM THE STATE OF MASSACHUSETTS

    Mr. Frank. Mr. Chairman, to you and to the chairman of the 
full committee my deepest appreciation. Having become a 
chairman of a full committee, I understand the problems of 
trying to fit everything in. And there are a lot of members who 
would have put this hearing, let us be honest, pretty low on 
the totem pole. And in fact, it wouldn't have been hard to find 
an excuse not to have this hearing. And give us the opportunity 
to meet our responsibility, confront something some people 
might pretend not to be here.
    My colleague has given you a very good explanation of this 
issue, although I have to say, to get focused, when she said 
that people express this as having a feeling they are trapped 
in the wrong body, I was talking to the chairman of the full 
committee, the phrase having something trapped in the wrong 
body is how we often feel when our legislation goes to the 
Senate. We have a lot of legislation trapped in the wrong body.
    But to get to this issue, and my colleague has laid it out, 
first of all, we should be very clear, the overwhelming 
majority of legal interpretation is that gender identity is not 
covered when you ban sexual orientation. It simply isn't 
covered. And frankly, nobody who thinks it should be covered 
uses that argument. I mean, if you think it should be covered, 
if there is any uncertainty--let us put it this way. Whenever 
members of this body object to something on the grounds that it 
is redundant, I am skeptical. We are a profession, many of us 
lawyers, where redundancy is part of our code here in Congress. 
I mean, using a few extra words is rarely something that we 
object to.
    So when people say they don't want it because it is 
redundant, they mean I don't want it, but I don't really want 
to tell you why I don't want it. But in this case, there is no 
argument for redundancy. Any lawyer will tell you. People are 
excluded.
    The next argument is, well, it can be disruptive. I mean, 
these are for people who say there should be equality. And I 
appreciate the gentleman from Minnesota saying a principle I 
think we all agree with; that people should not be denied a 
chance to earn a living because of some essential element of 
their personality that is really relevant directly to them and 
causes no harm to anyone else. So the argument though is 
sometimes it can be disruptive. I have been--I filed a gay 
rights bill in 1972, unlike my colleague, who was both younger 
and had the chance being from Wisconsin, and she said because 
of that law she didn't have to face this choice of living 
without--but I did and I made the wrong choice for a while, and 
behaved irresponsibly because of it. I was ultimately able to 
get freed from it.
    And let me just say at this point what I hope will be 
relevant as people get to know people in the transgender 
community and as we make progress here, I recognized when I 
first got involved in politics, if I was honest about who I was 
I would have made some people nervous, but they got used to me. 
I just want to reassure people here, you are going to get used 
to them. I understand this is new and we are human beings and 
new and different sometimes make us nervous. But you know, 
look, Tammy Baldwin and I, early on in our careers, given the 
nature of prejudice, frankly in this society, we were seen as 
exceptions. People were nice to us, but we were exceptions, we 
were the good ones.
    Well, we didn't want to be exceptions. And now I think we 
are not exceptions, we are examples. We are examples of the 
benefits all around when you overcome prejudice. Let us give 
the country a chance to expand that experience to people of 
transgender. And as for the disruption, I filed the gay rights 
bill in 1972. I have filed and worked for any discrimination 
measures; sexual orientation, race, gender, ethnicity, 
disability.
    And I will address for those who say, well, you got to do 
it all at once, I have never done it all at once. As a matter 
of fact, for a long time, I have worked for legislation which 
protected other people, not me. I finally got old enough to 
benefit from age discrimination in legislation. But every bill 
that I have ever been involved with where we tried to ban 
discrimination has met the same argument; I got nothing against 
those people, they are okay, but it will be disruptive. I have 
heard that with regard to sexual orientation, with affirmative 
action.
    Certainly I mean, not with race, aside from affirmative 
action, with ethnicity, with gender, with disability. People 
always say it is going to be disruptive and it never is. I wish 
somebody who has got some time would go back and look at every 
anti-discrimination measure we have ever enacted and see the 
similarity of the arguments, and nobody goes back and says, 
well, where was the disruption? There almost never is 
disruption. As a matter of fact, the sad truth about any 
discrimination legislation, as people know, there are some 
people here who practiced it, it tends to be under enforced 
because the people who want to discriminate can get 
sophisticated, and the burden of proof is always on the one who 
is charging discrimination.
    So the argument that it can be disruptive just doesn't 
work. The argument that it is already done, it is not true. So 
as to need, you are going to hear from a witness who applied 
for and was granted a job by the Library of Congress. We are 
not talking about some benighted institution out in some remote 
part of the country. The Library of Congress, our intellectual 
and cultural center, a person was hired. And when that 
individual told the hiring agent, well, I am going through a 
gender change, she lost her job. And she lost her job, and I am 
deeply offended by this because the hiring people said, oh, do 
you know what, you are going to working on terrorism, Members 
of Congress won't respect you.
    Well, I very much resent having that prejudice imputed to 
me and to you. And I hope that the Library of Congress will 
come to its senses and rescind this terribly bigger decision. 
But let us be clear. You asked if there is a need if this can 
help a qualified military veteran here in the Library of 
Congress. Of course, there is a need in other parts of the 
country. And let me just close personally. And I understand, 
let us again be honest, I realized--look, when I first realized 
I was gay, it made me uncomfortable 50 years ago. It is not 
something--sexuality and difference, they come together, they 
get to the core of our human frailty, but we do get used to 
each other.
    And in virtually every case where we have confronted a 
prejudice it has worked out fine and we now boast about the 
lack of it. We are simply saying this is a new category to some 
people. But everything else that applies in every other case 
applies here. And for people for whom you think, well, gee, it 
makes you uneasy, well, how do you think it makes the people 
who are themselves transgender feel? Does anybody think anybody 
would volunteer to engage--to feel the kind of tension that my 
colleagues have so well described, to feel trapped in the wrong 
body? And these are people who have courageously tried to deal 
with that so that they can maximize their ability to live the 
same lives we all want to live.
    Why would we deny them protection? I understand--as I said, 
people got used to it. But that is all they are asking. Nobody 
is asking anybody to have dinner with people that make you 
uneasy or take them to the movies. Let them work, let them 
work. People are asking for the right to have a job and be 
judged on that job by the way in which they do the job. Why 
should that be considered disruptive? And the fact that they 
are this or that or the other, it is no more relevant than it 
used to be about their race or their gender or their sexual 
orientation.
    And as my colleague pointed out, American corporations have 
benefited from this. No one is being given a license to 
misbehave, no one is being given a license here to be bizarre, 
although this institution has a tolerance for the bizarre that 
maybe other institutions would well emulate. But that is all we 
are asking.
    So just to summarize, you have heard from my colleague who 
we are talking about. Not a huge number of people. But they are 
people who, first of all, had a deep anguish and have 
courageously dealt with that. And they are only asking to be 
constructive citizens and to be allowed their personal space. 
But to be judged in their impersonal work, their economic work, 
solely by their merits. They are not now protected by the law. 
The argument that it would be disruptive is simply not true.
    It hasn't been disruptive in major corporations or in those 
States that have done it. These are people who are grappling 
with something that many here, let us be honest, are probably 
grateful that you don't have to grapple with. Can't you help 
them? That is all we are talking about. We are talking about 
responding as a compassionate society knowing that fighting 
discrimination legally has worked well for this country, to 
extend it to a group that may be new, that is certainly new, 
may be disturbing to a few people. But there is no more reason 
to deny them that than there was to anybody else. Thank you.
    Chairman Andrews. Thank you. And we appreciate the 
compliments to the committee. But the way we operate here is we 
don't measure our duty by the quantity of those who are 
aggrieved. We measure it by the depth of the grievance that 
those who have been discriminated against suffer. So we are not 
concerned about how many people have been discriminated 
against, we are concerned about the gravity of the 
discrimination. The way that I would like to proceed is if--do 
any of our members have questions on the majority side for 
either of our colleagues? That is very good.
    Mr. Frank. Can I ask, as the chairman of a full committee, 
can I ask you two questions? How do you get them to not make 
opening statements and not ask questions?
    Chairman Andrews. Ask Mr. Miller. He is good at that. Any 
on the minority side for our colleagues? I would propose that 
we have a number of floor votes, we will go cast our votes, we 
will immediately return and proceed with the next panel and we 
will stand in adjournment until then.
    [Recess.]
    Chairman Andrews. Ladies and gentlemen, the subcommittee 
will reconvene. We thank you for your patience. Hopefully there 
will be a hiatus in floor votes so we can get to our business.
    I am going to begin by reading the biographies of our 
witnesses who are here for our second panel. And we will then 
proceed with statements from the panelists and questions from 
our colleagues that are present here.
    COL Diane Schroer served for 25 years in the Army Special 
Forces as a key strategist on homeland security. After entering 
the Army, Colonel Schroer completed Ranger and Airborne School 
and eventually rose to position senior assessment director. The 
Colonel is an honors graduate of the U.S. Army Special Forces 
Qualification Course and holds an undergraduate degree from 
Northern Illinois University.
    Colonel, welcome, and thank you for your service to our 
country.
    Diego Sanchez is the director of Public Relations and 
External Affairs for the AIDS Action Committee. Mr. Sanchez has 
26 years of experience in public and media relations--we could 
use you--marketing and diversity management. Hispanic Business 
magazine named him among the top 100 most powerful Latinos/
Latinas in corporate America. Mr. Sanchez is a Rhodes Scholar 
candidate and an UMass Boston emerging leader senior fellow. He 
holds a BA from the University of Georgia.
    Welcome, Mr. Sanchez. Glad you are with us.
    JC Miller is a partner at the law firm of Thompson Hine LLP 
focusing on labor and employment law as well as business 
litigation. Prior to entering private practice, Ms. Miller was 
an assistant attorney general for the State of Florida, chief 
of litigation for the Florida Department of Labor and 
Employment Security, and special counsel to the Florida 
Department of Corrections. She holds a BA from Smith College 
and a JD from the University Of Notre Dame Law School.
    Welcome, Ms. Miller. Glad that you are with us.
    Bill Hendrix has worked for the Dow Chemical Company since 
1989 and has been active in the company's Gay, Lesbian and 
Allies at Dow, which is GLAD, the acronym, network almost since 
its inception in 2000. Mr. Hendrix has made presentations on 
LGBT topics at the Out and Equal Conference and for local 
employee resource groups. He also serves on the Board of the 
Indiana Youth Group, a local LGBT youth advocacy agency. Mr. 
Hendrix holds a Ph.D. from Iowa State University.
    Welcome. It is Dr. Hendrix, I guess it should be then, 
right? Welcome.
    Glen Lavy is senior counsel and senior vice president for 
marriage litigation for the Alliance Defense Fund. Before 
joining the ADF, Mr. Lavy practiced litigation matters such as 
securities fraud, antitrust and tax law. He also worked for two 
years as senior law clerk to the Honorable John L. Coffey, 
United States Court of Appeals for the Seventh Circuit. Mr. 
Lavy is a graduate of the Harvard Law School where he served as 
executive editor of the Harvard Journal of Law and Public 
Policy.
    Welcome, Mr. Lavy. We are glad that you are with us.
    Sabrina Marcus Taraboletti worked for 23 years as a space 
shuttle aeronautics engineer with a NASA contractor at the 
Kennedy Space Center. Ms. Taraboletti currently works for the 
Florida Department of Transportation. She earned her 
undergraduate degree from SUNY Maritime College, earning a 
Coast Guard license to be a Merchant Marine Officer.
    Welcome, Ms. Taraboletti. Glad you are with us.
    And finally, last but not least, Shannon Minter is legal 
director for the National Center for Lesbian Rights, one of the 
Nation's leading advocacy organizations for lesbian, gay, 
bisexual, and transgender people. He also serves on the 
American Bar Association Commission on Sexual Orientation and 
Gender Identity and holds a J.D. from the finest law school in 
America, the Cornell Law School, and an honorary degree from 
the City University of the New York School of Law.
    I say that because I am hopelessly biased but also 
inscrutably accurate.
    In front of you, you will see a panel of lights. This is so 
that we can keep people's testimony under some time constraints 
and get to questions from the members of the committee.
    Your written statements will be accepted, without 
objection, to the record in their entirety.
    As far as your oral statements are concerned, we ask that 
you limit them to five minutes. When the green light goes on, 
you should begin speaking. When the yellow light appears, that 
means you have one minute, and we would ask you to summarize 
your oral remarks. And when the red light goes on we would ask 
you to stop, so we can move on to the next person.
    And with that, we will begin, Colonel, with you. And we 
welcome you to the subcommittee.

     STATEMENT OF COL DIANE J. SCHROER, U.S. ARMY, RETIRED

    Colonel Schroer. Mr. Chairman and committee members, thank 
you for the opportunity to appear and testify here today.
    My name is Diane Schroer, COL, U.S. Army, retired, and I am 
a transgender woman. I grew up in Chicago as David Schroer with 
two older brothers in the most normal of loving families. I 
entered the U.S. Army through ROTC as a second lieutenant 
immediately following graduation from Northern Illinois 
University in 1978. I completed Ranger and Airborne School, and 
in 1987, I was an honor graduate of the U.S. Army Special 
Forces Qualification Course.
    I served 16 years in Special Forces, including tours as a 
detachment commander, company commander and battalion 
commander, accumulating 450 parachute jumps. I participated in 
combat operations in Panama and Haiti, as well as operational 
missions in the Middle East, Central America, Africa, and 
Europe. Additionally, I initiated humanitarian demining 
operations in most of southern Africa.
    At U.S. Special Operations Command, I orchestrated the 
Program Objective Memorandum, or POM, reviewing 5,000 program 
lines, covering all aspects of Special Operations for four 
years. I knew every unit, piece of equipment, operation, 
exercise, development program and construction project, where 
every dollar was supposed to be spent, and where it actually 
was spent.
    Following 9/11, I was selected to organize and direct a 
classified 120-person interagency organization responsible for 
all Department of Defense operations against the country's most 
significant terrorist threats and all long-term planning for 
the global war on terrorism.
    After almost two years of successful operations, with 25 
years in the Army, 12 of those in command positions, I retired 
in January 2004. Cumulatively, the U.S. Government had spent 30 
years and several million dollars educating me and perfecting 
my experience in the fields of insurgency and counterterrorism.
    I currently run a small independent consulting company that 
has done work for the Department of Homeland Security, the U.S. 
Coast Guard, the National Guard, and the Federal Bureau of 
Investigation, focused on homeland security and maritime high-
risk counterterrorism operations. I possess a Top Secret 
Special Compartmented Information capable security clearance, 
which was updated without issue in July 2007.
    I am here today, because in fall 2004, I applied and 
interviewed for the position of specialist in terrorism and 
international crime with the Congressional Research Service of 
the Library of Congress. In December, I was told I had been 
selected for the position, and after some rapid salary 
negotiations, I accepted the job.
    At the time I applied for the position, I was in the 
process of my gender transition from Dave to Diane, although 
still legally David, and therefore applied as David. When I was 
offered the job at CRS in December 2004, I felt it would cause 
less confusion all around if I simply started work as Diane. So 
I invited my future supervisor to lunch so I could tell her 
about my plans and help her ensure everything went smoothly.
    I met my future supervisor at her office, and she 
introduced me to several new colleagues. At lunch, she spoke at 
length on my new responsibilities involving preparing, 
publishing, and informing Members about the critical issues 
surrounding terrorism and homeland security.
    Midway through lunch, I mentioned a personal item that I 
wished to discuss. I asked her if she knew what it meant to be 
transgender. I explained that I had a female gender identity 
and was going to be living full time as a female. My intent was 
to start when I commenced work at CRS.
    I knew that whether I was David or Diane, I would provide a 
wealth of background knowledge and superb research support to 
the Congress. I had truly felt that my future supervisor at CRS 
would feel the same way. Yet as we parted company following 
lunch, she mentioned that I had given her a lot to think about.
    The following day, she called and said that, after a long 
and sleepless night, she decided I was not a good fit for the 
Library. In 24 hours, I had gone from a welcome addition to the 
staff to someone who was not a good fit. As we used to say, 
hero to zero in 24 hours.
    I enlisted the assistance of the ACLU. And in June of 2005, 
they filed suit in Federal Circuit Court against the Library of 
Congress. In its legal papers, the Library has claimed it 
didn't hire me because I would lose my colleagues in the 
Special Operations community. Ironically, these are precisely 
the people who have been second only to my family as my 
staunchest supporters. The Library has claimed that it could 
not hire me because it was concerned I would lose my security 
clearance, yet it was recently renewed without issue. The 
Library has claimed that it could not hire me because I would 
have no credibility with Members, yet I testify in front of 
this committee here today.
    In summary, I hope every day for the call to come from the 
Library saying, ``we have made a tremendous mistake.'' I am 
ready and able to serve this country once again. And I look 
forward to doing so.
    Thank you.
    [The statement of Colonel Schroer follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                                ------                                

    Chairman Andrews. Colonel, thank you very much for your 
time.
    Mr. Sanchez, welcome to the committee.

STATEMENT OF DIEGO MIGUEL SANCHEZ, DIRECTOR OF PUBLIC RELATIONS 
          AND EXTERNAL AFFAIRS, AIDS ACTION COMMITTEE

    Mr. Sanchez. Mr. Chairman and members of the subcommittee, 
thank you for adding my voice to those you hear today.
    My name is Diego Miguel Sanchez, and I am a 51-year-old 
transsexual Latino man. I was born female and transitioned to 
male. I grew up as an Army brat and ended up in Augusta, 
Georgia, where my 80-year-old mother lives today. When I was 
five, I told my parents I was born wrong, that I felt like a 
boy inside.
    My mother showed me a magazine with Christine Jorgensen on 
the cover. She has told me that she didn't know if there were 
other people like me, people who were born a girl and felt like 
a boy, but that this woman was born a boy, grew up to be a man, 
and became a woman later in life. And she said that by the time 
that I grew up, that it would be okay. From that time, my 
parents gently, privately, dually socialized me. My mother 
taught me to do the things that girls needed to do. And my 
father raised me to know the lessons that men would have to 
know.
    It was difficult and painful. I have to be honest. I had as 
many tutus as Tonka trucks. But I could survive the former 
because of the latter. My parents always gave me hope, and my 
positive outlook on life is the fruit of that loving labor.
    Mom was mostly right. It is usually pretty okay for me 
these days. I am grateful to be gainfully employed by the AIDS 
Action Committee of Massachusetts and AIDS Action Council here 
in Washington as the director of Public Relations. My degree is 
in journalism from the University of Georgia. I have a major in 
public relations. I am the only male Georgia letterman that I 
know of who earned that letter on the women's tennis team.
    I was one of those straight-A perfect-attendance types. Dad 
always told me, ``the harder you work, the luckier you get.'' I 
worked hard, and I am lucky.
    Because sex reassignment procedures weren't as developed in 
1980 as they are now, I focused on work, hoping to change 
things later. I spent nearly 20 award-winning years climbing 
the corporate ladder in global companies, names that you would 
know, like Coca-Cola, Burson-Marsteller, Holiday Inn Worldwide, 
ITT Sheraton, and Starwood Hotels.
    I am a loyal worker, a passionate leader, and a man who had 
to wait for fear of being fired to be who I was always destined 
to be, Diego Miguel Sanchez, an honorable man.
    My career entailed navigating the newly defined glass 
ceiling. It entailed probing limited opportunities for female 
professionals of color. And it entailed trying to find a way to 
be a man while I looked like a woman in the workplace. It was 
heartbreaking and painful. But it was necessary, and it was the 
only way that I knew to save money to have sex reassignment, 
which I did later from my own savings.
    I struggled to find self-respect in a world that I never 
imagined would allow, let alone accept or embrace, someone like 
me, someone who seemingly was born wrong. I was an honest 
person who could be honest about everything, except myself. I 
negotiated with my corporate colleagues for things that would 
moderately affirm me. Things that would mean nothing to anyone 
else meant so much to me. It meant everything to get a tie 
instead of a scarf as the company talisman. I asked people to 
use my first initial as my first name until I could change this 
medically and legally.
    I have lived long enough to achieve these gains because I 
was able to do the one thing that military families are taught 
when there is a challenge: I sucked it up. But when my head 
hits the pillow every night, I close my eyes and think about my 
friends who are transgender whose lives aren't so easy. I miss 
my friend Alexander John Goodrum, who took his own life. I feel 
guilty about my brother, my friend, Ethan St. Pierre, who lost 
his job just because he began his transition from female to 
male. I still recognize that he lost his job because he was 
brave and honest.
    And because I work in public health, I know countless 
transgender people who are homeless. These are good people who 
can't get work. I flash my ID every day. It is never 
questioned. But I have friends whose licenses and IDs don't 
match their gender identity. So they are disclosed as 
transgendered the minute that they have to show that ID, 
including when they try to get work. I see this burden when 
recruiting firms do their due diligence and check my Social 
Security number. It closes doors for me, and it limits the 
lives of my friends.
    I grew up in the south where I wasn't allowed to be in 
public swimming pools because I am not white. This experience 
of employment discrimination against trans people feels like a 
flashback. Please treat us, including me, transgender people, 
as you treat others.
    Thank you.
    [The statement of Mr. Sanchez follows:]

               Prepared Statement of Diego Miguel Sanchez

    Mr. Chairman and Members of the Subcommittee: Thank you for adding 
my voice to those you hear today. My name is Diego Miguel Sanchez, and 
I am a 51-year old transsexual Latino man. I was born female and 
transitioned to male. I grew up as an Army brat around the world, 
ending up in Augusta, Georgia, where my 80-year-old mother lives today.
    When I was five, I told my parents that I was born wrong, that I 
felt like a boy inside. My mother showed me a magazine with Christine 
Jorgensen on the cover. She told me that she didn't know if there were 
other people like me--girls who felt like boys--but that this woman was 
born a boy, felt like a girl and was able to become a woman later in 
life. Mom told me that by the time I grew up, it would be okay. From 
that time, my parents gently, privately, dually socialized me, but it 
was our secret, of sorts. My mom prepared me for life as girls are 
expected to be, and my dad taught me the lessons that boys needed to 
become men. It was rough--I had as many tutus as Tonka Trucks. But I 
could survive the former because of the latter. My parents always gave 
me hope, and my positive outlook on life, despite painful hardships, is 
the fruit of that loving labor. Mom was mostly right; it's almost okay 
for me these days.
    I am grateful to be gainfully employed as the Director of Public 
Relations & External Affairs at AIDS Action Committee of Massachusetts 
and AIDS Action Council in Washington, D.C. My college degree is in 
Journalism with a major in Public Relations from the University of 
Georgia. I am the only male Georgia letterman I know of who earned it 
on the women's tennis team. I was one of those Straight A, perfect 
attendance students. Dad always told me, ``The harder you work, the 
luckier you get.'' I worked hard. I am lucky.
    Because sex reassignment procedures weren't as developed in 1980 as 
today, I focused on work, hoping to make changes in the future. I spent 
nearly 20 award-winning years climbing the corporate ladder at several 
global companies including Coca-Cola, Burson-Marsteller, Holiday Inn, 
ITT Sheraton and Starwood Hotels.
    I'm a loyal worker, a passionate leader and a man who had to wait, 
for fear of being fired, to be who I was always destined to be: Diego 
Miguel Sanchez, an honorable man. My career entailed navigating the 
newly named Glass Ceiling, probing limited opportunities for female 
professionals of color and trying to find a way to be a man while I 
looked like a woman in the workplace. It was heart-breaking and 
painful. But it was necessary. I did it because it was the only way I 
knew to save money to pay for sex reassignment, which I did later from 
my own savings.
    I struggled with finding self-respect in a world that I never 
imagined would allow--let alone accept or embrace--someone like me, 
someone born seemingly wrong. I was an honest person who could be 
honest about everything except about me. I negotiated with my corporate 
colleagues for things that would moderately affirm me. It's the little 
things that seem like `nothing' to others, that meant so much. It 
warmed my heart to receive a tie rather than a scarf as a company 
talisman. I asked people to use my first initial as my first name until 
I could change things medically and legally.
    I have lived long enough to achieve those gains because I was able 
to do the ONE thing that military families are ordered to do when 
there's a challenge: I sucked it up.
    But when my head hits my pillow every night, I close my eyes and 
think about my friends who are transgender whose lives aren't easy. I 
miss my friend Alexander John Goodrum who took his own life. I feel 
guilty about my friend Ethan St. Pierre who lost his job just because 
he began his transition from female to male. I was the first transman 
he met, and he lost his job because he is brave and honest. It wasn't 
right. I still lose sleep over that injustice.
    Because I work in public health, I know countless transgender 
people who are homeless, and I know these people by their names and 
character. These are good people who can't get work and whose lives are 
cast to the streets in large cities and small towns. It's a disgraceful 
injustice.
    I flash my ID every day without concern. It's not questioned 
because I have had the luxury of personally paying to transition to 
male and aligning my IDs and myself. But I have friends whose licenses' 
and passports' gender don't match their identity, so they are disclosed 
as transgender the minute they show an ID, including when they try to 
get a job. I face these burdens when recruiting firms ask for my former 
names as part of their due diligence. It closes doors for me, and it 
limits the lives of my friends.
    It's an injustice that we are ever evaluated for employment based 
on other people's comfort with our existence. I grew up in the South, 
where I wasn't allowed to swim in public pools because I'm not white. 
This experience today feels like a flashback.
    I am before you today to affirm that transgender and transsexual 
people, including me, are equally human and deserve to be treated like 
other people. Thank you.
                                 ______
                                 
    Chairman Andrews. Mr. Sanchez, thank you very much for your 
statement.
    Ms. Miller, I look forward to hearing from you.

       STATEMENT OF JC MILLER, PARTNER, THOMPSON HINE LLP

    Ms. Miller. Thank you, Chairman Andrews and Ranking Member 
Kline and members of the committee.
    I have spent 19 years as a trial lawyer after graduating 
from what I still believe is the world's finest law school, the 
University Of Notre Dame.
    Chairman Andrews. Your testimony is now concluded. Thank 
you very much.
    Ms. Miller. There are more fighting Irish than fans of Big 
Red, Chairman.
    Chairman Andrews. I will point out--and I will not take 
this away from your time--was Dean Blakey the dean when you 
were at Notre Dame?
    Ms. Miller. Yes, sir, he was.
    Chairman Andrews. That is right. He was merely a professor 
at Cornell.
    Ms. Miller. We saw his talent.
    My purpose in speaking to you today is not to encourage or 
dissuade the committee from passing legislation on workplace 
discrimination against transgender persons.
    Rather, my intent is to provide you with some insight into 
the potential unintended legal consequences of using certain 
language in any proposed legislation and the challenges that 
the American businesses may face in implementing that 
legislation.
    Promoting a workplace free of discrimination is not only 
laudable; it is sound business practice. However, anytime new 
legislation is enacted impacting the workplace, there is a 
subsequent disruption in the workplace as managers, human 
resource professionals and employees all try to implement the 
new policies and adjust their working routine to comply with 
the new legal mandate. This disruption can be minor, or it can 
be significant.
    At times well-intended legislation is enacted without 
regard to the practical implications it will have in everyday 
operations of the American business. Responsibility for 
ensuring that the new law is applied to the workplace rests 
with somebody in the company; often it is human resources 
staff. But very often, with smaller companies, with 15 or more 
employees, say 15 to 25, there is no dedicated human resources 
position. It is instead a task that falls to someone else in 
the company who is already juggling other duties, whether that 
is the owner or one of the managers.
    Even in those companies that have sophisticated human 
resources staff, the implementation of new legislation can be 
difficult if the law is particularly complex, or too vague, or 
requires a drastic change in the work environment. As a trial 
attorney, I have seen numerous instances where confusion over 
what is required by a statute that is unclear has led to a 
lawsuit and that, nonetheless, an employer who has tried to 
comply in good faith with the law still gets sued.
    And for these reasons I would ask the committee to 
carefully consider the implications of any legislation which 
might be enacted regarding transgender discrimination. I 
respectfully suggest that the committee consider three specific 
areas for any proposed legislation:
    The first would be in the definition of gender identity or 
transgender. Some of the proposed language which has been 
brought to my attention would include the word ``mannerism.'' 
That is disturbing. We do not classify protected classes under 
the law based on mannerisms. And I am concerned that if we use 
that word in any definition, we actually may be perpetuating 
stereotypes. For instance, 100 years ago, a firm handshake may 
have been a hallmark of masculinity. In today's world, I would 
hope that if a businesswoman has a firm handshake that is a 
sign of not masculinity, but of the fact that she is confident 
and she is very competent. And again, mannerisms are something 
that can be changed. Intrinsic characteristics are not. So 
please be careful in using the type of language that you would 
use if you decide to go forward with this bill and define what 
is transgender or gender identity.
    The second purpose I would like--the second item I would 
like the committee to consider would be the carve-out exemption 
for an area of certain ``shared facilities.'' Some of the 
language I have seen has also indicated that the shared 
facilities would be places where there would be showers or 
dressing areas or an area where viewing someone unclothed would 
be unavoidable. To quote one of my dear mentors from the South, 
that seems to be that we went around the block the long way to 
get where we need to be. The word ``restroom'' really needs to 
be in the legislation if there is any legislation. Quite 
frankly, you don't want to have trial lawyers litigating over 
whether the ladies room is a place where seeing somebody 
unclothed is unavoidable or not unavoidable. The word 
``restroom'' clearly needs to be inserted into any type of 
legislation.
    And the carve-out is important, and I would encourage the 
committee to continue to use those carve-outs. Employees have a 
very high expectation of privacy in certain areas, such as 
dressing rooms, locker rooms and restrooms. I handled a case a 
few years ago up in my home State of Massachusetts where a 
female employee had brought a Title VII lawsuit, alleging 
hostile work environment under Title VII based on the fact that 
there was a hole in the ladies room which was about knee high 
that, that was not put there intentionally, but it still 
allowed, if someone bent down, the opportunity to view into the 
restroom. And she felt that that was significant enough to her 
to go ahead and rest part of her Federal lawsuit upon it. 
Again, you need to be aware of the fact that employees do find 
certain areas of privacy very important.
    Finally, the issue of notification. There is some issue 
here about what to do with an individual who might be 
transitioning from one gender to another. And that is not easy. 
I understand that the committee will be challenged if it 
addresses that. We do need to have some sensitivity to the 
employer. At what point does the employer need to make 
modifications to their work room for individuals who might be 
transitioning? If the person gives notice on Monday, does the 
employer need to then allow them to use the restroom of the 
opposite sex on Tuesday?
    Finally, I would encourage the committee to consider 
jurisdiction if there is any type of legislation that is 
passed. With all due respect to the State judiciary, Federal 
courts are far more equipped to handle discrimination suits. 
They are better funded. The judges see them more often, and 
they process through the court system much more rapidly than at 
the State level. And for that reason, I would encourage that 
this committee consider the jurisdiction of the Federal courts 
to be exclusive if there is any such type of legislation.
    And finally, prevailing costs or costs and fees to a 
prevailing party is also important. Employers are getting 
hammered by legal fees and costs to fight frivolous lawsuits. 
And they need to have some sort of mechanism to be able to 
recoup some of those costs.
    [The statement of Ms. Miller follows:]

      Prepared Statement of JC Miller, Partner, Thompson Hine LLP

    Chairman Andrews, Ranking Member Kline, members of the Committee, I 
am honored to have been invited to testify before you today on ``An 
Examination of Discrimination Against Transgender Americans in the 
Workplace.''
    For the past 19 years I have represented both public and private 
clients in litigation of discrimination claims such as sexual 
harassment, equal pay, race, age, religion and disability. Prior to 
entering private practice, I was an Assistant Attorney General for the 
State of Florida, the Chief of Litigation for the Florida Department of 
Labor and Employment Security, and Special Counsel to the Florida 
Department of Corrections, where I represented public agencies in 
litigation, torts and constitutional challenges and oversaw legislative 
analyses of proposed bills. I have extensive experience in addressing 
discrimination in the workplace, and I have been recognized in court as 
an expert witness in the fields of workplace investigations and sexual 
harassment.
    My purpose in speaking to you today is not to encourage or dissuade 
the Committee from passing legislation on workplace discrimination 
against transgender persons, specifically H.R. 3685. Rather, my intent 
is to provide some insight into the potential unintended legal 
consequences of using certain language in any proposed legislation.
    Promoting a workplace free of discrimination is not only laudable 
it is sound business practice. However, any time new legislation is 
enacted impacting the workplace, there is a subsequent disruption in 
the workplace as managers, human resource professionals and employees 
all try to implement new policies and adjust their working routine to 
comply with the legal mandate. This disruption can be minor or 
significant depending upon the nature of the new legislation.
    At times, well intended legislation is enacted without regard to 
the practical implications it will have on the every day operations of 
the American business. Responsibility for ensuring that the new law is 
applied to the workplace rests with someone in the company, often the 
human resource staff. But at smaller companies, for instance many of 
those with less than 25 employees, there is no dedicated full time 
human resource position and the task to implement the new law falls to 
an owner, or manager who is already juggling other duties. Even in 
those companies that have a sophisticated human resources staff, the 
implementation of new legislation can be difficult if the law is 
particularly complex, too vague, or requires drastic change to the 
working environment.
    Legislation that is vague, overbroad, or imposes radical change 
frequently leaves business managers frustrated and confused trying to 
conform to the new law. Vague or impractical legislation significantly 
increases the risk of litigation. When language in a statue is unclear 
the consequence can be radically different interpretations of rights 
and responsibilities by the employer and employee. These different 
interpretations of the law can result in an impasse in the workplace so 
severe it leads to litigation. As a trial attorney I have seen numerous 
instances where confusion over what is required or permitted under a 
statute has led to a lawsuit by an employee against an employer that 
nonetheless had made a good faith attempt to comply with the law. For 
these reasons I urge the Committee to carefully consider the 
implications of any legislation which might be enacted regarding 
transgender discrimination.
    I respectfully suggest the Committee consider three specific areas 
when drafting any legislation on the issue: the definition of gender 
identity; the issues surrounding shared facilities; and jurisdiction 
over enforcement of rights.
    While I recognize that the definition of gender beyond 
physiological or biological parameters is challenging, an overly broad 
definition will not provide the necessary guidance to a business 
manager to deal with the matter. Definitions which include a reference 
to ``mannerisms'' without more precise language is confusing and could 
inadvertently perpetuate sexual stereotypes. After all what is a gender 
related ``mannerism''? For example, at one time a firm handshake was 
the hallmark of masculinity; however in our current society a business 
woman with a firm handshake is not perceived as `masculine' as much as 
she is viewed as confident and professional. But legislation that 
suggests that any mannerism is still more frequently attributed to one 
gender more than the other inherently perpetuates the stereotype. 
Asking a business manager to first proscribe certain mannerisms to one 
gender rather than the other, then to refrain from discriminating 
against any employee with that mannerism because it maybe part of the 
employee's ``gender identity'', is counterproductive. Our goal should 
not be to label a mannerism as ``masculine'' or feminine'', but rather 
to determine if certain conduct is acceptable or unacceptable in the 
work environment-regardless of which gender displays the mannerism.
    Second, my understanding is that any legislation regarding gender 
identity would include a ``carve out'' exemption for shared facilities, 
where there may be showers or undressing. This exemption is crucial to 
ensuring that any legislation protecting one class of employee would 
not adversely impact the rights of another class. However, it is vital 
that the language of legislation be clear and uncomplicated when 
defining ``shared facility''. Some of the proposed language which I 
have seen exempts ``shower or dressing facilities in which being seen 
unclothed is unavoidable''. Remarkably absent from this language is the 
word ``Restroom''. Not all restrooms contain showers, nor is being seen 
unclothed in a restroom, particularly a ladies room unavoidable. Yet 
employees do have expectations of privacy in restrooms and complaints 
regarding restrooms in the workplace are not uncommon to Human 
Resources staff. Thus restrooms ought to be included in the exemption.
    Additionally, the language of the exemption must better address the 
process of providing adequate facilities to an employee in the process 
of transforming gender. Any requirement that the Employer provide 
comparable dressing room/restroom facilities to an employee after 
notification that the employee is undergoing a gender transformation 
needs to be examined pragmatically. At what point after 
``notification'' must an employer act? If the employee notifies the 
Employer on Monday that he or she is undergoing gender transformation 
must the Employer permit the Employee access to the restroom or 
dressing room of the opposite gender on Tuesday? Or must the Employer 
find an alternative yet comparable facility within hours of the 
notification? Furthermore, if the Employer's facility is such that it 
is unable to provide an alternative comparable facility, at what point 
in the transformation process should the Employee be given access to 
the facility of the gender to which they are transitioning? If access 
is given early in the transition process the Employer risks violating 
the privacy of employees currently using the facility who might be 
offended that a co-worker currently manifesting all the physiological 
attributes of the opposite gender is using the same facility. Finally 
legislation should consider the implication of requiring a business 
that provides a single, same sex facility for both employees and 
customers to provide a facility for an employee ``undergoing'' a 
transition to the opposite gender, and what consequence the requirement 
may have on the customers unprepared to share a facility with an 
employee still with the physical attributes of the opposite gender.
    Third, any legislation should carefully consider jurisdiction 
issues for the enforcement of rights. With all due respect to the 
institution of the court state systems and the many fine members of the 
state judiciaries, federal courts are better equipped to deal with 
litigation of federal rights. Making the enforcement of rights under 
ENDA or its progeny, the exclusive jurisdiction of the federal courts 
can promote more expedient resolution of litigation as well as the 
likelihood of more consistent outcomes. Unlike state courts which apply 
each state's rules of evidence and procedure to suits, federal courts 
uniformly apply the same federal rules of civil procedure and evidence. 
State courts are often caught in the uncomfortable position of trying 
to apply substantive federal case precedent to an action involving a 
federal claim that is constrained by state rules of procedure.
    Finally, on a related note, any legislation should provide for fees 
and costs to a prevailing party in the litigation. Even if Congress 
determines that federal courts should not have exclusive jurisdiction 
of an action brought under the bill, the legislation should nonetheless 
provide for fees and costs to an Employer if the Employer prevails in 
the litigation. Litigation costs incurred by small to medium business 
defending themselves from frivolous litigation are exorbitant. These 
costs are generally unanticipated by the business and often the company 
is not budgeted to absorb the costs without sacrificing another 
business opportunity such as adding a new position, or expanding the 
business.
    In closing, the work of the Committee in addressing discrimination 
in the workplace is laudable and critical. However it is important to 
recognize that most Employers promote diversity and recognize that 
discrimination in the workplace is both costly and counterproductive. 
As any legislation that mandates a change in the workplace is 
disruptive, that disruption should be kept to a minimum and the 
statutory language should provide the business manager with clear guide 
posts which acknowledge the practicalities of the workplace.
    I am honored to have had this opportunity to address the Committee 
and I thank you for your time and consideration this morning.
                                 ______
                                 
    Chairman Andrews. Ms. Miller, thank you very much. I 
appreciate it.
    Dr. Hendrix, welcome to the subcommittee.

  STATEMENT OF WILLIAM H. HENDRIX, III, PH.D., GLOBAL LEADER, 
        GAYS, LESBIANS AND ALLIES, THE DOW CHEMICAL CO.

    Dr. Hendrix. Thank you very much.
    Mr. Chairman and members of the subcommittee, my name is 
Bill Hendrix, and I am a product stewardship specialist for the 
Dow Chemical Company, and I have worked for them for 19 years.
    In addition to my role as a product stewardship specialist, 
I also serve on the company's Gays, Lesbians and Allies at Dow, 
or the GLAD network. It is an affinity group advocating for 
gay, lesbian, bisexual, and transgender, and allied employees 
within the company. GLAD is one of the six employee networks at 
Dow all working towards promoting an increasingly diverse and 
inclusive workplace. Dow thanks the subcommittee for holding 
this committee to examine the discrimination that many 
transgender Americans face in their workplace.
    First let me provide just a little bit of background on 
Dow. Dow was founded 110 years ago in Midland, Michigan. Our 
small-town, Midwestern roots have encouraged us to establish 
enduring core values of integrity and respect for people. It is 
these values that form the very heart of our approach to 
diversity and inclusion. At Dow, we serve customers in 160 
countries, and we have about 43,000 employees.
    Clearly diversity underpins our workforce, our culture, and 
indeed our very business model. We know that it is our human 
element that is key to our success. As a result, we know that 
creating a respectful inclusive working environment is not only 
a matter of fairness and equality, but it is one of critical 
economic and business importance. With a shrinking talent pool, 
particularly in the sciences and engineering, it is essential 
for us to actively include everyone to ensure that we attract 
and retain the very best talent that is available to us. As an 
industrial business-to-business supplier with virtually no 
consumer marketing, we must work even harder to have an 
identifiable employer brand.
    When we discuss LGBT workplace policies, we do so knowing 
that these policies give us an advantage. Because we don't have 
major offices or facilities in the metropolitan areas of the 
U.S., our LGBT employees often have more protection from 
discrimination under Dow's policies than they do in the laws of 
their State or locality. Specifically, our LGBT policies have 
been good for our workplace for two main reasons: Number one, 
retention of our LGBT employees, because they know that they 
can perform their job without fear of repercussion and, 
therefore, have more reason to be committed to the company; and 
number two, better recruitment of allies and younger workers 
who often use things like employee benefits, such as our 
transgender policies, our flexible work hours, as a litmus test 
for prospective employers.
    For Dow, like most companies, the offering of benefits to 
LGBT employees has been a result of a multistage journey. We 
first instituted sexual orientation in our employee 
nondiscrimination policies in 2000. We then added parity for 
domestic partner benefits in 2002. And we added protection 
based on gender identity in 2005. Of special note, we have 
implemented this globally for all 160 countries that we do 
business in.
    When comparing our company to other Fortune 500s, Dow is 
one of the nearly 300 that currently offer protection for our 
employees based on gender identity. Loss of talent comes at a 
very significant cost to employers, many of whom, like Dow, 
will suffer from shortages of qualified workers as Baby Boomers 
retire.
    For our workplace transgender policy, we leveraged the 
policy developed by the Human Rights Campaign and then modified 
it slightly for our specific workplace conditions. This policy 
strongly emphasizes the mutual respect and good communication 
between the transitioning employee and his or her supervisor. 
Communication to the transitioning employee's work group is 
also critical. For example, working with the transitioning 
employee, training seminars can be created to prepare 
coworkers. Our policy also addresses questions such as 
transitioning name change, updating company databases, and 
offering support for other legal documents, such as passports, 
that are required for work.
    As I have mentioned, it has been a journey for my company. 
On the whole, our program has gone remarkably well. We have had 
one employee transition in the workplace since 2005 and utilize 
these policies. As expected, coworkers have had a few questions 
and concerns. But our company has been able to address them and 
to ensure that the workplace remains very respectful and 
productive. In discussions with the transitioning employee, she 
felt that most of her coworkers were quite accepting and 
supporting.
    Overall, we have achieved a positive reception of our 
transgender policy both internally and externally. Internally, 
because of our strong commitment to our human elements campaign 
policies, very little negative notice was taken of the 
inclusion on gender identity. This is just one more diversity 
factor within a comprehensive program that our company offers. 
Dow appreciates the chance to share our views and applauds the 
committee's work to gather more information on gender identity 
within the workplace, and we welcome any further questions you 
may have.
    [The statement of Dr. Hendrix follows:]

 Prepared Statement of William H. Hendrix, III, Ph.D., Global Leader, 
                    Gays, Lesbians and Allies at Dow

    Mr. Chairman and members of the Subcommittee, my name is Dr. Bill 
Hendrix, and I am a product stewardship specialist for the 
Insecticides, Seed & Traits business within Dow AgroSciences LLC, a 
100% wholly owned subsidiary of The Dow Chemical Company. I hold a 
Ph.D. in Entomology from Iowa State University and have worked for Dow 
for 19 years.
    In addition to my role as a product stewardship specialist within 
Dow, I also serve as the chair of the Company's Gays, Lesbians and 
Allies at Dow (GLAD) Network, an affinity group advocating for gay, 
lesbian, bisexual, transgender and ally employees within the company. 
GLAD is one of six employee networks at Dow, all working toward 
promoting an increasingly diverse and inclusive workplace. GLAD was 
first established in 2000.
    Dow thanks the Subcommittee for holding this hearing to examine the 
discrimination that many transgender Americans experience in their 
workplace.
    First, I will provide some background on Dow. Dow was founded 110 
years ago in Midland, Michigan, a small town of about 40,000 people 
just over 100 miles north of Detroit. Our small town Midwestern roots 
have encouraged us to establish our enduring Core Values of Integrity 
and Respect for People. It is these Values that form the very heart of 
our approach to Diversity and Inclusion.
    Over the years, as we have grown and become a major player in the 
global economy, Diversity and Inclusion have truly become key elements 
of our corporate culture. Just consider our footprint: we serve 
customers in 160 countries, we have manufacturing sites in 35 different 
countries, and at last count, my 43,000 colleagues represent about 100 
different nationalities.
    Clearly, diversity underpins our workforce, our culture and, 
indeed, our business model. In a highly competitive world where 
innovation is the key to securing competitive advantage, we know that 
it is our ``Human Element'' that is key to our success. As a result, we 
know that creating a respectful, inclusive working environment is not 
only a matter of fairness and equality, but also one of critical 
economic and business importance.
    With a shrinking and ever more diverse talent pool--particularly in 
the sciences and engineering--it is essential for us to actively 
include everyone to ensure we attract, develop and advance the very 
best talent available in the marketplace. As an industrial, business-
to-business supplier with virtually no consumer marketing, located 
largely in smaller rural areas, we must work even harder to have an 
identifiable employer brand to attract top talent. We see our proactive 
stance on diversity and inclusion as a key element of this brand.
    Our open policy allows us to hire the best employees, with the 
greatest range of perspectives. When we discuss the LGBT policies in 
the workplace, we do so knowing that this policy gives us an advantage. 
Because we don't have major offices or facilities in the metropolitan 
areas in the US, our LGBT employees often have more protection from 
discrimination under Dow's policies than under the laws of their state 
or locality. In fact, according to the latest report from the Human 
Rights Campaign (HRC), only twelve states and the District of Columbia 
prevent employment discrimination based on gender identity; no federal 
law clearly prohibits employment discrimination against LGBT employees.
    Specifically, our LGBT policies have been good for our workplace 
for two main reasons: a) retention of our LGBT employees has been 
enhanced, because they know that they can perform their jobs openly 
without fear of repercussion and therefore have more reason to be 
committed to the company in return, and b) better recruitment of allies 
and younger workers, who often use employee benefits, such as support 
for domestic partnerships and flexible work hours, as a litmus test for 
prospective employers.
    For Dow, like most companies, the offering of benefits to LGBT 
employees has been the result of a multi-stage journey. We first 
instituted sexual orientation in our employment nondiscrimination 
policies in 2000. We then added parity for domestic partnerships in 
2002. We added protections based on gender identity in 2005. A copy of 
our policy is attached as exhibit A. Of special note, we have 
implemented this globally for all the 160 countries in which we have 
employees!
    When comparing our company to other peer Fortune 500 companies, Dow 
is one of the nearly 30 percent that currently offer protection for 
employees based on gender identity. While non-discrimination policies 
are just one component of inclusive workplaces, increasingly, U.S. 
employers are becoming like Dow and providing similar workplace 
protections. Surveys have shown that at least one of every five 
transgender people has experienced workplace discrimination and 
harassment. Such discrimination, and subsequent loss of talent, comes 
at a significant cost to employers, many of whom, like Dow, will suffer 
from shortages of qualified workers as baby boomers retire (Transgender 
Inclusion in the Workplace 2nd edition, April 2008, Human Rights 
Campaign Foundation Report, 64 pg).
    For our workplace transgender policy, we leveraged the policy 
developed by HRC and then modified it slightly for our specific 
workplace conditions. A copy of this policy is attached as exhibit B. 
This policy strongly emphasizes mutual respect and good communication 
between the transitioning employee and his/her supervisor. However, if 
the employee doesn't feel comfortable talking directly with their 
supervisor, they may elect other options such as their HR 
representative or a leader from the GLAD network. Communication to the 
transitioning employee's workgroup is also critical. Working with the 
transitioning employee, training seminars or educational emails can be 
created to prepare co-workers. Our policy also addresses the questions 
of a transitioning employee's workplace dress, as well as changing that 
employee's name, including updating company databases and offering 
support for other legal documents such as passports, an important 
document for global company employees.
    While already a welcoming workplace, Dow's commitment to 
transgender inclusion in our workplace continues to grow. Currently, 
Dow is looking at ways to expand our transgender health benefits to 
include coverage of hormone therapy and long-term counseling. We now 
provide counseling relating to gender transition through our Employee 
Assistance Program. While, many companies, like Dow, are exploring how 
to provide better health coverage for transgender workers, there are 
some companies that do offer these types of benefits. According to the 
HRC Foundation Report on Transgender Inclusion in the Workplace 2nd 
edition (April 2008), there are 78 companies that offer transgender 
health benefits without exclusion to their transgender employees. These 
include large employers such as IBM, General Motors, and Eastman Kodak.
    As I have mentioned, it has been a journey for my company. On the 
whole, our program has gone remarkably well. We have already had one 
employee transition in the workplace and utilize the policies. As 
expected, co-workers have had a few questions and concerns, including 
about restroom use in the workplace, but, our company has been able to 
address them and ensure that the facility in question remains a 
respectful and productive environment. In discussions with the 
transitioning employee, she felt her transition was going well, and 
most of her coworkers were quite accepting and supportive. Of interest 
is that this employee is based in a rural, coastal Texas location.
    Overall, we have achieved a positive reception of our transgender 
policy, both internally and externally. Externally, one of the key 
metrics for our company is the HRC Corporate Equality Index, where we 
have maintained a 100% rating since 2005. Transgender policies are 
currently a key component of the ranking criteria. Internally, because 
of our strong commitment to our Human Element campaign's policies, very 
little negative notice was taken of the inclusion on gender identity. 
This was just one more diversity factor within our comprehensive 
program.
    Dow appreciates the chance to share our views and applauds the 
committee's work to gather more information on gender identity within 
the workplace. We strongly support protections against discrimination 
based on gender identity and sexual orientation in the workplace and 
welcome any further questions you may have.
Exhibit A.--Our Global Policies for Inclusion--Respect and 
        Responsibility

           http://www.dow.com/diversity/beliefs/inclusion.htm

    We encourage a culture of mutual respect in which everyone 
understands and values the similarities and differences among our 
employee, customers, communities and other stakeholders. We work to 
provide an atmosphere that encourages positive interaction and 
creativity among all employees.
    It is the policy of The Dow Chemical Company that employees be 
provided a work environment which is respectful and free from any form 
of inappropriate or unprofessional behavior, such as harassment 
including sexual harassment, pestering or bullying and any form of 
unlawful discrimination based on sex, gender, race, sexual orientation, 
gender identity, disability, age, ethnic origin, or other inherent 
personal characteristic protected by law.
Exhibit B.--Workplace Guidelines for Transgendered Employees
            Overview
    At Dow, we want our employees to be at their maximum productivity. 
Employees who can be honest about who they are can put their full 
energy into their job. As a result, we prohibit discrimination against 
or the harassment of employees based on their sexual orientation or 
gender identity or characteristics.
            Scope
    This document is intended to provide guidance to transgendered 
employees and their leader(s) to help both understand the workplace 
issues that transgendered employees may face as they undergo gender 
transition.
    It in no way obligates The Dow Chemical Company to provide any 
employee benefit beyond what may be allowed in existing Summary Plan 
Descriptions (U.S.) or similar benefits programs' policy descriptions 
in other countries.
    This document is also not a statement of policy of The Dow Chemical 
Company, but rather is intended to offer guidance to employees and 
their leaders within the provisions of policies and programs separate 
from this document.
            Definitions
    Gender Identity refers to those individuals who, with the 
documented support of medical or psychological professionals and in 
accordance with the recognized Informed Consent Model of Care or the 
Harry S. Benjamin Standards of Care, are changing or have changed their 
physical characteristics to facilitate personal and public redefinition 
of their sex as opposite that which there were assigned at birth.
    Transitioning Employee refers to an individual who is in the 
process of modifying his/her physical characteristics and/or manner of 
expression to satisfy the standards for membership in a gender other 
than the one he/she was assigned at birth.
            Transitioning Employee Guidance
    If you are a transitioning employee, you should be comfortable 
being openly who you are. This means expressing your gender identity, 
characteristics or expression without fear of consequences. It is 
important, however, that you inform key personnel in your workplace who 
need to know about the change and the impact on your work (the need to 
be away from work for treatment, for example). Your first point of 
contact may be your immediate supervisor, and/or your local human 
resources or Employee Assistance Program (EAP) representative. If you 
are not sure or perhaps uncomfortable contacting the above-mentioned 
individuals, you may wish to first contact a leader (steering team 
member or Site Implementation Leader) or other participant in the Gays, 
Lesbians and Allies at Dow (GLAD) employee network for support and 
guidance.
    Explain to the person that you've selected to speak to your 
intentions, needs and concerns. Remember you are covered under Dow's 
equal opportunity policy. Your leader, HR and others may not be 
educated about transgender issues and may not understand clearly what 
your needs may be. You should be prepared to spend some time educating 
people. Providing them with a copy of these guidelines may help. As you 
prepare to make your situation more widely know to your co-workers, you 
need to expect them to be unfamiliar with your situation and your needs 
during this time. You and your leader will need to work together to 
develop a strategy to address this mutual education process.
            Leader Guidance
    If you have an employee who is transitioning, it is important that 
you demonstrate an understanding, sensitive approach to his/her needs 
and concerns. It may be frightening to an employee to make himself or 
herself vulnerable to a person upon whom their job depends. Our culture 
supports diversity and inclusion. If your employee informs you of his/
her desire to transition or if an employee is currently in the 
transitioning process, your support is critical. Your actions may 
determine if the transition is successful or not. If you are not 
familiar with transgendered individuals, allow the impacted employee to 
educate you. Be open-minded and discuss with the employee his/her needs 
and concerns. Make it clear to the employee that your conversation will 
be held in the strictest of confidence and you will share the 
information only with those who have a business need to know the 
information, such as your HR partner. Explain any concerns you might 
have and ask the employee's opinion regarding the best method and time 
for informing co-workers about the transition process.
    During the early stages of an employee's transition, few, if any, 
accommodations will be required on your part. However, at some point, 
issues dealing with an employee's physical appearance and usage of 
restroom facilities must be addressed. You should be prepared to 
address the questions and concerns of co-workers; however, the utmost 
care must de taken to assure the transitioning employee that his / her 
personal situation will continue to be held in confidence during these 
discussions. Along these lines, communications are best handled one-on-
one versus group settings or mass communication methods like E-mail.
            Restroom and Locker-Room Access Issues
    Restroom and locker-room access issues need to be handled with 
sensitivity, not only to our obligation to provide transitioning 
employees with the same level of access available to non-transgendered 
employees, but also to the emotional responses to co-workers to the 
idea of sharing facilities with a transgendered co-worker.
    An employee should use the facility based on his/her current 
gender. The transitioning employee and leader may want to explore the 
use of alternative facilities during the transitioning process. 
However, once transition is complete, a transgendered employee has the 
right to the same access as a non-transgendered employee of the same 
gender.
            Attire and Appearance Guidance
    Employees who are transitioning are required, prior to surgery, to 
assume the role for their reassigned gender. This process is known as 
the real life experience. Although professionals may recommend living 
in the desired gender as a step to surgery, the decision as to when and 
how to begin the real-life experience remains the employee's 
responsibility. Part of that experience is dressing and adopting other 
appearance characteristics in the reassigned gender role.
    A transitioning employee's attire and appearance should remain 
appropriate to the office or work setting in which they work and the 
job they hold. The same dress expectations apply to transgendered as to 
other employees. If, as a leader, you are concerned about the 
appearance your transgendered employee will present when she or he 
starts coming to work in the other gender role, ask for a picture of 
her or him in work attire. If you still have concerns, these should be 
addressed with your employee. If she or he dresses or behaves 
inappropriately, this issue should be dealt with the same way it would 
with any other employee. Similarly, co-workers are expected to maintain 
a respectful work environment and any behavior to the contrary should 
also be dealt with by the leader.
            Medical Requirements
    Transitioning employees should provide regular medical updates to 
Dow Health Services (at least every six months during the transition 
process). This information should come from the employee's primary 
health care provider and should detail where the employees is in the 
transition process and what type, if any, restrictions apply to the 
employee's work activities. Time off from work as a result of surgery 
or other medical inability to work is generally paid and covered under 
Employee Illness Leave.
            Additional Resources
    Many additional resources are available through the Human Rights 
Campaign, a U.S.-based civil rights organization that advocates for 
equal rights for gay, lesbian, bisexual and transgender Americans. 
These are available on-line at http://www.hrc.org (follow links to 
Workplace issues).
                                 ______
                                 
    Chairman Andrews. Thank you, Dr. Hendrix. We appreciate 
your perspective very much. Thank you for being here.
    Mr. Lavy, welcome to the subcommittee.

    STATEMENT OF GLEN LAVY, SENIOR COUNSEL AND SENIOR VICE 
    PRESIDENT FOR MARRIAGE LITIGATION, ALLIANCE DEFENSE FUND

    Mr. Lavy. Mr. Chairman and members of the committee, thank 
you for allowing me to testify today. You are hearing stories 
of painful experiences in the workplace.
    Chairman Andrews. I am sorry, Mr. Lavy. Will you pull the 
microphone a little closer to you? I think it is on, but it is 
a little muffled.
    Is it on? Is your light on?
    Mr. Lavy. You are hearing stories of painful----
    Chairman Andrews. We won't take this from your time either, 
even if you didn't go to Cornell.
    Mr. Lavy. You are hearing stories of painful experiences in 
the workplace. You are being asked to make a moral judgment 
about the treatment of transgendered persons in the workplace. 
You are being asked to make the judgment that it is immoral for 
employers to refuse to accommodate a person's belief that he or 
she is a member of the sex that is opposite their anatomical 
sex.
    What you have not heard is that some employers have deeply-
held religious beliefs about these issues. Other employers do 
not have a ready ability to be able to accommodate a 
transgendered employee without violating the rights of other 
employees or members of the public when it comes to the use of 
restrooms. And unless an employee specifically requests an 
accommodation for his or her belief that he or she is a member 
of the opposite sex, an employer has no means of knowing the 
employee's views.
    Most transgender anti-discrimination laws refer to actual 
or perceived gender identity or expression. This type of 
provision is highly problematic for employers. How is an 
employer to know what an employee's sense of themselves is 
without the employee expressly disclosing it? The subjective 
nature of gender identity makes it wholly unlike an objective 
and mutable characteristic like race. An employer seldom, if 
ever, needs to wonder what an employee's race is. That is 
something that the employer can simply tell by observation.
    It is often, probably usually, impossible to tell simply by 
looking at a person what that person's concept of their gender 
identity is. Indeed, gender identity often is as unobservable 
as religious beliefs. And religion has never received 
protection under Title VII without the employee specifically 
requesting an accommodation of a religious belief. Even then, 
even when an employee does request an accommodation, employers 
are not generally required to provide the accommodation if it 
is too expensive or too inconvenient for them to be able to do 
so.
    The problems raised today do not have a simple solution 
that can be solved by mandating accommodation by employers. In 
addition to religious objections, many people have genuine 
privacy concerns about the use of restrooms. I am sure you have 
been hearing about the debate in Montgomery County, Maryland, 
where Montgomery County passed legislation that does allow men 
to use a woman's restroom before having sexual reassignment 
surgery.
    Some employers cannot accommodate the restroom issue for a 
transitioning employee, regardless of whether they want to. The 
Etsitty case from the 10th Circuit that I cited in my testimony 
is an example. A Utah Transit Authority bus driver dressed as a 
woman but had male anatomy. While driving his route, he had to 
use public restrooms. The employee could not necessarily find a 
restroom that was available for single use because every day 
the employee had a different bus route. This was a substitute 
bus driver. The employer had the choice of keeping the employee 
and risking claims of violation of privacy of other people in a 
public restroom or terminating the employee. If there were a 
Federal law creating protection for gender identity, the 
employer would have been forced to accept the risk of liability 
for violations of other people's privacy in public restrooms. 
That is a very real risk that a number of employers would face 
if this committee were to prepare legislation giving specific 
protection to gender identity.
    I am not asking this committee to make a moral judgment 
about transgendered persons. What I am suggesting is that the 
Federal law should not make that moral judgment for all 
employers. Thank you.
    [The statement of Mr. Lavy follows:]

 Prepared Statement of Glen Lavy, Senior Counsel, the Alliance Defense 
                                  Fund

    Chairman Andrews, Ranking Member Kline, members of the Committee, 
thank you for inviting me to testify today on the issue of ``An 
Examination of Discrimination Against Transgender Americans in the 
Workplace.''
    I am senior counsel at the Alliance Defense Fund. For more than 7 
years my colleagues and I at ADF have been working to protect the 
unique status of marriage as being between one man and one woman. Three 
times I have argued in support of marriage in the California courts, 
most recently in the California Supreme Court, and have been involved 
in some capacity in every major marriage case in the country. But the 
radical efforts to eliminate the unique, opposite-sex nature of 
marriage are only a precursor to the opposition's most dangerous 
principle. That principle is simply stated: that biological sex and 
gender are utterly divorced from one another. If the proponents of the 
idea that individuals have the right to pick their own gender succeed, 
upholding the definition of marriage as a man and a woman will be 
meaningless.
    Today I speak out of my experience because of the palpable danger 
to religious liberty and freedom of conscience if Congress were to 
define gender identity and expression as a protected class. Certainly 
there are individuals who suffer very real emotional strife from sexual 
confusion--it is a distinct psychological diagnosis in some cases. 
Declining to accommodate an employee's belief that he or she is 
actually a member of the opposite sex, however, is not a form of 
invidious discrimination. This is not an issue that should be the 
subject of federal legislation.
Religious Liberty and Rights of Conscience in the Workplace
    It is important to recognize that religious objections to the 
concept of ``transgender'' are based on theological beliefs rather than 
discomfort with or fear of the unfamiliar. The concepts of male and 
female being established at birth and the two sexes being joined in 
marriage are integrally related to theological beliefs about the 
relationship between God and the church. Forcing persons with such 
beliefs to treat ``transgender'' as a valid concept is like forcing an 
Orthodox Jew to eat pork. Regardless of one's views of the merits of 
such beliefs, it is undeniable that such good faith beliefs exist. 
Trampling those beliefs raise serious constitutional issues under the 
First Amendment.
    The sincerity of religious beliefs about male and female is why 
creating federal protection for gender identity and expression would 
have an unavoidable negative impact on religious liberty and rights of 
conscience in the workplace (providing such legislation were not 
ultimately deemed unconstitutional as applied to religious persons or 
organizations). The legislation would infringe on religious liberty and 
rights of conscience of both religious employers and ordinary business 
owners. This would be true even if the legislation included the same 
religious exemptions provided under Title VII.
    Section 702(a) of Title VII allows religious organizations to 
discriminate on the basis of religion for ``work connected with the 
carrying on by such corporation, association, educational institution, 
or society of its activities.''1 But we've already seen that these 
``exemptions'' are not sufficient to protect the fundamental right to 
freely exercise religion. For example, when a person who professes the 
same religious beliefs as an employer engages in behavior the 
organization deems immoral, the employer may at least face costly 
litigation. In 2005 Professor John Nemecek began appearing on campus as 
a woman at Spring Arbor University, a Christian liberal arts school. 
When the university fired him for his behavior, he filed a claim with 
the Equal Employment Opportunity Commission.2 The professor asserted 
that he had not violated a tenet of the university's faith. Although 
the university should have prevailed if it had litigated the issue, it 
settled the claim rather than endure costly litigation.
    Many Christians exercise their faith through religious ministries--
often called ``parachurch ministries''--that have even less protection 
than traditional churches have under these ``exceptions.'' There is a 
great deal of debate over how closely such a ministry must be connected 
to a church to qualify for exemption. For example, one court held that 
a United Methodist children's home was not a ``religious 
organization.'' It made this astonishing ruling despite the fact that 
the home was hiring a new minister specifically to protect its 
religions mission.3 Another court recently devised a nine-part, 
subjective ``balancing'' test to decide whether a Jewish community 
center was ``religious'' under Title VII. The court said that ``not all 
factors will be relevant in all cases, and the weight given each factor 
may vary from case to case.''4 Importantly, two of the nine 
``secularaizing'' factors identified by the court are very common among 
parachurch ministries: few such ministries are directly controlled by a 
church; and many will provide ``secular'' products (such as food, 
shelter, counseling, or legal services that are not of themselves 
religious). That includes organizations like mine, ADF. In sum, many 
parachurch ministries may not be protected by the Title VII exemptions. 
That could result in the ministries being forced to hire employees who 
openly violate the ministries' standards.
    Commercial business owners with strong religious views about 
transsexual issues would have no protection at all under Title VII 
exemptions. That would be especially problematic for small business 
owners who are closely associated with the business. In addition to 
violating the employer's conscience, employing a man who dresses as a 
woman and wants to use the women's restroom would have a negative 
impact not only on other employees and customers, but would reflect on 
the business owner's reputation in the community. It creates an 
implication that the owner approves of the behavior, or at least 
accepts the behavior as valid. That is an even bigger issue for owners 
of day-care centers and religious book stores, where customers have an 
expectation that their values will be respected.
The Ambiguity of ``Gender Identity and Expression''
    Gender identity and expression are extremely vague concepts. Gender 
Public Advocacy Coalition (``GenderPac''), an organization dedicated to 
eliminating gender norms, defines gender identity as ``an individual's 
self-awareness or fundamental sense of themselves as being masculine or 
feminine, and male or female.'' GenderLaw Guide to the Federal Courts 
and 50 States, p. 3 of 90 (available at http://www.gpac.org/workplace/
GenderLAW.pdf; viewed June 24, 2008). It defines gender expression as 
``the expression through clothing and behavior that manifests a 
person's fundamental sense of themselves as masculine or feminine, and 
male or female. This can include dress, posture, vocal inflection, and 
so on.'' Ibid. In essence, the concept of gender expression is that the 
totality of the way a person looks, dresses, and acts is his or her 
gender--in other words, there are an infinite number of genders. 
Everyone really has their own gender.
    Typical gender identity provisions prohibit discrimination based 
upon ``actual or perceived'' gender identity or expression. This type 
of provision is highly problematic for employers. How is an employer to 
know what an employee's actual gender identity is without asking? Could 
an employer ask without eventually being accused of discrimination? How 
is one to know how an employer perceives an employee's gender identity 
or expression? The ultimate subjectivity in gender identity and 
expression arises from the idea that a person can self-identify his or 
her gender identity, and this subjective self-identification can change 
an infinite number of times without notice to the employer. There is 
simply no objective criteria an employer can utilize to ascertain an 
employee's gender identity.
    The subjective nature of gender identity makes it wholly unlike an 
objective, immutable characteristic like race. An employer seldom, if 
ever, needs to wonder whether an employee is African American, Asian, 
Latino, or Caucasian. He or she can tell by observation. That is 
impossible with the concept of gender identity. Indeed, gender identity 
is as unobservable as religion. And religion has never received 
protection under Title VII without the employee specifically requesting 
an accommodation of a religious belief. Even then, employers are not 
generally required to provide the accommodation if it is too 
inconvenient.
    Gender expression is likewise a problematic criterion for 
employers. How could an employer ever adopt and enforce dress codes if 
gender expression is a protected category? How is an employer to know 
whether a person's attire, posture, vocal inflection, and so on really 
reflects that individual's ``fundamental sense of themselves as 
masculine or feminine, and male or female''? If the totality of the way 
a person presents oneself is ``gender,'' then gender is the ultimate 
reason that any employee is disliked. That concept is too subjective 
and elastic for an employer to know what is required.
    Adding gender identity and expression to employment 
nondiscrimination laws could result in providing special protection for 
most employees. For example, according to GenderPac, ``At some point in 
their lives, most people experience some form of discrimination or bias 
as a result of gender stereotyping.''5 Under this view, any employment 
law prohibiting discrimination based on gender expression or identity 
may give rise to a significant number of discrimination claims, no 
matter what an employer does. If ``most people'' can claim gender 
identity or expression discrimination when they are terminated from 
employment, lose out on a promotion, fail to obtain a job, etc., 
``employment at will'' will have lost all meaning.
    Gender identity or expression laws have not existed long enough to 
allow a thorough analysis of how they will be applied. But there have 
already been lawsuits by transsexuals against employers claiming the 
right to use restrooms reserved for members of the opposite sex. In 
fact, eight years ago the Minnesota Court of Appeals ruled that an 
employer violated an employee's rights by designating restrooms and 
restroom use on the basis of biological sex. Goins v. West Group, 619 
N.W.2d 424, 429 (Minn. App. 2000). Fortunately, the Minnesota Supreme 
Court reversed the decision (635 N.W. 2d 717, 723 (Minn. 2001)). The 
Court of Appeals opinion, however, shows how some courts are likely to 
construe employment laws creating a protected class for gender identity 
or expression.
Rights of Privacy
    Many women in particular are concerned about the infringement on 
their right to privacy in restrooms if transsexuals with male anatomy 
are permitted to use women's restrooms. Parents also have a legitimate 
concern if persons who exercise authority over their children, such as 
teachers or day care workers, are permitted to use restrooms that are 
inconsistent with their physical anatomy. The extent of these concerns 
is evident from recent events in Montgomery County, Maryland, where 
citizens are attempting to challenge a new gender identity law in a 
referendum. One of the primary complaints of those challenging the law 
is that it allows men to use a women's restroom when women and girls 
are in it.6 The primary privacy concern is not what happens after a 
transsexual has surgical alteration, but what may happen if physical 
anatomy is not the criteria for restroom usage. With gender identity 
being totally subjective, who could challenge any male who says he 
wants to use a women's restroom? Women and girls should not have to 
risk having their privacy violated by anatomical males using women's 
rest rooms.
    Given the extent of concern about rights of privacy in restroom 
usage, employers have a legitimate concern about how to deal with 
employees who wish to use a restroom designated for members of the 
opposite sex. The concern is most obvious when a transsexual employee 
retains his or her original anatomy, but is dressing as a member of the 
opposite sex. That is the situation that arose in a recent case from 
Utah, Etsitty v. Utah Transit Authority.7 A man who had been diagnosed 
with Gender Identity Disorder and had been taking female hormones for 
nearly 4 years obtained employment as a substitute bus driver. As a bus 
driver, the employee had to use public restrooms along whatever route 
he drove. The employee dressed as a man when hired and during 
orientation, but notified his supervisor of his intent to present 
himself as a female soon after being hired. While presenting as a 
woman, the employee began using public restrooms designated for women. 
When the operations manager learned of the situation, she and a human 
resources generalist met with the man to inquire about his 
circumstances. The company ultimately terminated the employee because 
of concerns about his use of women's restrooms while retaining his male 
anatomy. The United States Court of Appeals for the Tenth Circuit 
upheld the termination as valid because gender identity is not covered 
by Title VII. If gender identity or expression were a protected 
category, however, the transportation company would have been forced to 
keep the man as a bus driver. It would have also been forced to face 
the risk of liability to the public for knowingly allowing a male 
employee to use public restrooms designated for women.
Conclusion
    I strongly urge the committee to reject pressure to extend 
protected class status to gender identity and expression. The concepts 
are far too ambiguous to be susceptible to objective regulations that 
would protect the privacy rights of the public and other employees, or 
the religious liberty and rights of conscience of religious 
organizations, parachurch ministries, and commercial employers. 
``Transgender discrimination'' is not an issue that should be the 
subject of federal legislation.
    Thank you
                                endnotes
    \1\ Section 703(e)(1) provides an exemption for discrimination on 
the basis of religion, sex, or national origin where they are ``a bona 
fide occupational qualification reasonably necessary to the normal 
operation of that particular business or enterprise.''
    \2\ ``Christian College Fires Transgender Professor,'' Associated 
Press via Detroit Free Press (Feb. 4, 2007), http://
www.religionnewsblog.com/17388/transgender.
    \3\ Fike v. United Methodist Children's Home of Virginia, Inc., 547 
F. Supp. 286 (E.D. Va. 1982), aff'd, 709 F.2d 284 (4th Cir. 1983).
    \4\ LeBoon v. Lancaster Jewish Community Center Ass'n, 503 F.3d 
217, 226-227 (3rd Cir. 2007).
    \5\ GenderPac says that ``Gender Stereotyping can be considered the 
root cause of discrimination based on gender expression, identity, or 
characteristics, and--in an expanded reading--discrimination based on 
sex and sexual orientation.'' Ibid, p. 3 of 90.
    \6\ ``Transgender Bill Facing New Round of Opposition,'' Courtney 
Mabeus, The Examiner (Jan. 17, 2008), available at http://
www.examiner.com/a-1163314?Transgender--bill--facing--new--round--of--
opposition.html.
    \7\ 502 F.3d 1215 (10th Cir. 2007).
                                 ______
                                 
    Chairman Andrews. Mr. Lavy, thank you very much for your 
testimony.
    Ms. Taraboletti, welcome to the subcommittee.

 STATEMENT OF SABRINA MARCUS TARABOLETTI, AERONAUTICS ENGINEER

    Ms. Taraboletti. Mr. Chairman and all members of the 
committee, thank you for inviting me here today.
    My name is Sabrina Marcus Taraboletti. And I am the parent 
of two beautiful children who I love and who in turn love me. I 
am also a transgender woman.
    I grew up in a very conservative traditional middle-class 
Italian Catholic family in Pelham, New York. We were a close 
loving family, much like you would see in the movie, ``My Big 
Fat Greek Wedding.'' I attended SUNY Maritime College, one of 
the country's premiere Merchant Maritime academies, and 
graduated with a degree in engineering and a Coast Guard 
license to be an officer in the Merchant Marine.
    Shortly after college, I moved to Florida to work on the 
space shuttle at Kennedy Space Center. Most who know me will 
share that I am passionate about the space program and honored 
to be part of its history. After 20 years of service, my final 
employer was United Space Alliance, the prime contractor of the 
shuttle program.
    So what happened to my dream job? In 2003, I was summarily 
fired six weeks after announcing that I would be changing my 
sex from male to female. After assigning security personnel to 
follow my every move, charges were drummed up. And I was 
suspended without pay, pending a board hearing for dismissal. I 
was escorted off the Space Center grounds and told not to 
return. I was told the actions were the result of an 
investigation initiated by an anonymous hotline call.
    To my knowledge, I was the fourth person attempting 
transition at the Space Center while trying to keep their job. 
The first three before me also failed. The first woman was a 
union machinist who could no longer take the harassment of her 
fellow employees and left the Center to find work elsewhere. 
The second woman was isolated and given no work to do. She was 
fired after she made enough mistakes. The last woman was a 
launch pad technician who was jeered and scoffed at until she 
finally took her own life, an all too often occurrence.
    We fail because there are no formal transgender policies or 
procedures at the Space Center. There are no policies because 
there are no laws at the State or Federal level requiring 
employees to have them. My future, therefore, was left up to 
the interpretation of people who have no education in 
transgender issues or needs. Worse yet, no one really cared or 
wanted to learn, even though I made a diligent effort to 
educate them. It was easier for them to find a way just to have 
me removed.
    I cannot tell you how meaningless life feels when an event 
like this happens. I didn't know where to turn or what future I 
had. I was humiliated. I was fired. After 20 years of service, 
I received no severance pay, nor was I allowed to collect 
unemployment. I have had to tell future employees, or future 
potential employers, I was dismissed. It has made finding new 
employment almost impossible.
    What is even more troubling is that I had anticipated the 
possibility of my job loss and worked furiously to avoid it. I 
reached out to my management, my coworkers, H.R. and even the 
associate administrator of EEO for NASA. But there was no help 
from any level.
    Four years later after submitting what seems like hundreds 
of applications, I have not been able to find a new position in 
the space program, which is not only the field I love, but is 
one of the few industries in my area where an engineer like me 
can find a job.
    There are those who believe that being transgender is a 
lifestyle or a choice. Personally, I have lost my wife, most of 
my assets and my home in divorce. I have been abandoned by half 
of my family and friends.
    At the same time, I have had to find $79,000 of funding and 
endure the extreme pain of electrolysis and various other 
surgeries required to complete the transition from male to 
female, all this while trying to stay employed.
    Believe me, no one wakes up one morning and says, hey, I 
think I am going change my sex today. No one says, you know, 
living with that discrimination and hatred won't be all that 
bad after all. Being transgender is something you are born with 
and something you have to deal with just the best way you can.
    There is more to my life than just my profession. During my 
time at the Space Center I married and, after 14 years, 
unfortunately, divorced. I have two children. I am their 
father; something I assured them would never change. My 
relationship with my children is very strong, and I am active 
in both their academic and personal lives. My daughter, 19, 
presently lives with me. She attends the University of Central 
Florida on a full chemistry scholarship. My son, 17, is still 
in high school but recently was accepted to attend at my alma 
mater.
    But my family is not really separate from my job. My 
economic security impacts them as well. My feeling of worth 
also impacts them. So when I face discrimination, they face it, 
too. What happens to me because I am transgender also happens 
to them, not only because they love me but because I still 
provide for them. How I am treated is how they are treated as 
well.
    I am a good engineer, I am a good parent, and I am a good 
person. I am still a practicing Catholic, and I honor my 
country. I do not deserve the job discrimination that I faced. 
People should be judged by the quality of their work, by the 
quality of their character. So many of us face what I have 
faced. More are preparing to face it in the future. It needs to 
stop.
    Chairman Andrews. Ms. Taraboletti, thank you very much. We 
appreciate you being here. Thank you.
    [The statement of Ms. Taraboletti follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                                ------                                

    Chairman Andrews. Mr. Minter, you are our final witness on 
this panel. Welcome.

   STATEMENT OF SHANNON MINTER, LEGAL DIRECTOR, THE NATIONAL 
                   CENTER FOR LESBIAN RIGHTS

    Mr. Minter. Mr. Chairman, members of the subcommittee, 
thank you. Thank you very much for convening this hearing. This 
is the first time that members of the transgender community 
have had a chance to talk with Congress so directly about our 
lives, and we very much appreciate that, and it is an honor to 
be here today with Colonel Schroer and the other witnesses.
    The focus of my testimony is on the urgent need for a 
Federal law to protect transgender workers. In addition to 
speaking to you today as an attorney who specializes in 
transgender legal issues, I am also pleased to be able to speak 
to you as a transgender man. I was born female and transitioned 
from female to male several years ago.
    Some transgender people are fortunate to have support in 
the workplace. Very often, however, when a person discloses 
that they are transgender or when the employer otherwise 
discovers the person's transgender status, learns of that 
status, that employee is very likely to face termination, 
harassment or even violence.
    Just last year, for example, Steve Stanton had served as 
the city manager of Largo, Florida, for 14 years. He was 
incredibly effective, he was very well respected in that 
position, he just received a glowing evaluation, but literally 
within days of discovering that Stanton was transgender, 
intended to transition from male to female, he was gone. The 
city commission of Largo abruptly fired him and acknowledged 
that it was doing so because of his transgender status.
    Another case, a small town in Vermont hired an experienced 
law officer, a police officer. Everything was going fine until 
a town official discovered on a Web site that the officer was 
transgender and was born female, had undergone sex reassignment 
many years earlier. That information was communicated to that 
officer's superiors who then shamefully, deliberately embarked 
on a campaign to try and intimidate him into leaving his job 
and even went so far as to endanger his physical safety by 
issuing him faulty security equipment. And he was driven from 
his job, and this discrimination came to light only because a 
former police chief disclosed what had happened to the Vermont 
Attorney General.
    Now, States and localities across the country are passing 
laws to address this type of discrimination. Twelve States and 
the District of Columbia now have laws that protect transgender 
workers. Over 100 localities have also enacted local anti-
discrimination laws. Many employers, both large and small, have 
voluntarily adopted policies that prohibit discrimination 
against their transgender workers.
    And those are very important advances, but we need more 
than a patchwork of State and local laws and employer policies. 
The brutal reality is, in most places in this country, a 
transgender worker who is fired or harassed for being 
transgender has no legal protection. As a direct result, there 
are many people in the transgender community who are forced 
into chronic, persistent unemployment, poverty and 
homelessness.
    Existing Federal law does not prohibit workplace 
discrimination against transgender employees. That includes 
Title VII. As a logical matter, when a person is fired for 
changing his or her sex, a court should say that is sex 
discrimination, and it should be covered under Title VII. In 
practice, however, there is not a single Federal Court anywhere 
in the country that has held that Title VII prohibits 
discrimination against transgender workers because they are 
transgender. We need Congress to make clear the discrimination 
against transgender people because of their gender identity is 
against the law.
    Thank you for your leadership on this issue. Growing up in 
a small town in Texas I literally could not have imagined this 
day. There are so many transgender people in our families all 
across the country waiting and hoping that you will take action 
to protect us.
    Thank you.
    Chairman Andrews. Mr. Minter, thank you very much for your 
testimony.
    [The statement of Mr. Mintner follows:]

   Prepared Statement of Shannon Price Minter, Esq., Legal Director, 
                   National Center for Lesbian Rights

    Mr. Chairman and Members of the Subcommittee: This is truly a 
historic day, and one that is deeply meaningful not just to transgender 
people, but to all of our family members and loved ones as well. This 
is the first time that most transgender people have had the reality of 
our lives addressed by Congress. I am grateful to have this chance to 
speak to you today both as an attorney who specializes in transgender 
legal issues and as a transgender man.
    I was born female and transitioned from female to male at the age 
of thirty-five, about twelve years ago. Growing up as a transgender 
young person in rural East Texas, I never would have dreamed of having 
this opportunity to address our nation's legislators. I am keenly 
aware, as I am sure my fellow witnesses are as well, that we speak to 
you on behalf of your transgender constituents across the country, 
whether it be others living in rural Texas, suburban New Jersey, or 
metropolitan Minneapolis.
    I am going to touch on three issues: who transgender people are; 
the pervasiveness of workplace discrimination against transgender 
people; and the inadequacy of current federal law to address that 
discrimination.
    Transgender people are individuals whose internal identification as 
male or female does not match their assigned sex at birth, including 
many who undertake the medical process of changing their physical 
gender. Transgender people have existed throughout history and have 
been part of almost every culture and community. In the United States, 
transgender people come from every racial and ethnic group and live in 
every part of our country. Transgender people also work in virtually 
every occupation.\1\
    Like other Americans, transgender people fervently wish to be able 
support ourselves and our families and to have the dignity of being 
treated as equal members of society. As employees, we want to be judged 
based on our skills and our qualifications--on what we have to offer, 
not on whether we happen to be transgender.
    Many transgender people are fortunate to have support in their 
workplace and are able to continue working in their chosen careers both 
during and after their transition from one gender to another; 
unfortunately, however, many others face some of the most blatant and 
severe workplace discrimination imaginable, to a degree that is often 
truly shocking. All too often, the mere disclosure that a person is 
transgender and intends to undergo, or has undergone, sex-reassignment 
results immediately in severe harassment or job loss. That is true even 
for highly skilled employees who may have served in their position for 
years.
    For example, in a case that attracted national attention last year, 
Steve Stanton had served as the City Manager of Largo, Florida for 14 
years, longer than any other City Manager in Largo's history. 
Throughout his tenure, Mr. Stanton always received excellent job 
evaluations and was widely respected as one of the most effective city 
managers in the country. During his last evaluation, in September, 
2006, he was given a large raise in recognition of his long tenure and 
accomplishments. But just seven months later, the Largo City Commission 
abruptly fired Mr. Stanton after a local news article disclosed that he 
was transgender and intended to transition from a man to a woman. The 
Commission refused to reconsider its decision. As a result, the City of 
Largo lost a valuable employee, and Stanton, who has subsequently 
changed her first name to Susan and is now living as a woman, has been 
unable to find another job.\2\
    Unfortunately, there are many similar stories, most of which 
receive little or no public attention. One such story concerns Kathleen 
Culhane, a veteran who also served in the Iowa National Guard. Prior to 
her transition from male to female, Ms. Culhane had worked for several 
years as a research assistant at a state university in Iowa. She 
informed her supervisor that she was transgender and would be 
transitioning from male to female. Within weeks of that disclosure, Ms. 
Culhane was told she would be fired. She applied for positions in other 
departments, but no one was willing to hire a transgender person. Ms. 
Culhane lost her job and was forced to move to another state to find 
work, leaving behind her home of sixteen years.\3\
    In another case, Anthony Barreto-Neto, an experienced and skilled 
police officer, was hired by a local police department in Hardwick, 
Vermont. Shortly thereafter, town officials found a website that 
described Mr. Barreto-Neto as ``transsexual'' and disclosed the fact 
that he had been born female and had undergone sex-reassignment several 
years earlier. The town officials communicated that information to 
senior police department personnel, who then subjected Mr. Barreto-Neto 
to severe harassment and dangerous workplace conditions, including 
issuing him faulty security equipment. In a subsequent investigation by 
the Vermont Attorney General, a former police chief testified that he 
was directed to make Mr. Barreto-Neto so uncomfortable that he would 
leave the force. Mr. Barreto-Neto was able to settle his case; however, 
the police department took the position that discrimination against a 
transgender person was not prohibited by law.\4\ A few years later, the 
Vermont Legislature enacted a statewide law specifically prohibiting 
such discrimination.
    As lawyers who specialize in this area are well aware, such stories 
of discrimination are painfully common. Employees who disclose their 
transgender status or who attempt to transition on the job risk being 
summarily dismissed, regardless of their qualifications or prior 
history.
    State and local lawmakers throughout the country increasingly are 
addressing this type of discrimination. Currently 12 states and the 
District of Columbia have laws that specifically ban workplace 
discrimination based on gender identity: California, Colorado, 
Illinois, Iowa, Maine, Minnesota, New Jersey, New Mexico, Oregon, Rhode 
Island, Vermont, Washington, and the District of Columbia.\5\ The first 
such statewide law was passed by Minnesota in 1993; however, most have 
been enacted in the past three to five years. Several other states are 
considering similar laws, and earlier this month, on June 3, 2008, the 
New York State Assembly passed the Gender Expression Non-Discrimination 
Act by a vote of 108 to 34.\6\ More than 100 cities and counties have 
enacted local non-discrimination laws protecting transgender 
workers.\7\ And many of the country's employers, both large and small, 
have adopted non-discrimination policies that prohibit gender identity 
discrimination.\8\
    Despite these advances, the current patchwork of local and state 
laws is inadequate to remedy the pervasive gender identity 
discrimination taking place across the country. Most transgender 
employees do not live in a jurisdiction that provides them with legal 
protection. In most states, a transgender worker who is fired or 
harassed for being transgender has no legal recourse.
    Existing federal law, including Title VII, does not adequately 
protect transgender employees. As a logical matter, discrimination 
against a person for changing his or her sex should be recognized as 
discrimination based on sex, just as discrimination against a person 
for changing his or her religion or nationality is recognized as 
discrimination based on religion or nationality. Many legal scholars, 
as well as women's rights and civil rights advocates, strongly support 
the view that the prohibition of sex discrimination in Title VII 
logically, and as a matter of principle, should prohibit transgender 
discrimination. In practice, however, most courts have rejected that 
view, creating a significant loophole in sex discrimination law. For 
decades, starting in the 1970s, courts summarily held that Title VII 
does not protect transgender people from discrimination.\9\ Too often, 
those decisions not only denied protection, but spoke about transgender 
people in disparaging and demeaning terms. In recent years, some 
federal courts have begun to hold that, at least under some 
circumstances, Title VII may protect transgender people who are 
discriminated against because they do not conform to gender 
stereotypes.\10\ The most notable example is the Sixth Circuit, which 
thus far is the only federal appellate court to issue such a 
decision.\11\ This is a welcome development, and has provided a remedy 
for some transgender employees against some forms of gender identity 
discrimination. For the most part, however, courts have continued to 
apply Title VII narrowly to exclude transgender people.\12\ Moreover, 
even the few courts, including the Sixth Circuit, that have held that 
Title VII may protect transgender people against discrimination based 
on gender stereotypes have stopped short of holding that Title VII 
prohibits discrimination simply because a person is transgender.
    Thus, it is essential that Congress make clear that discrimination 
against transgender people because of their gender identity is against 
the law.
    Thank you for your leadership in convening this historic forum and 
for the opportunity to testify. Growing up in my small Texas town, I 
could not have imagined a day like this. So many transgender people and 
their families around the country are waiting and watching, hoping that 
Congress will take action to address this harmful discrimination and to 
help ensure that transgender people have an equal opportunity to work.
                                endnotes
    \1\ The representation of transgender people in virtually all 
professions is evidenced by the broad range of occupations that have 
been the subject of transgender employment discrimination actions. See, 
e.g., Enriquez v. West Jersey Health Systems, 777 A.2d 365 (N.J. Ct. 
App. Div. 2001) (medicine); Ulane v. Eastern Airlines, Inc., 742 F.2d 
1081 (7th Cir. 1984), cert. denied, 471 U.S. 1017 (1985) (airline 
industry); Broadus v. State Farm Ins. Co., 2000 WL 1585257 (W.D. Mo. 
Oct. 11, 2000) (insurance industry); Mitchell v. Axcan Scandipharm, 
Inc., 2006 WL 456173 (W.D. Pa. Feb. 17, 2006) (sales); Smith v. City of 
Salem, 378 F.3d 566 (6th Cir. 2004) (firefighting); Barnes v. City of 
Cincinnati, 401 F.3d 729 (6th Cir. 2005), cert. denied, 546 U.S. 1003 
(2005) (law enforcement); Schroer v. Billington, 525 F.Supp.2d 58 
(D.D.C. 2007) (terrorism research analysis).
    \2\ Deborah J. Vagins, ``Working in the Shadows: Ending Employment 
Discrimination for LGBT Americans,'' at 17 (American Civil Liberties 
Union, Sept. 7, 2007).
    \3\ Id. at 19.
    \4\ Mr. Baretto-Neto was represented by Gay & Lesbian Advocates & 
Defenders. For a description of his case, see http://www.glad.org/
News--Room/press73-4-23-04.html.
    \5\ California (Cal. Gov't Code Sec. Sec.  12926(p), 12940, 12955, 
Cal. Penal Code Sec.  422.76); Colorado (Colo. Rev. Stat. Sec.  24-34-
401(7.5)); Illinois (775 Ill. Comp. Stat. 5/1-102, 5/1-103(O-1)); Iowa 
(Iowa Code Sec.  216.6); Maine (Me. Rev. Stat. Ann. tit. 5, Sec.  4552, 
4553(9-C)); Minnesota (Minn. Stat. Sec.  363A.03(44)); New Jersey (N.J. 
Stat. Ann. Sec. 10:5-3 et seq.); New Mexico (N.M. Stat. Ann. Sec.  28-
1-2(Q)); Oregon (Or. Rev. Stat. Sec. Sec.  175.100, 659A.030); Rhode 
Island (R.I. Gen. Laws Sec.  28-5-6, R.I. Gen. Laws Sec.  11-24-
2.1(a)(8)); Vermont (Vt. Stat. Ann. tit. 1, Sec.  144); Washington 
(Wash. Rev. Code Sec.  49.60.040); and the District of Columbia (D.C. 
Code Ann. Sec.  2-1402.11).
    \6\ A06584A, 231th Leg. (N.Y. 2008).
    \7\ National Gay and Lesbian Task Force, ``Jurisdictions with 
Explicitly Transgender-Inclusive Non-Discrimination Laws'' (April 
2008), available at http://www.thetaskforce.org/downloads/reports/
fact--sheets/all--jurisdictions--w--pop--4--08.pdf.
    \8\ Transgender Law & Policy Institute, ``Employer and Union 
Policies Prohibiting Discrimination Against Transgender People,'' 
available at http://www.transgenderlaw.org/employer/index.htm.
    \9\ See, e.g., Ulane v. Eastern Airlines, Inc., 742 F.2d 1081 (7th 
Cir. 1984), cert. denied, 471 U.S. 1017 (1985) (pilot did not have a 
cause of action under Title VII because, based on the plain meaning of 
the word ``sex'' and the legislative history of Title VII, sex does not 
include a person's transsexual status); Sommers v. Budget Marketing, 
Inc., 667 F.2d 748 (8th Cir. 1982) (Title VII does not encompass 
discrimination against transgender persons); Holloway v. Arthur 
Andersen & Co., 566 F.2d 659 (9th Cir. 1977) (Congress did not intend 
for Title VII to protect transgender employees); James v. Ranch Mart 
Hardware, Inc., 881 F. Supp. 478 (D. Kan. 1995) (same); Powell v. 
Read's, Inc., 436 F. Supp. 369 (D. Md. 1977) (same); Voyles v. Ralph K. 
Davies Medical Center, 403 F. Supp. 456 (N.D. Cal. 1975) (same), aff'd, 
570 F.2d 354 (9th Cir. 1978); Oiler v. Winn-Dixie Louisiana, 89 Fair 
Empl. Prac. Cas. (BNA) 1832, 2002 WL 31098541 (E.D. La. Sept. 16, 2002) 
(male grocery store clerk denied Title VII protection when fired for 
wearing female clothing off the job).
    \10\ Smith v. City of Salem, 378 F.3d 566 (6th Cir. 2004) (holding 
that transgender firefighter who was transitioning from male to female 
was discriminated under Title VII against based on failure to conform 
to masculine gender stereotypes); Barnes v. City of Cincinnati, 401 
F.3d 729 (6th Cir. 2005) (holding that transgender police officer who 
was transitioning from male to female was discriminated against under 
Title VII based on failure to conform to masculine gender stereotypes), 
cert. denied, 546 U.S. 1003 (U.S. 2005); Lopez v. River Oaks Imaging & 
Diagnostic Group, Inc., 542 F.Supp.2d 653 (S.D. Tex. 2008) (denying 
employer's motion for summary judgment and holding that transgender 
plaintiff was entitled to prove her gender stereotyping claim).
    \11\ See Smith v. City of Salem, 378 F.3d 566 (6th Cir. 2004); and 
Barnes v. City of Cincinnati, 401 F.3d 729 (6th Cir. 2005), cert. 
denied, 546 U.S. 1003 (U.S. 2005).
    \12\ See, e.g., Sweet v. Mulberry Lutheran Home, 2003 WL 21525058 
(S.D. Ind. June 17, 2003) (holding that termination because of 
employee's intent to change sex was not actionable as sex 
discrimination under Title VII); James v. Ranch Mart Hardware, Inc., 
881 F. Supp. 478 (D. Kan. 1995) (holding that Title VII does not 
prohibit discrimination against transgender people).
                                 ______
                                 
    Chairman Andrews. I would like to thank each of the 
witnesses for very provocative, thoughtful testimony.
    We are going to try to have questions back and forth so we 
can draw out some of the points that have been made.
    First, I do want to introduce two things for the record. 
One is a letter--without objection that will be entered--from 
the Business Coalition for Workplace Fairness dealing with 
these issues.
    [The information follows:]

Prepared Statement of Kathleen Marvel, Senior Vice President and Chief 
                   Diversity Officer, the Chubb Corp.

    On behalf of The Chubb Corporation, one of America's leading 
diversified-financial corporations, I would like to express our strong 
support for extending basic job protections to transgender Americans. 
We applaud the Committee for holding this hearing and appreciate the 
opportunity to provide this statement for the Congressional Record.
    In 1993, Chubb added sexual orientation to its non-discrimination 
policy to strengthen our workplace values of fairness for our 10,000+ 
employees. That policy stated, ``It is our policy to provide equal 
employment opportunities to employees and applicants based on job-
related qualifications and ability to perform a job, without regard to 
race, sex, color, religion, age, national origin, sexual orientation or 
disability.'' Gender identity, however, was not part of the policy. A 
truly all-inclusive workplace remained an elusive goal.
    In 2002, Chubb employees in our Gay & Lesbian Employee Network 
(GLEN) began to educate themselves at the annual ``Out & Equal'' 
workplace summits about the issues and challenges faced by the 
transgender community at work. Once educated, GLEN members presented 
the case to senior management for broadening Chubb's nondiscrimination 
policy to specifically include gender identity. The process was 
challenging since there were no employees known to the organization to 
be in need of such protection, but in 2004 the Corporation agreed to 
make the necessary policy changes to be fully inclusive of transgender 
employees.
    These changes enable us to now state--unequivocally--that at Chubb, 
we are totally committed to providing equal employment opportunities to 
all employees and applicants based on job-related qualifications and 
ability to perform a job without regard to race, sex, color, religion, 
age, national origin, sexual orientation, gender identity or 
disability.
    In the years since its implementation, our policy of non-
discrimination has been embraced broadly throughout the organization, 
and we believe this acceptance has had a positive impact on our 
corporation's bottom line: we employ the best-qualified insurance 
professionals in the financial services industry, bar none. Their 
collective work ethic helped make Chubb the 180th largest diversified-
financial corporation in the U.S. for 2007. Our gay, lesbian, bisexual 
and transgender employees feel that they are equally protected and 
valued by the company. And it has further reinforced, for ALL of our 
employees, that fairness and non-discrimination remain fundamental 
tenets in our workplace.
    Interestingly, although since broadening our non-discrimination 
policy to include gender identity we have not had any employees 
transition on the job, we have been able to provide direction to one of 
our insurance customers who knew of our policy and needed advice in 
order to help a transitioning employee of their own. After consulting 
with our customer, we were able to connect them with several expert 
transgender issues resources to provide specific best practices. Our 
outreach efforts on behalf of a valued customer helped them support an 
employee with dignity, fairness and respect, and in turn helped us 
strengthen our relationship with the customer.
    This story underscores the reason why we take particular pride in 
being recognized by such organizations as Catalyst and the Human Rights 
Campaign Foundation as a company that consistently treats its 
employees, customers and investors alike with dignity, fairness and 
respect. We are very proud to have received a 100% rating on the Human 
Rights Campaign's Corporate Equality Index since 2004. Additionally we 
were recognized in 2007 by DiversityInc as one of the Top 10 Companies 
for Gay, Lesbian, Bisexual & Transgender Employees. We are also proud 
to be an active member of the Business Coalition for Workplace 
Fairness, an ever-growing group of FORTUNE 500 corporations that have 
added their collective voice in support this legislation.
    Enhancing our work environment to prohibit discrimination on the 
basis of gender identity has not been a financial burden to Chubb. On 
the contrary, we believe that our philosophy and practice of valuing 
and celebrating the diversity of our workforce actually strengthens our 
financial underpinnings, by encouraging the full and open participation 
by all employees at every level of the organization.
    Businesses that drive away talented and capable employees are 
certain to lose their competitive edge, an outcome that we simply 
cannot afford to accept in today's competitive global marketplace. We 
believe that including gender identity protection in workplace non-
discrimination legislation will have a positive impact on our country's 
ability to compete on the world stage, by extending this protection in 
the majority of states where employees can still be turned down for a 
job, or fired from a job, simply because they happen to be gay, 
lesbian, bisexual or transgender.
    It has long been the law of the land that employment discrimination 
is unacceptable based on race, gender, religion, ethnic origin or other 
non-performance-related considerations. At a time when we are 
considering adding sexual orientation to the list, it is also time to 
include gender identity.
    Diversity is about recognizing, respecting and valuing differences. 
We realize the challenges involved in integrating and valuing diversity 
in its many shapes, and are committed to fostering an environment in 
which all employees can realize their fullest potential. We believe 
that Chubb benefits from the competitive advantage such diversity 
provides. We pride ourselves on being a great place to work, as 
evidenced by the many workplace awards we have received. That great 
place to work includes our gay, lesbian, bisexual and transgender 
employees, and is why Chubb strongly supports the inclusion of gender 
identity in any workplace fairness legislation being considered by the 
Committee. Such legislation would be consistent with our corporate 
principles of treating all employees with fairness and respect.
    I thank Representative Andrews, a fellow New Jerseyan, and the 
Committee for its leadership on this critical workplace issue, and am 
pleased to submit this Statement for the Record.
                                 ______
                                 
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                ------                                

    [The statement of Ms. Lunaris follows:]

                Prepared Statement of Alynna E. Lunaris

    Mr. Chairman Andrews, and members of the Subcommittee, thank you 
for the opportunity to submit written testimony as a part of this 
hearing. I am Alynna Lunaris.
    For the past two years, I have been living full-time as a female, 
after thirty six years of life as a male. For the last 20 years, I have 
looked forward to transitioning from the male body to which I was born 
into the female that I always knew I really was. While I am very happy 
with my decision to transition, the process has been full of 
challenges. These challenges do not entail just the physical, 
psychological and financial cost that one would anticipate incurring; 
they also include the particularly difficult obstacles relating to 
employment. In fact, after being terminated from a terrific position as 
a Humane Law Enforcement Officer with the Washington Humane Society 
(WHS) I have found it impossible to find employment. I have been 
searching for over a year and despite many interviews, and follow-up 
interviews, I have not yet been able to find a position.
    My employment with the Washington Humane Society (a private not-
for-profit law enforcement agency that was charted in 1870 by Congress 
to enforce the District of Columbia's anti-cruelty to animal laws) 
ended on June 28, 2007. In addition to their private law enforcement 
activities, WHS also holds a multi-million dollar comprehensive animal 
care, control, and disease prevention contract with the District of 
Columbia Department of Health. During my time with WHS, I worked in 
both their private and contracted functions to make the District of 
Columbia a safer and more hospitable place for animals and people.
    I was hired by WHS in January of 2005, as a front desk assistant at 
the District of Columbia Animal Shelter. At the time, WHS human 
resources, their executive director, and upper management were all 
aware of my transgender status, and of the possibility that I would 
begin my transition while employed under their contract with the 
District. At the time, management was open and even seemed to be 
supportive of my anticipated transition.
    After approximately six months with WHS, I was promoted from front 
desk assistant to a field position as an Animal Control Officer (ACO). 
In that position, I was responsible for enforcing the District's Animal 
Control Laws and zoonotic disease regulations, as well as assisting 
local and federal law enforcement agencies with animal related issues 
and responding to animal related emergencies such as animals hit by 
cars and animal bite cases. I held this position for a year as a male 
and five months as a female. My excellent performance as a male in this 
position is well documented by letters of commendation from District 
residents, an award from the Metropolitan Washington Council of 
Governments (MWCOG), and an outstanding performance evaluation. While 
working as a male in this position, management and my colleagues were 
aware of my initial steps to become a female (not very easy to hide the 
changes, as you might imagine), and many were accepting. Some, however, 
made it clear that they had strong negative feelings about transgender 
people through their comments and actions.
    In June of 2006, I began hormone therapy, facial hair removal and 
voice therapy. In September of 2006, I took vacation from my post as 
ACO. I informed WHS Human Resources and management that when I 
returned, I would be returning as a female. When I returned, I 
submitted a court order changing my name. I also submitted a copy of my 
new driver's license, which now held a female designation.
    Within two weeks of my return I started experiencing discrimination 
from WHS management. The first incident of discrimination was the loss 
of an anticipated promotion to Field Services Supervisor. Initially I 
was asked by the former Field Services Supervisor, who was taking a 
different position in the company, to apply for the position. I began 
work on my resume and application for submission for the position only 
to be told by the same supervisor that an application from me would not 
be accepted.
    Over the next five months I was given multiple disciplinary write-
ups. In some cases the incidents in question involved other officers; 
yet, I was the only one cited for the incident. In other instances, I 
was written up for policies that were not in existence at the time of 
the incident and WHS refused to provide to me or other officers with 
written evidence of the change in policy that resulted in my write-up. 
In every incident, the write-up was unfounded, poorly investigated, and 
initiated by the same two managers.
    The situation became so intolerable that WHS Human Resources made 
the decision to transfer me to a position in the private law 
enforcement department as a Humane Law Enforcement Officer (HLEO). This 
position took me out of the chain of command of the two managers who 
initiated the disciplinary actions.
    Interestingly, while I was told that this was a lateral move, not a 
promotion, the new position did come with a pay raise and five months 
of back pay for the time between my outstanding performance review 
while presenting as a male, and the months of disciplinary write-ups 
for my performance as a female.
    I worked as a HLEO for approximately six months, from mid-January 
of 2007 to the end of June, 2007. There were no further incidents until 
the Executive Director resigned and one of the managers who had been 
supervising me during my transition and while I was an Animal Control 
Officer was promoted to Interim Executive Director. Upon her promotion 
to this position, the harassment, discrimination, and fabricated write-
ups began once again. Within three months of her promotion I was fired 
from my position for gross negligence. The final incident was again 
unfounded and poorly investigated.
    The District of Columbia Office of Human Rights is currently 
investigating this case for wrongful termination based on transgender 
discrimination. I would like to commend the District of Columbia for 
amending their non-discrimination statement to include gender identity 
or expression through the issuance of Mayor's Order 2006-151. While the 
discrimination and resulting termination that I experienced was 
devastating, I am truly grateful that I was employed in a jurisdiction 
that takes these matters seriously.
    Although this order does not prevent discrimination from occurring, 
I take great comfort in the fact that the District is fully committed 
to investigating claims of transgender discrimination and is working to 
ensure that the transgender men and women who work and reside in the 
District of Columbia are fully protected and have the same 
opportunities available to them as other men and women. It is my hope 
that the Federal Government will follow the good example set forth by 
the District of Columbia and many other jurisdictions by including 
transgender people in the national non-discrimination language.
    Since I have been terminated from WHS, I have had many promising 
interviews. None of which have resulted in a job offer. I have applied 
with and been turned down for Animal Control positions throughout the 
National Capitol Region. I have applied for work in veterinary clinics, 
animal boarding facilities, and various types of office and retail 
positions. Every potential employer I talk to seems excited about my 
qualifications and the unique set of skills and abilities I bring to 
the table. I'm sure you can imagine how frustrating and financially 
devastating it is to be unemployed for so long. While I do not know the 
reasons for being turned down for these jobs, there's always the voice 
in the back of my head that tells me it is because of my experiences 
with my previous employer and because of my status as a transgender 
woman.
    As an illustration for the problems facing a transgendered 
individual--I have recently applied for a position with the Federal 
government. There is a question on the Declaration for Federal 
Employment form (OMB No. 3206-0182) that has caused me great difficulty 
in answering. As most of you distinguished members know, not answering 
or answering incorrectly any question on a Federal application is cause 
for either not being hired or worse being terminated after employment 
for cause.
    Imagine yourselves in the position I find myself in and think how 
you might correctly answer this question.
    It reads, ``Are you a male born after December 31, 1959?''
    I know that this question is intended to determine selective 
service registration. It does however, unintentionally force me to 
``out myself'' to a potential employer. Additionally, I am in a 
quandary as to the correct way to answer the question.
    According to my birth certificate, I am a male born after December 
31, 1959, and I am registered for the Selective Service; however, my 
name and my state issued driver's license identify me as a female.
    Trying to answer this question truthfully, but in a way that will 
protect myself from the possibility of further discrimination has been 
difficult. In the end, I believe that my only option is to be fully 
honest and submit an explanation of why, while was I'm a male born 
after December 31, 1959, I am one of only a few women in the country 
who are registered for the Selective Service.
    I respectfully ask that this subcommittee consider the following:
    <bullet> Review the federal employment forms and investigate the 
possibility of rewriting them with gender neutral language, and
    <bullet> Explore the possibility of including gender identity in 
the national non-discrimination language.
    Thank you for convening this hearing to discuss the important issue 
of transgender equality in the workplace. I greatly appreciate the 
opportunity to submit testimony on this issue.
                                 ______
                                 
    [Article from the Los Angeles Times, dated November 19, 
2000, follows:]

         [From the Los Angeles Times, Sunday November 19, 2000]

                      Through the Gender Labyrinth

How a bright boy with a penchant for tinkering grew up to be one of the 
                    top women in her high-tech field

                         By Michael A. Hiltzik

    Late in 1998, a young researcher delving into the secret history of 
a 30-year-old supercomputer project at IBM published an appeal for 
help. As Mark Smotherman explained in an Internet posting, he knew that 
the project had pioneered several supercomputing technologies. But 
beyond that, the trail was cold. IBM itself appeared to have lost all 
record of the work, as if having experienced a corporate lobotomy. 
Published details were sketchy and its chronology full of holes. He had 
been unable to find anyone with full knowledge of what had once been 
called ``Project Y.''
    Within a few days, a cryptic e-mail arrived at Smotherman's Clemson 
University office in South Carolina. The sender was Lynn Conway, one of 
the most distinguished American women in computer science. She seemed 
not only to know the entire history of Project Y, but to possess reams 
of material about it.
    Over the next few weeks, Conway helped Smotherman fill in many of 
the gaps, but her knowledge presented him with another mystery: How did 
she know? There was no mention of her name in any of the team rosters. 
Nor was any association with IBM mentioned in her published resume or 
in the numerous articles about her in technical journals. When he 
probed, she would reply only that she had worked at the company under a 
different name--and her tone made it clear there was no point in asking 
further.
    What Smotherman could not know was that his appeal for strictly 
technical information had presented Lynn Conway with a deeply personal 
dilemma. She was eager for the story of IBM's project to emerge and for 
her own role in the work to be celebrated, not suppressed. But she knew 
that could not happen without opening a door on her past she had kept 
locked for more than 30 years.
    Only after agonizing for weeks did Conway telephone Smotherman and 
unburden herself of an extraordinary story.
    ``You see,'' she began, ``when I was at IBM, I was a boy.''
    Nature directs living things into a vast maze of sexual diversity 
from which our culture provides only two acceptable exits: male and 
female. Gender is the most fundamental component of our self-image, the 
foundation of the personality we present to everyone around us. Think 
of the very first question one asks about a newborn: ``Is it a boy or a 
girl?''
    Today the intricacies of gender have worked their way into 
cultural, scientific, even political debate. Why shouldn't girls 
compete against boys in math, or on the playground? Would little boys 
be less beastly if society discouraged rough play? Where, in fact, does 
our gender identity reside: In our physique? Our brain? Or somewhere 
deeper, in our soul?
    That society has begun to grapple openly with these issues suggests 
how profoundly absorbing the subject is. ``There's a little bit of each 
gender in each person, so there's something intriguing about what 
exists on the other side,'' says George Brown, a psychiatrist at the 
Veterans Administration Medical Center in Johnson City, Tenn. ``But 
there's also a threat that in exploring the subject I might find out 
something I feel is very dangerous.'' This implicit threat may explain 
why, over the past 30 years, science has learned less about the 
mysteries of gender than about the origins of the universe.
    Transsexualism, the most extreme expression of gender discordance, 
may be our last taboo. At least 40,000 Americans have undertaken the 
surgery and therapy to make the transition from male to female and as 
many as 20,000 more may have gone from female to male. But so strong is 
the stigma, so blatant the discrimination, that most keep the change a 
secret by shedding their old lives, jobs and friends along with their 
old gender. Lynn Conway, among the first Americans to undergo a sex 
change, came to give the secret life into which it forced her a name: 
``stealth.''
    Today Conway lives in a home outside Ann Arbor, where she is 
professor of computer science emerita at the University of Michigan. 
Slim and tall, with light brown hair, long, slender fingers and an 
engineer's unsentimental directness, she says she knew that the 
operation that changed her gender would consign her to a life of 
hardship. And she knew it would be worth it. Peering out over the 24 
acres of meadow, marsh and woodland she shares with her boyfriend of 13 
years in a rural district of lower Michigan, she recalls the risks she 
confronted three decades ago. ``The prediction by everyone then was 
that what was happening to me would be a disaster,'' she says. ``But 
sometimes in your gut, you know something is right.''
    A child, whom for reasons of family privacy we shall call Robert 
Sanders, was born in Mt. Vernon, N.Y., to a schoolteacher and a 
chemical engineer who divorced when he was 7. A round-faced little boy 
with direct blue eyes, Robert by the age of 4 was giving off signals--
faint to outsiders but alarming to his parents--that he was not a 
normal male child. He shunned the other boys and preferred the sedate 
play of girls in groups. One day, walking through a clothing store in 
Scarsdale with his mother, he stopped, transfixed by a girl's cotton 
print dress, one with puffy sleeves like his little friend Janet wore.
    ``Can I have one like that?''
    He had just gotten out the words when he felt as though every eye 
in the store was fixed on him. ``No, you may not have that dress,'' his 
mother snapped. ``You are not a girl!'' It was obvious even to his 4-
year-old ears that he had committed some terrible blunder, but he did 
not know what.
    From that point on his parents watched carefully for any signs of 
effeminacy, which they mercilessly exterminated. They cut his hair back 
almost to the scalp, leaving just enough in the front to be combed 
back. His mother stopped cuddling him, barely touched him anymore, as 
though fearing that her previous expressions of maternal love had 
somehow softened him. He ended up feeling that he was being watched all 
the time.
    The vigilance ebbed slightly after his parents' divorce. Robert's 
mother was so busy teaching that he and his younger brother, Blair, 
were left to their own devices after school. The brothers shared an 
unquenchable interest in nature and science. The house was full of the 
flotsam and jetsam of their mother's schoolroom assignments--scrap 
lumber, galvanized tin, all kinds of junk that became the raw material 
for countless backyard projects. Whatever was not on hand they 
scrounged during weekend forays to the public dump.
    When school ended for the summer, the projects started, fueled by 
Robert's precocious talent for design and construction.
    He hand-built a hi-fi system, and then a wood-framed enlarger for 
the brothers' hobby of photography. In high school he resolved to build 
a radio-telescope. It was 1952, and searching the skies for radio waves 
emitted by cosmic bodies--now an indispensable tool of modern 
astronomy--barely ranked as an authentic scientific application. 
Nevertheless, Robert studied nonstop, drafted a design, acquired the 
necessary lumber and aluminum sheeting and, with Blair's help, erected 
in the backyard a working contraption, 12 feet in diameter. ``Robert 
had this very strong personality trait of studying things well, coming 
up with a plan and carrying the plan through to completion,'' Blair 
says. ``There's no stopping a person who continually does that.''
    What Blair did not comprehend was that his older brother's 
determination shrouded--or perhaps counterbalanced--deep inner turmoil. 
With puberty Robert's unremitting feelings of girlishness boiled over, 
setting up a violent conflict with the inexorable masculinization of 
his body. He did everything he could to forestall what was happening--
surreptitiously shaving his legs, shaping his eyebrows, pilfering 
women's clothes from relatives' homes. But these pitiable cosmetic 
measures only sharpened his internal conflict.
    In 1950s Westchester County, sex remained firmly outside the bounds 
of polite discussion, even within families. There was no one he could 
talk to for support, encouragement or explanation. His mother glared at 
any signs of incipient effeminacy but never raised the issue in 
conversation. The denial within Robert's family was fully reflected in 
society at large.
    The prevailing view of transsexualism as a psychological 
disturbance is both the cause and the result of the poverty of 
scientific research into the foundation of gender identification. What 
is known is that there are four broad and somewhat related elements. 
These can be categorized as genetic, hormonal, physical and 
neurological. In most cases all four are in sync. A female child 
inherits one X chromosome from each parent and develops, under the 
influence of the ``female'' hormone estrogen, secondary sex 
characteristics such as breasts and the ability to ovulate. This child 
has a vagina, uterus and ovaries, and considers herself psychologically 
a girl. A male child inherits one X and one Y chromosome and develops 
facial hair and greater muscle mass under the influence of 
testosterone. This child has a penis and testes and psychologically 
considers himself a boy. But it sometimes happens that nature, usually 
so efficient at managing the cascade of biological events that produces 
a newborn, leaves one or more of these elements out of sync. The Y 
chromosome might lack a gene allowing the body to respond to the male 
hormone, in which case the result is an XY female--outwardly 
indistinguishable from a normal female. The reproductive system is 
susceptible to a wide range of defects that come under the category of 
``intersex''--the presence of biological elements of both genders. In a 
surprisingly high number of births--as many as one in 500, according to 
pediatric surgeons--a child is born with anomalous genitalia that in 
the most severe cases leave its gender hard to determine.
    In the rarest cases the sole element out of sync is the 
neurological. The cause and, therefore, the remedy for the mental 
conviction that one is a whole being trapped in a perfect, but 
profoundly inappropriate, body is a mystery buried deep in the 
labyrinth of the mind.
    Robert could do little to explore this maze until he left home at 
17 to study physics at MIT. University life was liberating. He thrived 
in the rarefied competition of 900 of the country's brightest high 
school graduates, finishing his freshman year in the top 2% of his 
class. For the first couple of years he kept one foot planted uneasily 
in the ``normal'' life of a young heterosexual, going out occasionally 
with groups of male and female friends. On these dates, ``he was as 
normal as any innocent kid,'' recalls Dorothy Hahn, who married 
Robert's closest MIT friend, Karl. ``He was awkward with girls, but not 
excessively so.''
    But release from his mother's repressive scrutiny also gave him the 
space to air what he sensed was his truer self. He gave his 
increasingly assertive female persona the name Lynn--a derivative of 
his middle name--and clandestinely purchased women's clothing from the 
Sears catalog. When he learned that a group of acquaintances was 
burgling pharmacies for narcotics, he did a characteristically thorough 
survey of the endocrinological literature and presented them with an 
order, crafted with a physician's precision, for injectable estrogen. 
The hormones did their job. Robert's skin and features softened, his 
body hair thinned, he began to develop breasts. Gingerly, he began 
coming out to a few close friends, then wearing women's clothing in 
public, where his androgynous femininity attracted male attention. A 
photographic self-portrait from this period shows a waif-like ``Lynn'' 
in a modest black dress, hair tucked behind one ear, bare legs shod in 
simple pumps. Some of his new male friends became lovers, yet Robert 
never saw these as homosexual relationships, for although his partners 
knew he was male, they regarded him not as a boy but as a girl, as 
``Lynn.''
    This lonely experimentation anticipated what has since become the 
professional standard in the treatment of transsexuals--the ``real life 
experience,'' in which the medical and legal systems require patients 
to live for a year in their ``psychological gender'' before being 
judged ready for sex-change surgery. Without professional support, 
however, Robert's double life--he still attended class as a man--only 
intensified his profound psychic confusion. By his senior year the 
strain was starting to tell. His female identity and his black-market 
hormones were increasingly at war with his body's determination to 
create the brow ridge and other features that telegraph masculinity to 
others on a subconscious level.
    He started drinking heavily, self-medicating his psyche with buck-
a-bottle fortified wine the way he self-medicated his body with 
estrogen. He expressed abhorrence of his physique and talked about 
castrating himself to arrest his body's relentless output of 
testosterone, going so far as to investigate how to create a germfree 
environment to undertake the surgery. Karl Hahn, who had transferred to 
a premedical program at Boston University, was sufficiently alarmed 
that he found Robert a psychologist.
    The man Karl had in mind was a professor at the medical school who 
reputedly knew something about transsexuality and the available 
options. (News of Christine Jorgensen's Danish sex-change operation had 
broken not long before.) At the very least, Karl reasoned, this would 
provide Robert with a professional shoulder to lean on, someone to 
assure him that he wasn't going insane, that he need not grapple with 
his bewildering condition in hopeless isolation.
    The consultation began auspiciously. Robert described his feelings 
of sexual disjunction as the doctor listened tolerantly. Then, 
abruptly, with a serene detachment that gave his words a horrible 
finality, he punctured Robert's hopes.
    ``Unfortunately, there isn't anything you can do to become a 
woman,'' he said. Crisply he outlined the stark choices. Robert could 
cease the hormone-taking and resolve to end this phase of sexual 
experimentation on his own, or the state of Massachusetts would do it 
for him, by institutionalizing him as a sexual deviant.
    ``But I've heard about these operations,'' Robert protested. ``I 
thought you would tell me where to go to get them.''
    ``Those operations don't make you into a woman,'' came the reply. 
``They just make you into a freak.''
    Robert hit bottom. He flunked out of MIT. On what was to have been 
his graduation day he was in San Francisco, living on the fringes of 
the gay community, still desperately searching for where he fit. But he 
found no answers there, because he did not see himself as a gay man 
attracted to other men, but rather as a woman attracted to men--if only 
he could rectify nature's dirty trick.
    After his hormone supply ran out the following winter, he ended up 
back home, working days as a repair technician at a hearing-aid 
company. With Blair away at college, Robert and his mother occupied the 
house alone, coexisting uneasily in mutual avoidance, rarely speaking, 
rarely even passing through the same room, lest the slightest physical 
encounter remind them of the unaddressed issues between them. Having 
failed to find a community that would have him, Robert felt degraded 
and humiliated. The silence of the house settled on him like a 
reproach.
    Again, it was intellectual restlessness that stirred him from his 
torpor. The deadening busywork of hearing-aid repair could not keep him 
for long, so in 1961 he enrolled at Columbia University. There he once 
again excelled, earning bachelor's and master's degrees in electrical 
engineering after only two years. More important, his sterling work 
landed him a job offer from Herb Schorr, a Columbia instructor who was 
also a research executive at IBM.
    Schorr's secret ``Project Y'' team was engaged in designing the 
world's fastest supercomputer. Soon to be renamed ACS, for ``Advanced 
Computing System,'' the project had the special status of being a pet 
of IBM's chairman, the imperious Thomas J. Watson Jr., who was irked 
that his company had fallen behind its rivals in its efforts to reach 
and hold this prestigious beachhead.
    As elite and insular as the Manhattan Project, ACS was shortly 
relocated to Menlo Park, Calif., where the team of 200 engineers 
occupied its own building on Sand Hill Road--a stretch of highway 
famous today as the center of Silicon Valley's venture capital 
community. For Robert the sheer cerebral bravado of the group was a 
revelation. Energized by the pioneering work taking place around him, 
one day he experienced a flash of insight that at a stroke solved one 
of the team's hardest problems.
    The issue, vastly simplified, was how to allow the machine to 
execute more than one instruction--say, adding, multiplying, or 
comparing two numbers--at a time. A computer can handle several 
instructions at once if they are independent--say, if two instructions 
involve adding two unrelated pairs of numbers. But often one 
instruction cannot be executed until another is completed--for example 
the addition of two numbers, one of which is the sum of two others 
summed by a prior instruction. The trick is to figure out which 
instructions can be jumped ahead in line.
    Robert's insight, which became known as ``dynamic instruction 
scheduling,'' or DIS, was a way of constantly analyzing a string of 
instructions and ordering them efficiently while keeping the number of 
transistors performing these logical tests--still, in the mid-1960s, 
extremely expensive--to a minimum. Within days the team had 
incorporated DIS into the ACS architecture. Over the years it would 
filter into generations of high-performance, so-called ``superscalar,'' 
computers.
    Yet as he reached this pinnacle of professional achievement 
Robert's personal life was coming apart. For he had not moved to 
California alone.
    During the summer between Columbia terms Robert had befriended a 
co-worker at the hearing-aid company named Sue. (Her name has been 
changed.) She was a pretty brunet from a Catholic family working to 
raise tuition for nursing school. When school resumed that fall they 
continued meeting socially in the city. They took walks in the park and 
enjoyed casual lunches, forging a relationship that the inexperienced 
Robert, oblivious to Sue's real feelings, considered platonic. One 
night after one of their non-date ``dates,'' Sue got affectionate and 
Robert, despite himself, got aroused. The next thing they knew, Sue was 
pregnant. For months Robert fended off Sue's insistence that they 
marry, but finally gave in. ``I felt like it was a trap,'' Lynn says. 
``But the fact there was going to be a baby seemed like a miracle. I 
really looked forward to it. It was, like, `Robert's getting trapped, 
but Lynn gets to have a baby.' I didn't realize the implications.''
    To friends aware of Robert's psychological struggle, his marriage 
suggested that he had decided to surrender to living with a permanent 
dichotomy in his sexual being. For a while that might have been true, 
as Robert immersed himself in the mundane demands of married life. 
Their daughter Kelly was born in February 1964. (The daughters' names 
have been changed.) Amid the excitement of his new work and the daily 
routine of raising a family on his $15,000 salary, the conflicts of 
gender seemed to recede.
    Any personality quirks he did display melted into the 
eccentricities of a team of gifted engineers engaged in teaching a 
room-sized contrivance of transistors and wiring how to cogitate. 
Robert ``was always somewhat strange, but all these guys were 
strange,'' recalls Herb Schorr, chuckling. ``My nickname was `The 
Zookeeper.' ``Erudition in this group ran deep rather than wide; they 
could debug the circuits of a digital machine from deep within its 
logic structure, but of the outside world they were as innocent as 
monks. ``When these guys went out for beers in the evening, they would 
sit and talk about technical things, not sexual things,'' Schorr says. 
No one seemed to notice even a hint of effeminacy in Robert's manner; 
if anything he had a reputation of being ``macho,'' an aficionado of 
high-speed motorcycle riding, fit enough to easily handle hikes on 
social outings to Mt. Whitney or Yosemite National Park that left his 
colleagues winded.
    Meanwhile, the medical establishment was finally starting to 
acknowledge gender identity issues. In his 1966 book ``The Transsexual 
Phenomenon,'' Harry Benjamin, a prominent New York endocrinologist, not 
only gave the syndrome a name but also chided his peers for their 
ignorance: ``Even at present, any attempt to treat these patients * * * 
in the direction of their wishes--that is to say `change of sex'--is 
often met * * * with arrogant rejection and/or condemnation.'' Benjamin 
wrote of patients he had treated with hormones and steered toward 
surgery. Robert, however, reacted to this glimmer of professional 
understanding not with relief but despondency.
    As physical masculinization was catching up to him, his marriage to 
Sue was faltering under the pressure of mutual frustration. Their 
sexual relations had been rare and unsatisfying, although not 
nonexistent: A second girl, Tracy, was born in 1966.
    He was 28, already raising a family, manacled so firmly into the 
role of father, husband and man that he felt it would take a Houdini's 
skills to extricate himself.
    The motorcycle rides became more breakneck, the rock climbing more 
adventurous. At first the fear was distracting. But implicit in the 
danger-seeking was self-destructiveness, a subconscious hope that an 
accident might bring his inner guilt and turmoil to an end. Deliverance 
never came.
    On a drive home from a dinner party one evening, he pulled to the 
side of the road, overcome by feelings of alienation. Breaking down in 
tears he blurted: ``I need to be a woman.'' It was the first time Sue 
had heard her husband put his feelings of disaffection into words. But 
that did not make them easier to talk about. The isolation only seemed 
to increase. Brooding alone one night in 1967 as Sue and the children 
slept, he broke down again. Weeping uncontrollably, he dug out a Colt 
.45 automatic pistol he had used for target practice and placed it to 
his head. He was holding it when Sue, awakened by the wailing and 
sobbing coming from the next room, appeared at the door, frozen in 
shock. The next thing Robert knew, the gun was on the table and Sue was 
assuring him that they would do anything they could to relieve his 
torment.
    With Sue's consent, Robert contacted Benjamin, then in his 80s and 
on the eve of retirement. Benjamin agreed to accept him as one of his 
last patients. Under Benjamin's care, Robert resumed estrogen therapy 
and prepared for an operation that would remove the physical signs of 
his maleness and give him female genitalia, the ``change of sex'' he so 
ardently desired. The operation would prove to be the easy part.
    Robert had visualized a nearly seamless transition from male to 
female. At IBM he would have his supervisors change his records so that 
he was no longer Robert, but Lynn, and he would transfer to another lab 
to start afresh. At home, following the separation and divorce he knew 
were unavoidable, he would simply visit as ``Aunt Lynn''; at 2 and 4 
the children should be young enough to barely register the change. But 
problems surfaced immediately. At work, his supervisor, an engineer 
named Don Rozenberg, recognized instinctively that IBM possessed 
exactly the wrong culture to indulge Robert's unprecedented proposal. 
``It was still white shirts, blue serge suits and wingtip shoes,'' 
Rozenberg says. ``This simply wasn't the IBM image.''
    Indeed, IBM corporate management, unable to see how Robert could 
keep his past secret from his co-workers, feared disruption. ``The 
decision was made,'' Rozenberg recalls, ``to quietly move him out of 
the company.'' For Robert the loss of his job could not have come at a 
worse time. His sex reassignment surgery, as it was formally known, was 
scheduled to take place in a few months. It would cost about $4,000--an 
enormous sum in 1968--not including several thousand dollars in 
ancillary costs: electrolysis, counseling, hormone therapy. Beyond the 
financial implications, the stigma of banishment from one of the 
world's most respected corporations fell upon him like an 
excommunication.
    The few friends and colleagues Robert told of his medical situation 
identified with Sue, berating him for misleading her and exposing his 
young family to shame and disgrace. Nevertheless, Robert felt he had to 
go through with the surgery; it was change or die. In November 1968 he 
boarded a PSA plane for San Diego, then a bus to the Mexican border and 
a taxi through Tijuana to the medical clinic of Dr. Jose Jesus Barbosa, 
a plastic surgeon with an elite practice among affluent Americans. 
Barbosa also had experience performing the so-called penile inversion 
procedure, in which the sensitive skin of the penis is used to 
construct a vaginal canal. In a 4 1/2-hour operation Barbosa 
transformed Robert's genitalia into those of a woman, fully sensitive 
and even capable of orgasm.
    But the surgery failed to address another issue. Under pressure 
from family and friends who saw Robert's choice as something depraved, 
Sue wavered about letting ``Aunt Lynn'' stay in the girls' lives. Her 
doubts grew when, after Robert left IBM, the family spent three months 
on welfare. The troupe of county social workers thus introduced into 
their lives were openly appalled at Robert's decision. Sue, worried 
that the children might be taken from her, finally barred the girls' 
father from their lives on threat of obtaining a court order.
    Lynn, now living as a woman, did not underestimate the threat. An 
encounter with the law would mean public exposure and the undoing of 
all her efforts to start life over. So she capitulated. Sue granted her 
a final visit with the children in late January 1969. Dressed as a man 
for the last time in her life, Lynn spent a few hours watching her 
towheaded toddlers chase their shadows across the playground of a Palo 
Alto park and tried to stifle the flood of family memories that washed 
over her, such as the camping trips on which Robert would hike 
Yosemite's trails with little Kelly strapped into a carrier on his 
back.
    When the setting sun signaled that the afternoon was drawing to an 
end, Lynn called to them, enveloped each girl in hugs, and tried 
casually to deflect their questions about why Daddy had to leave so 
soon and where he was going. Finally, her heart breaking, she walked 
away. She would not see either of them again for 14 years.
    As the '60s wound down, the peninsula stretching from San Jose to 
San Francisco was undergoing a transformation. The orchards blanketing 
its rolling ridges were falling under the bulldozer, peach trees making 
way for low-slung industrial complexes. Although it would be several 
years before a local newspaperman coined the term ``Silicon Valley,'' 
the region's growing electronics industry already evinced an unflagging 
demand for electrical engineers.
    After the operation, Lynn had moved ``Robert'' out forever. She had 
her surname legally changed to Conway, after the dynamic heroine of a 
favorite Helen MacInnes adventure novel, and began life anew.
    It was not easy. For one thing her medical history proved a 
formidable obstacle to employment. Firm after firm made tentative job 
offers, only to change their minds as soon as she disclosed her 
condition on medical questionnaires. A local RCA research lab, 
intrigued by her skills but nervous about her history, offered her a 
position on condition she pass a psychiatric examination. Years later 
Lynn produced a copy of the psychiatrist's report from her meticulous 
files: two stapled pages, with the faded, grainy quality that bespeaks 
repeated photocopying: ``Lynn Conway is a 31-year old transsexual * * * 
articulate, composed, attractive, and neatly attired * * * comfortable 
and optimistic about her life * * * no indication of any abnormal 
mental trends * * * very superior intellectual capacity * * * [nothing] 
that would preclude her appropriateness for employment.''
    RCA withdrew the offer.
    Eventually she hooked up with a small company desperate for 
experienced programmers. That job led to one at Memorex, the recording 
equipment company, which had decided to plunge into the computer 
manufacturing business and needed an experienced designer. Her 
reputation grew, and in 1972 she found herself weighing the most 
intriguing offer of her career.
    The offer had come from a new electronics lab established by Xerox 
Corp. in an industrial park adjacent to Stanford University. Xerox, 
anxious that the emerging technology of digital computing might render 
obsolete its monopoly in office copying, had hired a few score of the 
smartest young engineers and scientists it could find, placed them in a 
California glade as far from its Connecticut headquarters as geography 
allowed and instructed them to follow their imaginations. The Palo Alto 
Research Center, or PARC, would eventually oblige by inventing the 
personal computer, the laser printer, Windows-style computer displays 
and much more in a legendary burst of innovation.
    When Lynn joined PARC in 1973, much of this work was underway. The 
lab's revolutionary personal computer, the Alto, was already 
established as an indispensable office tool, each one linked to scores 
of others via the lab's ingenious data network known as Ethernet. But 
her own work would follow a slightly different path.
    One of PARC's outside consultants, Caltech engineering professor 
Carver Mead, had proclaimed a revolutionary technical advance in 
computing. By imprinting ever more miniature circuits on silicon 
wafers, scientists had turned the traditional axioms of computer design 
on their heads. Computers were made of devices (transistors) and wires 
(their connections). Historically the transistors were expensive and 
the wires cheap, which dictated not only the architecture of the 
computer but the uses to which it was put--largely sequential, 
arithmetical computation. But silicon reversed the costs. Transistors, 
printed on layers of silicon, became cheap, while the infinitesimal 
connections became the cost bottlenecks. Mead foresaw that the 
difference would require a new kind of design but would open the 
possibility of nonarithmetic computation. Computers, Mead wrote, would 
no longer be big machines, useful only for crunching numbers, but tiny 
ones ``deep down inside our telephone, or our washing machine, or our 
car.''
    Lynn was among the few engineers at PARC to buy into Mead's 
dramatic rethinking of computing's potential. To his crystalline 
intuition she contributed the hands-on engineering experience and deep 
understanding of computer architecture she had gained at IBM and 
Memorex. (``I had never designed a computer,'' Mead says. ``She had.'')
    She also contributed the concept of design rules for the new 
technology of ``very large-scale integrated circuits'' (or, in computer 
shorthand, VLSI). These were principles that could be applied to almost 
any particular VLSI design, the way one can use the same-sized bricks 
to build an infinite variety of walls. Lynn and Carver Mead codified 
their work in a textbook that was issued in 1979 as ``Introduction to 
VLSI Systems'' or, as it became known to a generation of engineering 
students, ``Mead-Conway.''
    Mead was already a national figure in engineering, but the book 
cemented Lynn's reputation. Even before its formal publication she had 
begun proselytizing about VLSI at universities across the country, 
including a semester spent teaching at none other than MIT (where she 
kept her previous matriculation a secret). ``It really did change the 
view the technical world had of the potential of silicon,'' Mead says. 
This set the stage for a genuine computer revolution and the ultimate 
realization of VLSI principles: the Pentium chip, which today powers 
millions of desktop computers.
    In the broadest sense, the intellectual energy of Silicon Valley 
mirrored Lynn's own flowering, which had begun with her operation. Her 
mind and body finally synchronized, she felt as though she had been 
reborn as a new emotional being. ``I was experiencing a complete and 
profound new internal and external reality,'' she says, ``going through 
what amounted to a second puberty.''
    Her social life blossomed. She frequented singles bars, sampled the 
novel technology of computer dating, stayed out dancing and socializing 
into the small hours. A photograph from the period shows her nestled in 
the driver's seat of her new red Datsun Z-car in a miniskirt and purple 
blouse, the prototypical single professional. She carried on an active 
sex life and, like any woman in her 30s, contemplated love and 
marriage.
    But she was not like any other woman, and her expectations 
gradually faded. She got close enough to a number of boyfriends to 
share her past with them. At that point the relationships typically 
stalled out. ``I backed off, thinking I would never find anybody,'' she 
says. ``I felt good about myself, but I was also thinking that someone 
might not want to marry someone like me.''
    Such episodes reminded her of the ever-present danger of exposure. 
For the most part she kept the truth behind a shroud. At PARC, a place 
where your academic credentials were as much a part of your identity as 
the music you listened to or the books you read, she managed never to 
let on that she had attended MIT and worked on a pioneering 
supercomputer at IBM. No one ever probed too deeply: It was as if she 
emitted some imperceptible signal telling colleagues that there were 
places in her past where one did not go.
    Paul Losleben, a computer engineer who worked with her in a 1980s 
government program, recalls hiking with her one afternoon in the Palo 
Alto foothills. ``I came away just brimming with new ideas without 
being really sure where they came from,'' he says. ``I was just 
overwhelmed by her intelligence, her creativity, her grasp of topic.'' 
Only later did he reflect on how little she had given up of herself. 
``It was as though she was a totally professional person,'' Losleben 
recalls, ``without any personal side.''
    For all that, through the '70s and '80s Lynn detected hints that 
social attitudes toward transsexuality were changing. In 1983, when 
Lynn was recruited to head a supercomputer program at the Defense 
Department's Advanced Research Projects Agency, or DARPA, she sailed 
through her FBI background check so easily that she became convinced 
that the Pentagon must have already encountered a transsexual or two in 
its work force.
    Transsexualism may not have achieved mainstream acceptance, but at 
least it was no longer universally viewed as a transgression against 
nature. For one thing, there was more public awareness of the 
condition. Eugene Biber, an American plastic surgeon, had performed his 
first sex-change operation at his clinic in Trinidad, Colo., in 1969. 
(``Then the grapevine started,'' says Biber, who has since performed 
more than 4,500 operations.) Meanwhile, Harry Benjamin's teachings on 
transsexualism had spread. Stanford University established a program 
studying the condition, lending transsexuals valuable credibility. From 
time to time a prominent transsexual was ``outed''--in 1976 it was the 
tennis player Renee Richards--and to the extent she managed to come 
through the attendant derision with her dignity intact, transsexualism 
shed a bit more of its eccentricity. By the late 1970s an estimated 
1,000 Americans were undergoing the surgery every year.
    Lynn had to forge this path herself. Her mother and father died in 
the 1970s, still refusing to accept Robert's transition. But by then 
she had already reconnected with her brother Blair, visiting him while 
he was in San Francisco for an academic conference.
    Blair had been aware of her transition, but they had never had a 
conversation about it. Now they sat in his hotel room, facing the 
mutual challenge of brother and brother recalibrating their lifelong 
relationship--this time as brother and sister. For years Blair, now an 
astronomer at the University of Wisconsin, would struggle to reconcile 
the male role model of his formative years with this accomplished woman 
who was part stranger. Over time he found the answer that allowed them 
to come together again as family. ``I think of them now as two 
different people,'' he says.
    And then, in 1983, Lynn arrived at the most disquieting stretch of 
uncharted familial territory.
    For Kelly and Tracy, their father's absence was a mystery that 
reasserted itself at regular intervals. At Christmastime, Lynn paid for 
presents that would appear under the tree marked ``Love, Dad''--
apparently so designated by Sue without Lynn's knowledge. Kelly 
recalled blurting to a teacher in kindergarten or nursery school that 
she had once glimpsed her father wearing women's clothes (the teacher 
summoned Sue to warn her against such loose talk). And there were the 
monthly checks of child support, signed by a ``Lynn Conway,'' whom the 
girls imagined to be a lawyer or agent of some sort.
    ``I had no memory of my father,'' Tracy recalls, ``although I had 
the image in my mind of someone really fabulous.'' Of the two children, 
it was she who showed the greater interest in their father. When she 
turned 15 she began peppering her mother with questions. ``I was a 
teenager watching all my friends be Daddy's little girls, and I wanted 
to know who my dad was.''
    But her mother, who had spent more than a decade carefully dodging 
the painful issue of the phantom Robert, was not about to confront it 
head-on. Instead she chose to deal with the questions at a safe remove. 
One day while traveling on business, Sue set down the broad details of 
Robert's transformation in a letter and mailed it home, addressed to 
Tracy.
    Tracy opened the envelope and moments later burst into her older 
sister's room. ``You're not going to believe this!'' They read the 
letter together. There was something about how their father was ``no 
longer a he, but a she,'' and how their mother knew something was not 
right with Robert but not exactly what. The letter could not help but 
raise more questions than it answered, but Sue remained loath to fill 
in the gaps. The girls struggled with wrenching questions, including 
the bedrock riddle of why their father, whatever his condition, had 
stayed out of their lives.
    Finally, when Kelly turned 18 in 1983, Lynn made contact. She 
reintroduced herself via a series of short notes, then called to invite 
her daughter to their first face-to-face meeting since that desolate 
day at the playground. The bafflement and denial that had swept over 
Kelly upon reading her mother's letter two years earlier had given way 
to a wary curiosity. They met at a French restaurant in Palo Alto, 
where Kelly, who had never been to such a place, marveled at how every 
dish seemed slathered in rich sauce. As they ate, neither knew quite 
what to say. ``It was almost like two strangers meeting, because we 
really were strangers,'' Kelly recalls.
    Guardedly she brought Lynn up to date on her own life--she was 
already married and had a baby boy at home. But the strained formality 
of the setting prevented her from raising the most painful issues 
between them, including the girls' profound feelings of abandonment. 
Throughout the dinner she stole glances at the unfamiliar woman across 
the table, as though searching for signs of herself. ``I was trying to 
come to terms with what our relationship was supposed to be,'' Kelly 
recalls. ``Was she a friend? My dad? An aunt?'' The encounter left 
Kelly impressed by Lynn's humor and intelligence, but also left too 
many ancient hurts unhealed. ``I didn't know after that night if I'd 
ever see her again,'' Kelly says. ``She'd been away forever, and I 
didn't know if she'd really be around.''
    They met a few more times in California. Then in 1985, after Lynn 
moved to the University of Michigan as a professor and associate dean, 
she invited Kelly and Tracy to her new home in Ann Arbor, treating them 
to a shopping trip, lunch at the university, a day of canoeing, a hint 
of what she had become during all those years offstage.
Epilogue
    The rewards and professional accolades of a distinguished career 
kept coming in. Lynn received appointments to the board of trustees of 
MIT's Draper Laboratory and the board of visitors of the U.S. Air Force 
Academy (commemorated on her kitchen wall by a group photograph of the 
trustees, all in flight suits, lined up against the redmountained 
landscape of Colorado Springs). A figure of undisputed authority in 
some of the most abstruse corners of computing, Lynn won election to 
the National Academy of Engineering in 1989.
    There was, however, a lingering resentment. DIS, the logic system 
she had invented at IBM, had become a standard of computer design. Yet 
others were now claiming credit for the process, years after her 
brainstorm. Reflecting on her life's tortuous path and wondering if her 
achievements and those of her IBM colleagues had ever surfaced, she 
typed the word ``superscalar'' into an Internet search engine and came 
up with Mark Smotherman's Web page. It was headed: ``ACS--The first 
superscalar computer?''
    Lynn was not surprised that Smotherman had problems unearthing ACS' 
history. Shortly after Robert Sanders' firing, the project had landed 
on the wrong side of an internal power struggle at IBM and been shut 
down. The team members dispersed and IBM's own institutional memory 
faded. The one place where that memory resided, as it happened, was in 
Lynn's files. The corporation had been so intent on ushering Robert 
Sanders out the door that it had neglected to ask him to return any of 
the project documents in his possession. Lynn still had them: reams of 
minutes, memos, diagrams--the complete history of a forgotten 
breakthrough in computer science.
    Lynn wrestled with the infinite complications that would be raised 
should she make the cache public, thereby ``outing'' herself. Was she 
entirely comfortable in her role as a woman? Was there perhaps some 
hint still of shame? Was she a transsexual who happened to be a woman? 
A woman who happened to be transsexual? Or simply, at last, a woman?
    There were many reasons to remain quiet, but threaded through her 
own life experience, Lynn also glimpsed a reason to step forward. Tens 
of thousands of transsexuals, whether they had had their operation, 
were contemplating one, or had chosen to live as the opposite sex 
without undergoing surgery still were forced to make their way alone, 
as she had. Who could know how many suffered in solitude, unaware of 
their options and opportunities, of what their predecessors had learned 
about living with their condition? Only when homosexuality had come out 
of the closet did enlightenment start to ease the burden of gays and 
lesbians. Maybe it was time for transsexuals to benefit from the same 
process. Almost before knowing it, she had decided. Lynn copied the 
most important papers. After carefully eradicating her old name and 
inserting the new on every title page, she sent them to Smotherman and 
a few old colleagues. She was emerging from stealth.
    With the same determination she once devoted to designing and 
building backyard radio-telescopes and room-sized computers she made 
contact with old friends, revealed her past and challenged them to see 
her whole. She directed some to her Web site, www.lynnconway.com, where 
she posted a candid ``retrospective'' of her life. Many were surprised 
at the information, but no one shunned her. ``I reassured her that I 
had known about it and it was OK then and it was OK now,'' Carver Mead 
says.
    For Lynn herself, the process meant reexamining a lifetime of 
decisions and choices. Recently, on a drive home from her office in Ann 
Arbor, Lynn reflected on the path onto which nature had steered her. 
``I sometimes think that all this stuff''--the achievements of a hard-
fought career--``is overcompensation. If I'd been born 20 years later 
and transitioned at the age of 20, I probably would have found a 
husband and adopted kids. But I was just too early, and the transition 
came just too late.'' She stopped for a few moments. The tears passed. 
``But I've got to the point where that's just a fact of life.''
    Besides, she will tell you, she has too much to cherish now to 
dwell on regrets.
    One day in 1987, at a canoe shop in Ann Arbor, she fell into 
conversation with a fellow enthusiast of nature. She ran into him again 
a few weeks later at a canoeing party. He was a professional engineer 
named Charlie, a hunter and outdoorsman who would shortly introduce her 
to his other passion, amateur motocross racing.
    A new possibility, long renounced, reappeared. Within a few months 
they were living together and by 1994 they were looking for a house to 
buy. In a rural township about a half hour from Ann Arbor there was a 
trim little cottage on a few acres of marsh, meadow and wild woodland. 
Tentatively, as though testing a stove top that had burned before, Lynn 
sat Charlie down one night and broached a subject she knew she had left 
too long unaired.
    ``I think there's something you need to know about me,'' she said.
    ``She began filling me in on things I'd never begun to suspect,'' 
Charlie recalls. ``I've got to say it was a little bit stunning. I was 
in a fog for a while, absorbing it. But I knew it was probably as hard 
for her to get into as it was for me to hear it.''
    He was a single man, never married, distant from his family. Like 
her, a soul looking for companionship and more. Despite his confusion, 
he offered reassurance. ``On the Huron when we met,'' he said later, 
``we were both at a point in our lives where we needed someone like the 
person we saw the other to be.''
    That's all Lynn ever wanted. To be seen by others as she had always 
seen herself. And that's the person her friends and family members have 
now accepted. Tracy and Kelly have welcomed her into their lives. To 
their children she is, at last, their beloved ``Aunt Lynn.'' Says 
Kelly, ``I love her and love for her to be in our lives. We're very 
close and very similar. To us what happened in the past doesn't matter 
anymore.''
                                 ______
                                 
    Chairman Andrews. I also want to take a moment and thank 
some constituents and friends from New Jersey that are present 
today from Garden State Equality: the Vice Chair of that group, 
Barbra Casbar Siperstein. Barbra, welcome--Babs, I should say. 
Lilly McBeth and Angela Rain. They are constituents and 
friends. We are very glad that you are with us, as all of our 
guests, today.
    I want to thank each of the witnesses for very thoughtful 
testimony; and, Mr. Lavy, I wanted to explore with you the 
concept of religious liberty and rights of conscience in the 
workplace and how it would interact with attempts to protect 
members of the transgender community. When you use an example 
that is saying forcing persons with beliefs, certain religious 
beliefs, to treat transgender as a valid concept is like 
forcing an Orthodox Jew to eat pork, it is the law though 
today, isn't it, that if an Orthodox Jew runs a law firm that 
he or she cannot refuse to employ a person because they are 
Catholic, is that correct, if the law firm is larger than a 
certain size?
    Mr. Lavy. That would be correct.
    Chairman Andrews. Is that a violation of the Orthodox Jew's 
religious principles?
    Mr. Lavy. Not that I am aware of.
    Chairman Andrews. Well, what if the person says, look, my 
principles are that I want people who read the scripture the 
way I do, who understand and worships the way I do. So if 
someone believes that there is a human being who is supreme 
overall in the name of the Pope, I don't want someone who 
believes in papal supremacy working for me because it violates 
my understanding of the scripture. Does that orthodox Jewish 
law firm have the right to deny work to the Catholic applicant?
    Mr. Lavy. Under Federal law?
    Chairman Andrews. Right.
    Mr. Lavy. No, he does not.
    Chairman Andrews. In your opinion, should they be able to?
    Mr. Lavy. I am unaware of someone having a religious belief 
that employing someone with a different religious belief 
violates their conscience.
    Chairman Andrews. Well, of course, this is not a matter of 
someone having a different religious belief. What we are 
arguing about here is, if someone believes that sexual identity 
at birth is a matter of religious belief and someone who takes 
a different view applies for a job, I think your position is 
that to compel the employer to disregard that fact would be a 
violation of the employer's religious belief, is that your 
position?
    Mr. Lavy. Not hiring someone with a different view. But I 
am saying that there are people who have a deeply held 
religious view that employing someone in that circumstance 
would violate their religious beliefs.
    Chairman Andrews. What about this one? What about if 
someone is a member of a religion is pacifist that believes 
that taking up arms is a violation of their religious 
principles and the center of her religious belief is pacifism. 
And the job applicant is a Marine Corps combat veteran. Do you 
think the pacifist should have the right to deny employment to 
the Marine Corps combat veteran because pacifism is a central 
tenet of their religious beliefs?
    Mr. Lavy. I don't see how that violates the religious 
beliefs of the pacifist.
    Chairman Andrews. So if someone believes that taking up 
arms and making war is central to their--there are religious 
faiths that believe that pacifism is a very central principle. 
And if someone doesn't follow that principle are you saying 
that doesn't violate that central tenet or belief?
    Mr. Lavy. I would say that it would be very different if 
the person is actively engaging in war at the time the person--
--
    Chairman Andrews. What if the person is a Marine Corps 
reservist and they are going to be called up to active duty in 
all likelihood in a couple of months. That they would be 
actively engaging in combat. How about that?
    Mr. Lavy. In that case, it may be a violation of the 
religious beliefs but not one that would be accommodated under 
Title VII.
    Chairman Andrews. No, but I didn't ask you about Title VII. 
I asked you what your opinion was. So is it your opinion that 
the pacifist employer should not be permitted to deny a job 
opportunity to the Marine reservist?
    Mr. Lavy. It is my opinion that the pacifist employer 
should probably have the right to do that.
    Chairman Andrews. Should?
    Mr. Lavy. Yes.
    Chairman Andrews. Okay. What about the member of a religion 
that is white supremacist, that simply believes that whites are 
a superior race. In your belief, should that employer have the 
right to deprive a job to an African American applicant?
    Mr. Lavy. I am not aware of that as a religious belief, but 
no.
    Chairman Andrews. You think they should not have the right 
to?
    Mr. Lavy. Right.
    Chairman Andrews. So a faith that has racial supremacy as 
its core tenet is not a valid faith?
    Mr. Lavy. I guess I am thinking in terms of the concept of 
religious liberty in our Constitution and the fourteenth 
amendment. That was a judgment by Americans that using race as 
criteria is not valid regardless of any----
    Chairman Andrews. But you seem to say if we make a judgment 
that using gender identity is a valid criteria and that is 
somehow morally invalid, if we have the power to make the 
judgment about race, why don't we have an equally valid power 
to make the decision about gender identity?
    Mr. Lavy. I am saying that I think it is not a good idea to 
do that. I am not saying that you don't have the power to do 
it, although there may be a religious----
    Chairman Andrews. My time is up. I think you were saying 
something a little different. Because it is not how we define 
the classifications. I am asking you about the scope of this 
religious conscience immunity that people have, and it seems to 
me that the scope has to be what the scope has to be. That 
there can't be one scope of immunity in the case of a pacifist 
employer and another scope of immunity in the case of a racist 
employer and another scope of immunity in the case of someone 
who is somehow discomforted by transgender people. Shouldn't 
the scope be uniform across the board?
    Mr. Lavy. I think that the issue is not as simple as being 
discomforted by a transgendered employee as much as it is a 
deeply held religious belief. I think that under the 
Constitution the race issue is a matter that has been 
determined.
    Chairman Andrews. My final point--and I don't want to hog 
the time--but don't you have an establishment clause problem 
with that? Because it seems to me that it says that acceptable 
religions as we define them will have the zone of immunity so 
that deeply held religious beliefs will exempt people from 
employment discrimination laws, but other kinds of religions, 
be they white-supremacist-based, pacifist-based, don't. Doesn't 
that put us in the position of defining what is an acceptable 
religion for this exemption and which isn't?
    Mr. Lavy. Not when the white supremacist group cannot 
exercise that belief because of the fourteenth amendment.
    Chairman Andrews. Sure they can. They can publish books 
that say that white people are supreme. They can do that. The 
fourteenth amendment doesn't preclude that.
    Mr. Lavy. Certainly they can publish a book.
    Chairman Andrews. They can hold worship services that say 
that, can't they?
    Mr. Lavy. I am sure they can.
    Chairman Andrews. Okay. We may come back and explore this 
in the second round.
    Mr. Kline.
    Mr. Kline. Thank you, Mr. Chairman. Thank all the witnesses 
for your testimony, very enlightening as always.
    I want to particularly thank the lawyers who are here 
because it gives Mr. Andrews particular pleasure in the great 
battle of what is the best law school. I guess I would have to 
admit that I, frankly, don't care, but he does, so thank you, 
thank you for that.
    Ms. Miller--an. I don't know if we resolved the issue about 
the law school here, but you had very interesting testimony 
that I think is extremely important to us as we consider the 
possibility of statute. I believe very firmly that the language 
that we use matters. Indeed, when we write a law, when we pass 
a law, regulatory agencies often come in and write regulations 
that may change things somewhat, but fundamentally the language 
in the statute is very, very important, and we need to be clear 
about that.
    You mentioned in your testimony, for example, that the use 
of the word ``mannerism'' could be problematic. I want to--
there is some discussion--we have had some discussion in this 
committee, in fact, recently, about some language issues that 
came up when we were discussing the earlier bill, the ENDA 
bill, using the word ``perceived'' in that legislation which 
many people thought was problematic. So I am going to look down 
my notes here to make sure I get this right.
    But the Americans--not just being a lawyer, you 
understand--the Americans with Disabilities Act protects not 
only qualified individuals with disabilities but also those who 
are, in quotes, regarded as having a disability. Some of the 
discussion surrounding new protection is based on gender 
identity involving providing protection based on an employee's 
sexual orientation or gender identity, whether actual or, in 
quotes, perceived.
    Can you tell us, in your view, is there a difference 
between the regarded as test under the ADA and the perceived 
test set forth in the earlier ENDA bill and in this bill? I 
think we have a stand-alone bill, 3686.
    Excuse me. Do you know, Mr. Chairman? Are we taking that 
up?
    Chairman Andrews. The committee has not made a decision on 
that.
    Mr. Kline. I see. Go ahead.
    Ms. Miller. Yes, sir, I think there is a distinction 
between regarded as and perceived; and I would define it this 
way.
    Regarded as, particularly when we are talking about in the 
context of the ADA, would imply that there is some sort of 
overt act or conduct by the employer or the manager in treating 
this individual and they are regarding them as disabled in 
their treatment.
    Perception is something totally different. Perception can 
become reality. We all know that. But perceived as may be 
something that is vague language that is really not actionable 
when it comes time to enforcement of rights, because perceived 
can be something that is totally internal. It is not 
necessarily an expression by the employer or the co-worker.
    Regarded as, however, is language that suggests that there 
is some sort of an overt action taken.
    Mr. Kline. So your testimony then is that there would be 
ambiguities which would require court interpretations if the 
term perceived is included.
    Ms. Miller. Yes, sir, it is.
    And it would not just involve court interpretation. It also 
would involve a great deal of confusion by the managers and the 
human resources people in the field, and we would end up 
litigating over the table as to whether somebody's conduct, 
whether somebody's personal belief constituted a perception or 
not.
    We cannot legislate people being nice to each other. It 
would be nice to do that, but we cannot. We all know that. And 
we cannot legislate people's internal thoughts and processes. 
That is part of the part about being in America. We allow 
people to have freedom of thought and freedom of expression 
internally.
    Regarded as is much better language because it implies that 
there has been some sort of an action taken in the workplace 
and then that can become the subject of any type of debate or 
litigation.
    Mr. Kline. Okay. So as I understand this then, if we were 
to continue to use the word ``perceived,'' for example, 
litigation would surely follow, which means that you need 
lawyers on both sides and these respective law schools can 
grow.
    All right. I yield back, Mr. Chairman.
    Chairman Andrews. Full employment. Thank you, Mr. Kline.
    Next, Ms. Sanchez is recognized for five minutes.
    Ms. Sanchez. I am just going to start.
    Mr. Holt. Mr. Chairman, may I speak out of order for an 
unanimous consent request?
    Chairman Andrews. Sure.
    By the way, the reason for this is that we, following the 
rule, are recognizing in order of appearance.
    Mr. Holt. Just for a unanimous consent request to submit a 
statement in the record----
    Chairman Andrews. Without objection.
    Mr. Holt [continuing]. And to excuse myself.
    Chairman Andrews. Without objection.
    Ms. Sanchez.
    Ms. Sanchez. Thank you.
    I am going to start with a quote from Martin Luther King, 
Jr. He said that laws cannot change people's hearts, but they 
can restrain the heartless. And I think that it would do well 
for all of us to remember that.
    No, we can't legislate what people's thoughts are, but we 
can legislate their actions. And where we find discrimination 
we can say that that is something that is unlawful. And the 
last time I checked, every time the Congress passes a new law 
it is subject to interpretation. And, yes, sometimes the courts 
have to decide what the statute actually means. So the idea 
that, oh, there is going to be all this litigation, every time 
we act in this body there is that potential. But that doesn't 
restrain us from doing the job before us and trying to tackle 
the challenges that we see before us and trying to hopefully 
make society a better place in all different respects.
    I want to begin my questions with Mr. Minter. In California 
and in 11 other States and in the District of Columbia and more 
than 100 local governments, they have enacted explicit 
employment discrimination protections for transgender 
individuals, is that correct?
    Mr. Minter. Yes.
    Ms. Sanchez. And yet in the background materials that I 
have reviewed to prepare for this hearing I have learned that 
the Transgender Law Center in San Francisco seems to keep 
pretty busy in trying to protect Californians from improper 
terminations, as well as on-the-job abuse and harassment.
    One of the examples that was given was that a 13-year-old 
employee of a--or pardon me, a 13-year old--a 13-year employee 
of a San Francisco night club was verbally harassed, demoted 
and even subjected to physical assault all because he informed 
his employers that he would be transitioning to male. If this 
kind of thing is happening where there are legal protections in 
place, it makes me wonder just how much worse it is for folks 
whose legal recourse for such abuse of incidents is less clear.
    And my question to you is, can you please explain for us 
why clarifying Federal law would be helpful, given the 
treatment that many transgender individuals receive on the job 
both in States with explicit protections and those without.
    Mr. Minter. Yes, thank you. Well, as you point out, 
Congresswoman, merely passing a law does not automatically 
change people's hearts or eliminate all discrimination; and we 
certainly know that from race discrimination, sex 
discrimination, religious discrimination laws. We still have to 
deal with those realities in our society.
    But what those laws do, the critical, essential thing 
accomplished by those laws, is to make it perfectly clear to 
everyone, including employers and employees, that we as a 
society condemn discrimination on those bases because they are 
completely unrelated to a person's ability to perform as an 
employee.
    Unfortunately, when it comes to gender identity 
discrimination, we don't have that clear message; and so what 
you see as a result is the kind of blatant, shocking, overt, 
unembarrassed discrimination that has been described on the 
panel today and that devastates people's lives and literally 
leaves people with no way to earn a living and leads to 
incredibly high rates of homelessness and poverty in the 
transgender community.
    This, for our community, is a crisis. Having a Federal law 
that makes clear that employers cannot discriminate on the 
basis of gender identity without running the risk of liability 
would have a transformative effect on our country. There is no 
doubt about that. And we have seen that in the States and 
localities that have those laws.
    True, we still have problems, but it provides a platform 
for education, and it provides legal recourse which in the long 
run tremendously reduces the level of discrimination. And that 
is what our community so desperately needs.
    Ms. Sanchez. Thank you, Mr. Minter.
    Colonel--and I am not sure how to pronounce your last name, 
and I don't want to mispronounce it--I just want to thank you 
for your service to our Nation. I think that anyone who wishes 
to serve should be able to do so.
    I think that oftentimes, you know, certain workplaces are 
the richer and the better for the diversity that people bring 
to the table, and I think the first panel of witnesses for 
today shows how much better Congress is because of that 
diversity.
    I am wondering, what does our country lose out when they 
don't allow people like you to work at the Library of Congress 
and brief Members on an area of expertise that you have so much 
leadership and ability in?
    Colonel Schroer. Congresswoman, I think, without having 
numbers, but the issue is very much akin to gay service in the 
military. Why should this country deny itself that pool of very 
qualified people and that expertise and experience that is 
there just because they are transgender? It almost defies 
belief.
    Ms. Sanchez. And just briefly, if the chairman will indulge 
me, have you heard of other incidences similar to yours that 
have gone on or is this a very rare occurrence?
    Colonel Schroer. No, unfortunately, it is all too common an 
occurrence; and, as Shannon's comments bear out, it is, 
unfortunately, all too common that the discrimination is 
blatant. But there are also legends, scores of cases where the 
employer was up to similar methods of removing an employee; and 
so, again, I think Shannon's comments are spot on that the 
leadership is key.
    In my experience, the work that I have been able to do in 
this town is key to the relationships that I have built up in 
25 years in military service. Those people are the ones who 
hire me and push work my way. People that don't know me almost 
seem to have an implied sense that there should be 
discrimination because I am somehow abnormal or abhorrent. What 
we critically need, as Shannon mentioned, is leadership here to 
send a clear message that this is not abnormal or abhorrent.
    Ms. Sanchez. Thank you. And I want to thank all the 
panelists and yield back the balance.
    Chairman Andrews. Thank you, Ms. Sanchez.
    By unanimous consent, Mr. Payne is here as a member of the 
full committee. He is recognized for five minutes.
    Mr. Payne. Thank you very much, and thank you for allowing 
me to sit in your subcommittee, although I am not a member of 
the subcommittee, but this is an issue that I have a tremendous 
amount of interest in.
    I think discrimination in general is just wrong. You can 
see why I think that. There have been a lot of changes, of 
course, in the course of the years. I was born in the 1930s, 
and so I certainly, growing up, found much discrimination being 
a black person in a city that was known for a lot of racial 
discrimination even though it was in the north, Newark, New 
Jersey.
    And it is good to see you again. He harasses me in my 
office.
    Let me just ask the question regarding restrooms that was 
brought up. I saw someone in the audience shaking their head, 
and so I just wonder if anybody would like to just discuss that 
issue. It is certainly going to be an issue, I would imagine; 
and so if you could just have a dialogue on that issue.
    Colonel Schroer. Congressman, if I might, I would only say 
that from my personal experience it has never been an issue. I 
am recognized as a woman wherever I go, and people in all walks 
of my employment and personal life have no issues where I go to 
the bathroom.
    Mr. Minter. And I will just jump in there. You know, we 
actually have a lot of experience with this issue now because 
there are a number of State and local laws and there are so 
many employers now that have adopted nondiscrimination 
policies. There is a very standard, tried-and-true approach to 
bathrooms. It is the only one that is workable and human and 
respectful.
    That is for a transgender person to use the restroom that 
corresponds to their gender identity when they take that step 
of living full time in their true gender. That is consistent 
with the medical protocols and with common sense. And what we 
have seen time and time again is that any discomfort that co-
workers may feel very quickly dissipates; and that is because a 
transgender man really is a man, a transgender woman really is 
a woman. Co-workers very quickly come to recognize that.
    We have such a great track record on that all across the 
country. I mean, there are thousands of transgender people who 
every day use the appropriate restroom without any incident or 
problem. So that is one issue that is very straightforward and 
really, in a practical sense, a nonissue.
    Ms. Miller. My suggestion, sir, would be if there is 
guidelines already out there and that have been successful that 
the committee look to that and use that and put that in any 
legislation that this committee may support, propose and that 
is passed so that employers are not left trying to wade through 
this.
    Because, again, we have very sophisticated companies such 
as Dow who are here, and they have a very comprehensive policy. 
But this proposed legislation may apply to smaller companies. 
Again, as I testified to, 15, 16, 17 person employee companies 
are not going to have that level of sophistication, and they 
are going to take their guidance from whatever Congress passes.
    Ms. Taraboletti. The only thing I would like to add to this 
is that when I was transitioning--and I think I speak for most 
of the community--is that the transgender community was always 
very willing to work with our employers to do this in the 
most--what is the word I am looking for--we want to work with 
our employers to make this as convenient as possible for 
everyone. We are not just looking to ourselves. We want to make 
our transition as easy as possible for just ourselves and for 
the people who work around us. So we want to be considerate as 
employees.
    Mr. Payne. Thank you very much.
    Just, finally, this issue, I imagine, is going to start to, 
especially now that we have finally--and, I mean, I commend the 
chairman for calling this hearing. As Chairman Frank said 
earlier, we could have found one million reasons not to have 
the hearing. As a matter of fact, I wasn't even supposed to be 
here, so that would have been a good reason not to be here. I 
didn't really know the hearing was going on until--I was late 
picking up my papers from the last hearing. And we apologize. 
You probably all thought, there they go again, they are 
discriminating against us, keeping us waiting for this and all 
that stuff, right? But, no, it was holdover from yesterday.
    In defense of Mr. Andrews, as you know, we had these votes 
that were supposed to be done yesterday, so we had to do them 
today. So all those conspiracy theories I heard probably 
mumbling out there, sorry, they weren't true. There was a real 
legitimate reason for the delay.
    Now, what was my question at the beginning? I think I was 
going to get to the question of how do we--how do--oh, yeah, I 
remember now.
    The fact that this hearing is held and so, therefore, a 
dialogue has begun, a formal dialogue, what suggestions do you 
in the transgender community have as it relates to the attempt 
to educate Americans? I mean, this is something relatively new. 
Coming out into the open is overdue, but it is here. And I 
think, one, we should pass laws and have people respect the 
law. However, is there any suggestion about how a dialogue in a 
broader sense could begin so that education about the subject 
could be discussed? Do you think it should be in the workplace? 
Do you think it should be like a NAACP-type thing? Or do you 
think--how do we start to get a dialogue going?
    Chairman Andrews. If I could just ask the witnesses to very 
briefly respond, because it is Mr. Hare's turn. Thank you.
    Mr. Minter. Well, can we just say how much we recognize 
very keenly the demands on you all's time and what it means to 
have made time to discuss this topic today to kind of tell you 
how important that is. This hearing in itself is a quantum leap 
forward on the public education front, and we appreciate that 
enormously.
    The other thing I would just say is how indebted we are to 
the corporate sector. It is wonderful to have Dr. Hendrix here 
today. The corporate world has really been such a leader on 
this issue. So many businesses have adopted proactively, 
voluntarily, wonderful nondiscrimination policies; and they are 
our best spokespeople in any venues we can find to have more 
dialogues like the one here today with representatives from the 
business world and a chance for the public to hear from people 
like Colonel Schroer and the other witnesses here today with 
their remarkable records of accomplishment and skills and to 
see what we are missing out on, what our country is missing out 
on by not protecting those valuable workers.
    Mr. Sanchez. Absolutely. And as we are here experiencing 
this with you--and thank you so much for this--we go back to 
our towns and we know that you are leaders in your towns.
    So one of the ways--your question, I think I understand it 
pretty clearly. It is like for those of us of color how did 
they ever think that we were human after all? Met more of us. 
And how they met more of us was through the people who were 
more like them than like us.
    Translating that to this scenario, let us work together 
with organizations and you and your offices to get to know us 
in different towns. You have access to things and media people 
and community forums and town halls that we would be willing to 
participate with you in. So consider us a partner, I would say, 
and let us use both our people across the country.
    Because there actually are a lot of us, and some of us have 
been around for a long time. It is just not always safe. So 
making it safe for us to be with you in your communities would 
be very helpful. And we have organizations that you already 
work with as well that we can make this even richer.
    Chairman Andrews. Ms. Taraboletti, did you want to add 
something?
    Ms. Taraboletti. Just very quickly. The National Center for 
Transgender Education and a task force are ready, willing and 
able to supply the people you need to talk to and organize 
those people to supply the expertise you need to have those 
meetings and get those dialogues started.
    Chairman Andrews. Thank you very much.
    Mr. Sanchez. As is the Human Rights Campaign.
    Chairman Andrews. Thank you, Mr. Payne.
    Mr. Hare is recognized for five minutes.
    Mr. Hare. Let me, first of all--you have thanked us. Let me 
thank you for being here. This is long overdue. I appreciate 
you being here, and I appreciate the chairman having the 
hearing.
    Mr. Lavy. I just want to take issue with a couple of things 
that you said and just give you my perspective, and then I do 
have a couple of questions for the witnesses. You talked about 
this being a moral judgment and religious beliefs. Let me 
submit to you that a person that I have read a lot about a few 
thousand years ago, the people that this person hung around 
with that he was closest to, were people that nobody else 
wanted to associate themselves with. And I think we should 
remember that.
    I also think you said this is a moral judgment. From my 
perspective, and being very candid, this legislation, it is a 
moral obligation that not only this Congress has but this 
Nation has. Because if this were a case from my perspective of 
a person being African American and they were fired simply 
because of that, all heck would break loose. You can't do that. 
But somebody like the Colonel and the other witnesses that have 
testified here that have given so much to this Nation, that 
seems to be okay to do. It is not okay to do.
    And when you said there are no simple solutions, sir, let 
me suggest to you that I could not disagree with you more. 
There are. It is called this Congress passing a legislation 
that bars this. That makes it simple, and the courts can figure 
it out. And one witness says, well, you can't legislate how 
people feel or how they think. That might be. This is America. 
But I believe we can legislate what is right and what is just 
and what is fair and that is the purpose I believe of this 
hearing and of this legislation. So, with all due respect, I 
could not be more at odds with you in terms of how this is.
    And, you know, I think the restroom thing and some of the 
other things that have been brought up, those are all 
situations that--you know, we put people in space. We could 
figure this out. You don't have to have--I am not a lawyer, Mr. 
Chairman, with all due respect, either. But you don't have to 
have a law degree.
    Chairman Andrews. Be careful now.
    Mr. Hare. Sorry. I don't want to anger my chairman or I am 
in trouble.
    But I just want to say to the people here, my sister lost 
her eye when she was growing up; and I know what it is like 
when people make fun of you. She is different. She ended up 
working for 30 years, 35 years for one of the best surgeons in 
my area, and she did quite well. So, you know, I am sensitive 
when it comes to--and I cringe when I hear about, well, we just 
can't do this, no simple solutions, privacy issues.
    And, again, I go back, sir, to say to you this is a moral 
obligation we have. The last time I saw the Constitution, it 
read that every person was supposed to be created equal. It 
didn't cherry-pick.
    I do want to ask the people who are here that have 
testified that have lost their jobs, and Colonel and Ms. 
Taraboletti----
    Ms. Taraboletti. Yes.
    Mr. Hare. I got that right. That is not bad for a guy 
without a law degree--and Mr. Sanchez, as victims of 
discrimination.
    Mr. Kline. Quit bragging, quit bragging.
    Mr. Hare. And he is a Marine. I can't even top that.
    Well, you have been victims of discrimination. And I don't 
know and I will never know what that is like, I hope. How did 
you support yourselves and your dependants when you lost your 
jobs? How have you been getting by and what do you do when 
everything you have ever had is gone simply because of 
something as mean-spirited as this?
    Colonel Schroer. Congressman, I guess I will start.
    And, once again, the people who came to my rescue were the 
people that everyone else thought would desert me; and so my 
colleagues in the Special Operations community recognized what 
I was capable of doing and work that I had done in the past and 
worked diligently to find work for me so that I could continue 
to support myself and make a meaningful contribution. Without 
them, I am afraid I wouldn't be here today.
    So, again, it is thanks to them that they went out of their 
way and, in many cases, put themselves and their reputations 
and their firms' reputations at risk to deliberately provide me 
an opportunity to continue to work.
    Mr. Hare. Anybody else care to comment on that?
    Ms. Taraboletti. Yes, I would.
    I started in the privileged class. I was, you know, a white 
male. And that is very interesting, because I didn't know 
discrimination, also. And one of the things I am really 
thankful for is that God gave this to me.
    At first, I wasn't. At first, I was horrified as a teenager 
that God gave me this, and now I look at it as a gift because I 
have gotten to see so much of the world.
    Mr. Payne. you were discriminated, and you have known that 
for your life. And I am a big fan of Martin Luther King, also, 
and I think he is a hero in this country, and I honor him 
because now I understand discrimination.
    Ms. Miller. I am surprised at you, because you have 
forgotten that only your great-grandmother couldn't even vote 
or great-great-grandmother couldn't even vote a century ago, 
and you have forgotten that women were discriminated against. I 
know that pain, and I remember it now.
    But you asked me how I survived. Well, I had accumulated 
about $300,000 in 401(k). That is just about gone now after 
five years.
    I also took jobs at a much lower level than my education 
allowed. My last job, as you know, I was working for the 
Department of Transportation. I was making $10 an hour, and I 
was filling potholes with asphalt and pouring concrete into 
sidewalks. My dad gave me a work ethic, and I refused to go on 
unemployment, and I refused to go on the dole. And so that is 
what I was doing.
    But even there I had a fellow employee draw a picture of me 
in a compromising way. I filed an EEO suit for sexual 
harassment. And rather than get rid of the employee who did 
that to me, they found a way to get rid of me.
    So even though you said that I was employed, I am now once 
again unemployed by the State of Florida. So there is a second 
time I am unemployed. So there you have it. I am almost out of 
my original 401(k), I am unemployed, and I am about ready to 
sell my house.
    Mr. Hare. Thank you, Mr. Chairman.
    Chairman Andrews. Ms. Miller, did you want to comment, 
since your name was invoked?
    Ms. Miller. Thank you, Mr. Chairman.
    I am very much aware of the struggle of women in this 
country to be treated fairly. I am a graduate of a woman's 
college. I worked my way through law school. The most egregious 
example of sexual harassment I have ever encountered happened 
to me while I was an employee of the Federal Government, and no 
one did anything to address it.
    But I also sit here today as a representative of millions 
of women who are business owners and small business owners. And 
I also sit here today as the product of somebody who has been 
given a leg up, mentored and helped by men through my career. 
So I am very painfully aware that discrimination still exists 
in this country 43 years after the passage of Title VII, but 
that doesn't mean that we shouldn't have open dialogue and 
respect each other's backgrounds.
    Chairman Andrews. I appreciate that. I appreciate the 
comments of all the witnesses.
    Mr. Kline. do you have anything to say in closing today's 
proceedings.
    Mr. Kline. I do not, Mr. Chairman.
    Chairman Andrews. I would like to thank Mr. Kline and my 
Democratic and Republican colleagues for their participation 
today and each of the witnesses for their meticulous 
preparation and for the work that they have done in making this 
hearing possible.
    Yesterday, almost every Member of the House of 
Representatives voted in favor of revisions to the Americans 
with Disabilities Act. It is anticipated the President may sign 
this into law this summer, and I hope that he does.
    I think the issue that 400-plus House Members voted for 
yesterday is the same issue we are talking about here. The 
principle that drew the House together yesterday was the notion 
that if you apply for a job or apply for a promotion or are 
considered for a promotion, whether or not you get the job or 
the promotion should be a function of your ability and your 
worth ethic, not any extraneous or irrelevant factor.
    Now, we are going to have a vigorous debate in this 
committee over the extent to which transgender status is an 
irrelevant or extraneous factor. We are going to have the 
discussions we have here today as the best way to accommodate 
reasonable concerns of employers in the workplace. We are going 
to have a vigorous debate as to the scope of freedom of 
conscience and freedom of religion for those who may feel a 
different set of moral beliefs than we ourselves do.
    But I don't think the principle here is that ambiguous or 
that complicated. I really do think that when someone is up for 
a promotion or a position at CRS, if that person is the best 
one for the job, they should get the job. And I certainly don't 
think that someone should be dismissed from his or her job 
because of one's transgender status. And we are going to have 
vigorous debate over the extent of which that principle should 
be written into our law. The members of the panels today have 
given us significant contributions toward resolving that 
debate.
    Progress in this country is glacial; and if you are the 
person who needs the progress, it is slower than that. But one 
of the comments that was just made I think do give us some 
reason for optimism. My mother was born in 1919. The day that 
she was born voting was a very new idea for women. Mr. Payne, 
when he was born and raised, the idea of serving in the United 
States Congress would have seemed like a preposterous idea, 
given the circumstances under which he was raised in a city 
that was supposed to be removed from the Jim Crow South.
    I remember I went to school with at least two individuals 
who committed suicide before their 35th birthday because they 
were gay men and they couldn't deal with the circumstances of 
the rejection and repudiation in their own communities and, in 
some cases, in their own families, because of asserting who 
they were and how they felt comfortable. There has been 
progress in that field as well.
    I view today as an important step in the road to progress 
for all people, all people. And I don't think this hearing 
simply has significance for those who are members of the 
transgender community. I think it has significance for anyone 
who is a member of any unpopular or forgotten minority who 
doesn't have a lot of votes, a lot of money, a lot of power but 
has a lot of passion behind their cause. So we appreciate 
everyone's participation.
    I would note that, as previously ordered, members will have 
14 days to submit additional materials for the hearing record; 
and if any member wishes to submit follow-up questions in 
writing to the witnesses they should coordinate with the 
majority staff within 14 days.
    Without objection, we thank you; and the hearing is 
adjourned.
    [Additional submissions from Mr. Holt follow:]

              Prepared Statement of Pride at Work, AFL-CIO

    Chairman and Members of the Committee: Pride at Work, the lesbian, 
gay, bisexual and transgender (LGBT) constituency group of the AFL-CIO, 
thanks the House Subcommittee on Health, Employment, Labor, and 
Pensions for its historic hearing on gender identity discrimination in 
the workplace and for allowing us to submit testimony. We believe that 
now is the time to take effective action to protect transgender 
workers, as well as other workers whose gender identity or expression 
do not conform to traditional expectations, against discrimination in 
employment and employment-related benefits.
    Transgender and other gender-different people suffer severe and 
pervasive discrimination in employment. Indeed, such discrimination is 
a major factor in the serious disadvantage, material and otherwise, 
that is experienced by this community. Testimony submitted to this 
committee by the National Gay and Lesbian Task Force Action Fund 
provides ample documentation of work-related discrimination against 
transgender people. While state and local laws and executive orders, 
labor contracts and employer policies are increasingly recognizing this 
problem and attempting to remedy it, such protections remain 
insufficient. Many transgender and gender-different people continue to 
suffer from chronic unemployment or underemployment, and many others 
who retain their jobs have seen the door closed to further career 
development.
    In addition, transgender employees who retain their jobs are often 
denied access to appropriate health benefits, subjecting them to heavy 
out-of-pocket expenses as well as to debilitating stress and despair.
    Transgender and gender different people who are unable to secure 
stable employment that fully utilizes their skills and talents are 
often forced into the underground economy, in the sex trade or into 
under-the-table ``cash businesses'' in which they can be badly 
exploited. Transgender sex workers face very serious risks of violence 
from customers as well as police brutality.
    While twelve states--California, Colorado, Illinois, Iowa, Maine, 
Minnesota, New Jersey, New Mexico, Oregon, Rhode Island, Vermont, 
Washington--the District of Columbia, and 106 local jurisdictions at 
present broadly prohibit employment discrimination based on gender 
identity or expression, and a few other states and localities have 
prohibited such discrimination in public employment by law or executive 
order, transgender people still must rely on only a patchwork of 
protection.
    When transgender workers call the Pride at Work office in 
Washington to report job discrimination and ask what legal recourse 
they have, the first question that we must ask is in what jurisdiction 
their workplace is located. (For example, we might ask a caller from 
Baltimore, ``Do you work in Baltimore City [which has a transgender 
inclusive anti-discrimination ordinance] or in Baltimore County [which 
does not]?''
    The labor movement has long stood in the forefront of efforts to 
prohibit discrimination against the most vulnerable parts of the 
workforce. The AFL-CIO Executive Council has been on record for over 
five years as supporting the right of transgender workers to be free of 
discrimination in employment.
    American unions are increasingly negotiating anti-discrimination 
protections for transgender and gender-different workers in labor 
contracts in many industries. To name only a few examples, contracts 
negotiated by The Newspaper Guild/Communications Workers of America 
with The New York Times and The Boston Globe have prohibited 
discrimination based on gender identity/expression since 2003 and 2004 
respectively, and the Graduate Employees Organization, Local 3550, 
American Federation of Teachers, conducted a contract campaign in 2004-
2005 at the University of Michigan, Ann Arbor, that won not only 
contractual anti-discrimination protection but also opened the way for 
transgender workers to gain insurance coverage of their healthcare 
needs.
    American labor has also been a powerful force in support of anti-
discrimination legislation at the local, state and federal levels. For 
example, the New York City Central Labor Council endorsed an anti-
discrimination bill covering gender identity/expression that was 
enacted by the New York City Council and signed into law in 2002; 
unions in New York state representing more than 250,000 employees are 
supporting the Gender Expression Non-Discrimination Act, a bill pending 
in the New York state legislature, and about two dozen labor 
organizations endorsed the fully inclusive version of the federal 
Employment Non-Discrimination Act (ENDA) when it was introduced as H.R. 
2015 in the spring of 2007.
    In accordance with the proudest traditions of the labor movement, 
we believe that an injury to one is an injury to all. We urge Congress 
to act promptly to help remedy workplace discrimination against 
transgender and gender-different Americans.
                                 ______
                                 

 Prepared Statement of the National Gay and Lesbian Task Force Action 
                                  Fund

    Chairman and Members of the Committee: We would like to thank the 
House Subcommittee on Health, Employment, Labor, and Pensions for 
holding a legislative hearing on gender identity discrimination in the 
workplace and allowing us to submit testimony today. It is historic 
when Congress holds a hearing like today's, when the issues that 
transgender people face everyday are given consideration by the 
lawmaking body of our nation. On behalf of the National Gay and Lesbian 
Task Force--the oldest national organization advocating for the rights 
of lesbian, gay, bisexual and transgender (LGBT) people--we urge you to 
consider the necessity and urgency of including gender identity in 
future federal employment protections. There is evidence of pervasive 
discrimination against transgender people in the workplace and current 
laws and employer policies are insufficient to protect their rights.
    Transgender employees have historically faced considerable 
discrimination in the workplace, including failure to hire or promote, 
demotions, terminations, restrictions on a person's gender expression, 
and hostile workplace environments. Employment discrimination may be 
the largest barrier transgender people must overcome to live secure 
lives. A national study conducted by Lombardi between 1996 and 1997 
reported that 37% of transgender people surveyed have experienced 
employment discrimination. (Lombardi, E.L., Gender Violence: 
Transgender Experiences with Violence and Discrimination, 2001). Survey 
results are similar across cities and regions on both coasts and the 
Midwest. For example, a study conducted between 1995 and 2001 in 
Illinois found that 37-42% of transgender individuals experienced 
employment discrimination. (Plotner, B. Discrimination 2002: 6th Report 
on Discrimination and Hate Crimes Against Gender Variant People. 
Chicago: It's Time Illinois!). In 2002, a study conducted in San 
Francisco found that 49% of transgender people had experienced 
employment discrimination. (Minter, S. Trans Realities: A Legal Needs 
Assessment of San Francisco's Transgender Communities, 2003). In 
Washington State, a 2008 study found that 41.5% of transgender people 
were denied employment, fired, or otherwise discriminated against in 
the workplace because of their gender identity. (Perspectives Northwest 
Survey Report: Transgender and Gender Variant Community Needs 
Assessment Survey, 2008). Lastly, in Virginia, a 2007 study of 
transgender individuals reported 20% were denied employment, and 13% 
were fired based on their gender identity. (Xavier, J.M. The Health, 
Health-Related Needs, and Lifecourse Experiences of Transgender 
Virginians, 2007). Attached is Appendix A, which provides more 
statistics on transgender employment discrimination.
    As a result of employment discrimination, large percentages of the 
transgender population are unemployed and have incomes far below the 
national average. Although there is no national study on the topic, 
findings of studies conducted in various local and state jurisdictions 
are alarming, confirming that the economic hardship transgender people 
face is consistent across the nation. For example, a study conducted in 
Minnesota between 1997 and 2002 reported 22% of transgender people 
lived below the poverty line. (Bockting, W. 2005. Are Transgender 
Persons at Higher Risk for HIV Than Other Sexual Minorities?). In 
Philadelphia, a study conducted in 1997 reported 59% of transgender 
people were unemployed and 56% made less than $15,000 annually. 
(Kenagy, G.P. 2005. The Health and Social Service Needs of Transgender 
People in Philadelphia). In Chicago, a study conducted between 2000 and 
2001 found 34% of transgender people were unemployed and 40% made less 
than $20,000 annually, with a median income of just $16,900 a year, 
less than half the national median income. (Kenagy, G.P. 2005. The 
Health and Social Service Needs of Transgender People in Chicago). In 
Virginia, a studying conducted between 2005 and 2006 reported that 39% 
of transgender individuals made less than $17,000 annually. (Xavier, 
J.M. 2007. The Health, Health-Related Needs, and Lifecourse Experiences 
of Transgender Virginians) Finally, in Washington, D.C., a study 
conducted in 1999 found that only 58% of transgender respondents were 
employed, 29% had no annual source of income, and 31% had an annual 
source of income under $10,000. (Xavier, J.M. 2000. The Washington, DC. 
Transgender Needs Assessment Survey Final Report for Phase Two). 
Attached is Appendix A, which provides more statistics on the economic 
hardship transgender people face.
    Due to high levels of unemployment and underemployment many 
transgender people, and those in their families, are left in difficult 
and sometimes unlivable situations. Lack of employment means that 
transgender people are unable to afford housing and pay for other basic 
services. Lack of employment often means having no or inadequate health 
insurance and being unable to afford basic health services. They cannot 
support their spouse and families. The economic hardship created by 
employment discrimination not only affects transgender people, it 
directly impacts their families who fall into poverty along with them. 
Transgender individuals who are people of color, HIV-positive, and 
youth are particularly affected. Far too many transgender people are 
forced to engage in sex work in order to survive. Ultimately, high 
levels of transgender unemployment further burden the welfare system of 
each state and our nation.
    In most states, transgender employees have no legal protections and 
employers often terminate them when it is discovered the employee is 
transitioning, or has previously transitioned, genders. Currently, 
twelve states--California, Colorado, Illinois, Iowa, Maine, Minnesota, 
New Jersey, New Mexico, Oregon, Rhode Island, Vermont, Washington--the 
District of Columbia, and 106 local jurisdictions have passed laws 
prohibiting discrimination against transgender people in employment. 
Five other states and sixteen local jurisdictions have laws, executive 
orders, or other rules prohibiting discrimination against transgender 
people that are employees of that jurisdiction (state, county, or 
city). States from coast to coast are adding transgender-inclusive 
workplace protections at an unprecedented pace. Today, 39% of the 
United States population lives in a city, county, or state with a 
transgender-inclusive workplace anti-discrimination law. Seven years 
ago only 5% of the United States population lived in a jurisdiction 
with a transgender-inclusive anti-discrimination law. While the 
expansion of transgender nondiscrimination laws at the state and local 
level demonstrates progress and creates a foundation for protections at 
the federal level, modest penalties and inconsistent enforcement limit 
the laws' effectiveness. We need a strong federal law in order to 
provide uniformity of coverage and close gaps in state and local law. 
As shown, the pervasive discrimination transgender individuals face in 
the workplace warrants strong and urgent Congressional action.
    Despite legal mandates to have policies prohibiting discrimination 
against transgender people, corporate America acted on its own to enact 
such policies because it is good for business. In fact, 153 of the 
FORTUNE 500 companies have implemented nondiscrimination policies that 
include gender identity. Corporate America has voluntarily endorsed 
policies to judge employees solely on the quality of their work because 
it is efficient to retain experienced employees and hire the best 
qualified applicants. Nondiscrimination policies make for a better work 
environment, demonstrate respect for diversity, alleviate wasteful and 
counter-productive stress, and set clear standards for workplace 
behavior. In order to bring the rest of America's businesses and 
companies up to corporate America's standard, Congress should prohibit 
discrimination in employment based on gender identity. Due to economic 
necessity, this country cannot afford to leave talented people out of 
the workforce. Competition in the global economy is increasingly acute 
in almost every industry and field; we cannot afford to leave our best 
and brightest out of our economy.
    Previously proposed federal legislation had prohibited an employer 
from using an individual's sexual orientation or gender identity as the 
basis for adverse or different treatment in employment or employment 
opportunities. The legislation would have also protected individuals 
who are perceived to be of a certain sexual orientation or gender 
identity, but who are not actually of that sexual orientation or gender 
identity. Furthermore, similar to Title VII of the Civil Rights Act of 
1964, the legislation would have exempted small businesses and 
employers with fewer than 15 employees. In addition, every previous 
version of the legislation has included some form of religious 
exemption that prevents discrimination without inhibiting on the 
religious freedom of religious organizations.
    Lambda Legal's assessment of non-discrimination laws found that a 
gender identity-inclusive law is vital in order to fully protect 
lesbian, gay, bisexual and even heterosexual people who may not fit 
traditional gender norms. In addition, the National Center for Lesbian 
Rights reported that for many individuals in the LGBT community gender 
identity and sexual orientation are inextricably intertwined. Any piece 
of legislation that does not include gender identity protections leaves 
gender non-conforming LGB people vulnerable to strict court 
interpretations that define sexual orientation narrowly.
    To move forward with a federal law that only includes sexual 
orientation is an unacceptable compromise. Furthermore, movement of 
legislation that singles out a part of the LGBT community to be exempt 
from protections would impose a classification structure upon the 
community that would divide us. We are a united community and do not 
support a law which leaves a part of our community behind; omitting 
transgender people would be unprincipled and unfair.
    The LGBT community has one chance to pass an employment 
discrimination law that will effectively and adequately protect the 
entire community. Strategically, as shown at the state level, it is 
easier to include ``gender identity'' in civil rights legislation the 
first time it passes than have to go back and add it in later. The 
trend in state legislatures the past five years has been to keep 
``gender identity'' in civil rights bills and, in fact, the last seven 
states to pass employment protections included both sexual orientation 
and gender identity: Colorado, Oregon, Iowa, Washington, Maine, 
Illinois, and New Mexico. If Congress passed federal employment 
protections which excluded gender identity it could halt such progress 
and send a powerful and negative signal to future state legislatures. 
Federal legislation should reflect the progress at the state level, not 
impede it.
    The inclusion of ``gender identity'' into future federal employment 
protections is essential. We cannot and will not support federal 
employment protections which exclude people who are among the most 
discriminated against individuals in this country. Transgender 
individuals are an integral part of our Nation's diversity and should 
not be denied a job on the basis of personal characteristics that have 
no relationship to job performance. As a community we are more unified 
than we have ever been and we will continue to advocate for fully 
inclusive federal employment protections to ensure that all Americans 
are protected from discrimination in employment because of their sexual 
orientation and gender identity.
                               appendix a
National Gay and Lesbian Task Force Action Fund Testimony: Data on 
        Employment Discrimination Against Transgender People
    Employment discrimination may be the largest barrier transgender 
people must overcome to live secure lives. Many transgender individuals 
are passed over for promotions and raises, simply not hired, and/or 
terminated when their employer discovers they are transitioning or have 
previously transitioned genders. As a result, large percentages of the 
transgender population are unemployed and have incomes far below the 
national average.
    Although few studies have been conducted on the national level, the 
findings of the following studies conducted in various local and state 
jurisdictions are alarming, confirming that transgender workplace 
discrimination and economic hardship are consistent across the nation.
            Employment Discrimination Against Transgender People is 
                    Widespread
    <bullet> Nationally, a study conducted between 1996 and 1997 found 
that 37% of transgender individuals had experienced employment 
discrimination.\1\ The 2007 Williams Institute review, of six studies 
conducted between 1996 and 2006 in cities and regions on both coasts 
and the Midwest, found between 13%-56% of transgender respondents were 
fired, between 13%-47% were denied employment, between 22%-31% were 
harassed, either verbally or physically, in the workplace, and 19% were 
denied a promotion based on their gender identity.\2\
    <bullet> In Illinois, a study conducted between 1995 and 2001 found 
that 37-42% of gender variant individuals surveyed experienced some 
type of employment discrimination. Of the 44 reported cases of 
workplace discrimination, more than half involved firings, nearly a 
third involved workplace harassment, and the remainder involved 
refusals to hire. The study documented 38 cases of employment 
discrimination based on gender identity or expression in Cook County 
alone.\3\
    <bullet> In San Francisco, a study conducted in 2002 reported that 
almost half of 155 transgender survey respondents had been 
discriminated against in employment.\4\ A study conducted in 1999 in 
San Francisco found that among 392 male-to-female (MTF) participants 
46% reported job discrimination and among 123 female-to-male (FTM) 
participants 57% reported job discrimination.\5\
    <bullet> In a 2006 report of the San Francisco transgender 
community, 40% of respondents believed they were discriminated against 
when applying for work, over 24% of people reported that they were 
sexually harassed at work, almost 23% felt that co-workers 
intentionally used the wrong name or pronoun or failed to comply with 
repeated requests to stop doing so, 21% heard comments that made it 
difficult for them to feel safe and supported at work, 19% experienced 
trouble in advancing in their company or department, 18% were fired 
from a job due to gender identity discrimination, over 14% reported 
discrimination in the conditions of their employment, and over 12% 
reported that questions about whether they had surgery, what kind of 
surgery they had, or if they plan to have surgery, have created 
uncomfortable or hostile work environments.\6\
    <bullet> In Los Angeles, a study conducted between 1998 and 1999 of 
244 MTF transsexual individuals found that 29% were fired based on 
their gender identity. Forty-seven percent of the respondents had 
difficulty in finding employment.\7\
    <bullet> In Washington, D.C., a study conducted between 1999 and 
2000 of 248 transgender people of color in Washington, D.C. reported 
that 15% of respondents lost a job because of their transgender 
status.\8\
    <bullet> In Virginia, a study conducted between 2005 and 2006 
reported that 20% of transgender respondents were denied employment and 
13% were fired based on their gender identity.\9\
    <bullet> In Washington State, a study conducted between 2006 and 
2007 of 258 transgender people found that 41.5% had been denied 
employment, fired or otherwise discriminated against on the job because 
of their gender identity and/or expression.\10\
    <bullet> In Idaho, a 2003 survey study of over 2000 LGBT people 
reported that 16.3% of transgender participants said their employer 
actually stated that they had been denied a job, a raise, promotion or 
other compensation expressly because of their sexual orientation or 
gender identity. In describing their work environment, transgender 
participants described it more negatively than lesbian, gay, and 
bisexual participants.\11\
            Employment Discrimination Contributes to Economic Hardship 
                    for Transgender People
    <bullet> In 2007, the Williams Institute review of eleven studies 
found that large percentages of the transgender population are 
unemployed and have incomes far below the national average. Between 6% 
and 60% of transgender people reported unemployment and between 22% and 
64% reported incomes of less than $25,000 per year.\12\
    <bullet> In Minnesota, a study conducted between 1997 and 2002 
found that 22% of transgender people lived below the poverty line.\13\
    <bullet> In San Francisco, a study conducted in 1997 found that of 
515 transgender people, 19% of FTM individuals and 60% of MTF 
individuals were unemployed.\14\ In 2006, a report conducted in the San 
Francisco Bay Area of 194 transgender individuals found a 35% 
unemployment rate, with 59% earning less than $15,300 annually.\15\
    <bullet> A survey of African-American transgender people in San 
Francisco showed that 44% depended on government assistance. Many lived 
below the federal poverty level, with two-thirds of respondents 
reporting an annual income under $14,400.\16\
    <bullet> A 2006 report on the transgender community in San 
Francisco found that 15% of those surveyed earned income sporadically 
(kindness of family or friends, day labor, sex work, freelance work, 
and various business ventures). Furthermore, 20% of respondents 
reported receiving some income from the street economy (defined to 
include sex work and narcotic sales).\17\
    <bullet> In Philadelphia, a study conducted in 1997 found that of 
81 transgender people, 59% were unemployed and 56% made less than 
$15,000 annually.\18\
    <bullet> In Chicago, a study conducted between 2000 and 2001 found 
that of 111 transgender individuals, 34% were unemployed and an 
additional 40% made less than $20,000 annually, with a median income of 
just $16,900 a year, less than half the national median income.\19\
    <bullet> In Los Angeles, a study conducted between 1998 and 1999 of 
MTF transgender individuals found that 50% reported incomes of less 
than $12,000 per year, and 23% depended on government assistance.\20\
    <bullet> In Washington, D.C., a study conducted between 1998 and 
2000 found that only 58% of transgender respondents were employed, 29% 
had no annual source of income, 31% had annual incomes under $10,000, 
and 15% had lost a job due to employment discrimination.\21\
    <bullet> In a study conducted between 1999 and 2000 of 248 
transgender people of color in Washington, D.C., 35% reported they were 
unemployed and 64% made less than $15,000 annually.\22\
    <bullet> In Virginia, a study conducted between 2005 and 2006 of 
350 transgender people found between 9-24% were unemployed and 39% made 
$17,000 or less annually.\23\
    <bullet> In Washington State, a study conducted between 2006 and 
2007 of 258 transgender people found that 39% of those surveyed made 
less that $20,000 annually.\24\
                                endnotes
    \1\ Lombardi, E. L., Wilkins, R. A., Priesing, D. & Malouf, D. 
(2001). Gender violence: Transgender experiences with violence and 
discrimination. Journal of Homosexuality, 42.
    \2\ Badgett, M. V. L., Lau, H., Sears, B. & Ho, D. (2007). Bias in 
the workplace: Consistent evidence of sexual orientation and gender 
identity discrimination. Los Angeles: The Williams Institute.
    \3\ Plotner, B., Stevens-Miller, M. & Wood-Sievers, T. (2002). 
Discrimination 2002: 6th report on discrimination and hate crimes 
against gender variant people. Chicago: It's Time Illinois!
    \4\ Minter, S. & Daley, C. (2003). Trans realities: A legal needs 
assessment of San Francisco's transgender communities. San Francisco: 
National Center for Lesbian Rights and Transgender Law Center.
    \5\ Clements, K., Katz, M. & Marx, R. (1999). The transgender 
community health project: Prevalence of HIV infection in transgender 
individuals in San Francisco. San Francisco: San Francisco Department 
of Health.
    \6\ San Francisco Bay Guardian and Transgender Law Center. (2006). 
Good jobs now! A snapshot of the economic health of San Francisco's 
transgender communities. San Francisco: The San Francisco Bay Guardian 
and Transgender Law Center.
    \7\ Reback, C. J., Simon, P.A., Bemis, C.C. & Gaston, B. (2001). 
The Los Angeles transgender health study: Community report. Los 
Angeles: University of California at Los Angeles.
    \8\ Xavier, J. M. & Simmons, R. (2005). A needs assessment of 
transgender people of color living in Washington, DC. International 
Journal of Transgenderism, 8(2/3).
    \9\ Xavier, J. M., Hannold, J.A., Bradford, J. & Simmons, R. 
(2007). The health, health-related needs, and lifecourse experiences of 
transgender Virginians. Richmond: Division of Disease Prevention 
through the Centers for Disease Control and Prevention, Virginia 
Department of Health.
    \10\ Ingersoll Gender Center. (2008, January 9). Perspectives 
Northwest survey report: Transgender and gender variant community needs 
assessment survey. Ingersoll Gender Center.
    \11\ Pollard, J. (2003). Report on the 2003 Idaho lesbian, gay, 
bisexual and transgender survey. www.idaholgbtsurvey.com. Retrieved 
June 25, 2008, from http://www.safeschoolscoalition.org/Nicole-
SURVEYREPORT-%20final.pdf
    \12\ Badgett, M. V. L. et al. (2007).
    \13\ Bockting, W., Huang, C., Ding, H., Robinson, B. & Rosser, S. 
(2005). Are transgender persons at higher risk for HIV than other 
sexual minorities? A comparison of HIV prevalence and risks. 
International Journal of Transgenderism, 8(2/3).
    \14\ Clements, K. et al. (1999).
    \15\ San Francisco Bay Guardian and Transgender Law Center. (2006).
    \16\ Rose, V. et. al. (2002). Investigation of the high HIV 
prevalence in the transgender African American community in San 
Francisco. San Francisco: University of California San Francisco AIDS 
Research Institute.
    \17\ San Francisco Bay Guardian and Transgender Law Center. (2006).
    \18\ Kenagy, G. P. (2005). The health and social service needs of 
transgender people in Philadelphia. International Journal of 
Transgenderism, 8(2/3).
    \19\ Kenagy, G. P. & Bostwick, W. B. (2005). Health and social 
service needs of transgender people in Chicago. International Journal 
of Transgenderism, 8(2/3).
    \20\ Reback, C. J. et al. (2001).
    \21\ Xavier, J. M. (2000). The Washington, DC transgender needs 
assessment survey final report for phase two. Washington, DC: 
Administration for HIV/AIDS of the District of Columbia.
    \22\ Xavier, J. M. & Simmons, R. (2005).
    \23\ Xavier, J. M. et al. (2007).
    \24\ Ingersoll Gender Center. (2008, January 9).
                                 ______
                                 

   Prepared Statement of Rebecca E. Fox, National Director, National 
                       Coalition for LGBT Health

    Thank you for this opportunity to submit testimony on the harm 
employment discrimination causes transgender people. The National 
Coalition for LGBT Health is composed of sixty organizations from 
across the country, including health departments, community health 
centers and mental health service organizations. Based on their 
extensive experience in public health and with the transgender 
community, our members identify access to stable, safe employment that 
includes health insurance as a key factor to improve health outcomes 
and alleviate health disparities.
    Being transgender is neither pathological nor a barrier to 
employment, although transgender people experience significant, 
pervasive, and interlinked barriers to both health care and employment. 
In fact, transgender people exhibit mental health problems that are 
comparable to those seen in other persons who experience major life 
changes, relationship difficulties, chronic medical conditions, or 
significant discrimination on the basis of minority status.\i\
---------------------------------------------------------------------------
    \i\ Dean, Lauren et al. ``Lesbian, Gay, Bisexual, and Transgender 
Health: Findings and Concerns.'' Journal of the Gay and Lesbian Medical 
Association 4.3 (2000).
---------------------------------------------------------------------------
    Transgender people are significantly more likely to be unemployed 
than the general population. Because employment is tied to health 
insurance in the U.S., transgender Americans likewise face a high rate 
of being uninsured. Studies in major metropolitan areas, including New 
York City, San Francisco and Washington, DC, have found fully half of 
the transgender community is uninsured compared to around 12% among 
non-transgender people. These rates become even higher for transgender 
people of color.
    The Centers for Disease Control and Prevention (CDC) and the 
Substance Abuse and Mental Health Service Administration (SAMHSA) agree 
with the Coalition's position that employment protection is linked to 
better health outcomes. Both government agencies state that the lack of 
access to employment and the social marginalization created through 
denial of employment can lead to higher rates of physical and mental 
illnesses for transgender people.
    In a fact sheet, the CDC posits that the lack of employment 
protections lead to an increased risk of HIV infection for transgender 
people. According to the CDC, the social marginalization of transgender 
people can result in the denial of employment, and ``transgender people 
face stigma and discrimination, which exacerbates their HIV risk. The 
stigma of transgender status is associated with lower self-esteem, 
increased likelihood for substance abuse and survival sex work in [male 
to female] MTFs, and lessened likelihood of safer sex practices.'' \ii\ 
The HIV rate among transgender people, especially transgender women, is 
between 14 and 69 percent.\iii\
---------------------------------------------------------------------------
    \ii\ ``HIV/AIDS and Transgender Persons'' Centers for Disease 
Control and Prevention. Accessed online at http://www.cdc.gov/
lgbthealth/pdf/FS-Transgender-06192007.pdf.
    \iii\ Ibid.
---------------------------------------------------------------------------
    According to SAMHSA, a lack of civil rights protections--including 
employment nondiscrimination statutes--leads to an increase in mental 
illness and substance abuse in the transgender community.\iv\ In A 
Provider's Introduction to Substance Abuse Treatment for Lesbian, Gay, 
Bisexual, and Transgender Individuals, the agency makes the direct link 
between drug and alcohol usage by the transgender community and lack of 
employment protections. SAMHSA also states, ``additional relapse 
triggers or significant clinical issues for transgender clients might 
include the inability to find, engage in, or maintain meaningful or 
gainful employment simply because they are transgender.'' \v\
---------------------------------------------------------------------------
    \iv\ Leslie, Dominique Rosa et al. ``Clinical Issues With 
Transgender Individuals.'' A Provider's Introduction to Substance Abuse 
Treatment for Lesbian, Gay, Bisexual, and Transgender Individuals, 
Substance Abuse and Mental Health Services Administration, 2007.
    \v\ Ibid.
---------------------------------------------------------------------------
    Lack of insurance results from lack of employment, which results 
from stigma and discrimination bolstered by a gap in the laws for 
protecting civil rights. Being chronically uninsured or underinsured 
means transgender people do not access preventative care, such as 
screenings for heart disease, high blood pressure and cancers. In turn, 
this lack of preventative care increases the morbidity rates and 
shortens the lifespan of many transgender people resulting in the 
disparities we see in health outcomes for this community compared to 
the general public. This is especially true for transgender people of 
color.
    The Committee has undertaken an important step towards eliminating 
health disparities by holding today's hearings. While employment 
protections are not a cure all, they are certainly an important step in 
improving the health and well-being of transgender people. The 
Coalition asks that Congress continue this work by enacting legislation 
that helps transgender people achieve employment free from the fear of 
discrimination.
                                 ______
                                 

            Prepared Statement of the Transgender Law Center

    Mr. Chairman and Members of the Subcommittee: The Transgender Law 
Center (TLC) is a California state-wide, non-profit civil rights 
organization advocating for transgender communities. Created in 
response to the overwhelming discrimination that transgender people and 
our families face in nearly every institution in California, we utilize 
direct legal services, education, community organizing, and policy and 
media advocacy to overcome this discrimination and help the state 
become one where every person's gender identity is respected and 
supported. TLC is honored to submit this statement regarding pervasive 
discrimination against transgender Americans in the workplace, and we 
thank you for your consideration of this important issue.
    Our statement draws on the daily contact we have with transgender 
community members, as well as our advocacy work and research. Every 
year we assist nearly 1,000 transgender individuals with legal issues. 
Approximately 10% of our clients contact us regarding discrimination or 
harassment in the workplace. Countless others contact us with issues 
that directly affect their ability to secure and maintain employment, 
such as access to health care, identity documents, and housing.
    While limited research exists on transgender people in the 
workplace, all available studies and anecdotal evidence point to 
extremely disproportionate unemployment and underemployment among 
transgender people. This bleak employment picture is largely a 
consequence of the discrimination that too many transgender people 
experience in employment, education, and other areas that affect 
transgender people's ability to secure and maintain employment.
    The attached ``Good Jobs NOW!'' report, supported by the Women's 
Foundation of California and conducted by TLC and the San Francisco Bay 
Guardian, provides sorely needed data on the economic reality 
experienced by transgender people and their families. In early 2006, 
194 self-identified transgender people living, working, or looking for 
work in San Francisco were surveyed. The outcomes are stark.
    Among ``Good Jobs NOW!'' respondents, nearly 60% earned under 
$15,300 annually and only 8% earned over $45,900. Forty percent did not 
have a bank account of any kind. Only 25% were working full-time, with 
16% working part-time, and nearly 9% reporting no source of income. 
Over 57% percent reported experiencing employment discrimination, but 
as few as 12% took any kind of action and only 3% filed an 
administrative or civil complaint.
    These findings are made even more compelling by the fact that the 
survey was conducted exclusively in San Francisco. Both San Francisco 
and California have strong employment non-discrimination laws and 
regulations that support safer and more effective integration of 
transgender people into the workplace. However, a lack of Federal 
protections has a tremendous effect on the transgender community 
nation-wide. Every week transgender people living in states without 
protective legislation call TLC. These hard working Americans have 
little to no recourse in their home states.
    Allowing employers to make decisions about hiring, firing, 
promotions, and discipline based on a worker's identity goes against 
America's core value of equal opportunity. All too often, we see 
transgender Americans forced out of successful careers when they 
express their gender identity. Many transgender people fear and 
experience discrimination and therefore must either hide who they are, 
to the detriment of their health; leave jobs they love in order to 
transition without risking termination; or face rampant harassment and 
discrimination in their current workplace. Federal protection from 
discrimination and harassment based on gender identity would liberate 
the transgender community from this stark reality. Such legislation 
would allow transgender Americans to continue contributing to our 
country's workforce without fear of being terminated simply because of 
who we are.
    We urge the Subcommittee to recognize this issue of basic fairness. 
Transgender Americans deserve to be ourselves in a workplace where we 
are judged exclusively on our ability to do our jobs. Work is an 
integral part of our lives, of who we are, just like our gender. No 
American should have to choose between their gender, and making a 
living.
                                 ______
                                 
    [Additional submission from Ms. Sanchez follows:]

 Prepared Statement of the Gay, Lesbian and Straight Education Network

    Chairman Andrews, Ranking Member Kline, members of the Subcommittee 
and members of the full Committee; thank you for the opportunity to 
submit testimony for this important hearing on ``An Examination of 
Discrimination Against Transgender Americans in the Workplace''. We 
appreciate your examination of this important issue and the role that 
Congress can play in addressing discrimination against transgender 
Americans.
    The Gay, Lesbian and Straight Education Network (GLSEN) is the 
leading national education organization focused on ensuring safe 
schools for all students. Established nationally in 1995, GLSEN 
envisions a world in which every child learns to respect and accept all 
people, regardless of sexual orientation or gender identity and 
expression. We strive to ensure that each member of every school 
community is valued and respected regardless of sexual orientation or 
gender identity and expression.
    While research on the scope of discrimination against transgender 
employees is limited, experience tells us that the effects of such 
discrimination are dramatic. Transgender Americans are community 
members, educators and parents. When an employee is forced from their 
job because of their gender identity, everyone in their community, 
workplace and family feels the effects.
    When a transgender individual loses their job, their children may 
suffer the economic adversity and educational impact that any student 
experiences when their parents lose a job. However the unique 
employment challenges faced by transgender individuals pose additional 
threats to the continuing education of their children.
    Like all Americans, educators and other school staff deserve to be 
protected fully from job discrimination. Experience has shown us that, 
like all workers, educators who express their true gender identity 
remain as competent and able to serve as before they do so. Time and 
again, educators who have expressed their gender identity have returned 
to the classroom and continued to serve their community.
    This past school year, Genna Suraci, a veteran principal from Port 
Ewen, NY, began expressing her true gender identity after working with 
her Superintendent and School Board to ensure a smooth transition. 
Genna stated that ``with the right parameters in place, we were able to 
set a pace that allowed us to move forward as if there were no real 
changes. While the school community had questions, we addressed them 
and continued to focus on educating our kids.''
    Consistent with our nation's renewed focus on the academic success 
of all students, we must continue to ensure that all students have 
opportunities to learn from experienced and qualified educators. By 
enacting federal employment protections based on gender identity, 
Congress will take a tangible step to retain skilled, experienced and 
qualified educators who happen to be transgender.
    Ensuring that everyone feels safe and is treated fairly, be it at 
school or work, is at the very foundation of a society that values and 
respects all of its people. All Americans deserve the chance to have a 
job and support themselves and their families, and to contribute to 
their community. We urge Congress to do the right thing and show it 
believes in basic rights for all of the people it represents.
    GLSEN urges you to recognize the dramatic impact that workplace 
discrimination against transgender individuals has on transgender 
employees, their families and communities; and to include gender 
identity in future expansions of federal employment protections.
    We urge the Subcommittee to continue to explore and seek out 
opportunities to address this important issue. One concrete way to do 
so is to ensure that any legislation to expand federal employment 
protections includes actual or perceived gender identity and 
expression.
    Again, GLSEN thanks you for your attention to this important issue 
and for the opportunity to provide this testimony for the record. We 
are available to address any questions that you may have.
                                 ______
                                 
    [Whereupon, at 1:50 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
